<html>
<title> - THE DEPARTMENT OF HOMELAND SECURITY'S SECURITY INITIATIVES TO SECURE AMERICA'S BORDERS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
 THE DEPARTMENT OF HOMELAND SECURITY'S SECURITY INITIATIVES TO SECURE 
                           AMERICA'S BORDERS

=======================================================================

                                HEARING

                               before the

                          SELECT COMMITTEE ON
                           HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 25, 2003

                               __________

                           Serial No. 108-14

                               __________

    Printed for the use of the Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
96-677                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001




                 SELECT COMMITTEE ON HOMELAND SECURITY

                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, Mississppi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
W.J. (Billy) Tauzin, Louisiana       Barney Frank, Massachusetts
David Dreier, California             Jane Harman, California
Duncan Hunter, California            Benjamin L. Cardin, Maryland
Harold Rogers, Kentucky              Louise McIntosh Slaughter, New 
Sherwood Boehlert, New York          York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., New Jersey
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Charles Gonzalez, Texas
Jim Gibbons, Nevada                  Ken Lucas, Kentucky
Kay Granger, Texas                   James R. Langevin, Rhode Island
Pete Sessions, Texas                 Kendrick B. Meek, Florida
John E. Sweeney, New York

                      John Gannon, Chief of Staff

         Uttam Dhillon, Chief Counsel and Deputy Staff Director

                  Steven Cash, Democrat Staff Director

                    Michael S. Twinchek, Chief Clerk

                                  (II)





                            C O N T E N T S

                               __________


                           MEMBER STATEMENTS

  The Honorable Christopher Cox, Chairman, Select Committee on 
    Homeland Security............................................    14
  The Honorable Robert E. Andrews, a Representative in Congress 
    From the State of New Jersey.................................    41
  The Honorable Lincoln Diaz-Balart, a Representative in Congress 
    From the State of Florida....................................    26
  The Honorable Dave Camp, a Representative in Congress From the 
    State of Michigan............................................     5
  The Honorable Jennifer Christensen, a Representative in 
    Congress From the State of Washington........................    57
  The Honorable Norman D. Dicks, a Representative in Congress 
    From the State of Washington.................................    37
  The Honorable Jennifer Dunn, a Representative in Congress From 
    the State of Washington......................................     1
  The Honorable Bob Etheridge, a Representative in Congress From 
    the State of North Carolina..................................    63
  The Honorable Barney Frank, a Representative in Congress From 
    the State of Massachusetts...................................    47
The Honorable Jim Gibbons, a Representative in Congress From the 
  State of Texas
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
  The Honorable Bob Goodlatte, a Representative in Congress From 
    the State of Virginia........................................    34
The Honorable Asa Hutchinson, Under Secretary, Department 
  Homeland Security
  Oral Statement.................................................    15
  Prepared Statement.............................................    17
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas
  Oral Statement.................................................    11
  Prepared Statement.............................................    12
  The Honorable Zoe Lofgren, a Representative in Congress From 
    the State of California......................................    48
  The Honorable Edward J. Markey, a Representative in Congress 
    From the State of Massachusetts..............................    32
  The Honorable Karen McCarthy, a Representative in Congress From 
    the State of Missouri........................................    10
  The Honorable Kendrick B. Meek, a Representative in Congress 
    From the State of Florida....................................    14
  The Honorable Eleanor Holmes Norton, a Representative in 
    Congress From the District of Columbia.......................     8
  The Honorable Loretta Sanchez a Representative in Congress From 
    the State of California......................................     6
  The Honorable Christoper Shays, a Representative in Congress 
    From the State of Connecticut................................    39
  The Honorable Mark E. Souder, a Representative in Congress From 
    the State of Indiana.........................................    30
  The Honorable John E. Sweeny, a Representative in Congress From 
    the State of New York........................................     9
  The Honorable Jim Turner, a Representative in Congress From the 
    State of Texas...............................................     4

                                 (III)



                   MATERIAL SUBMITTED FOR THE RECORD

  Letter Submitted by the Honorable Sheila Jackson-Lee, a 
    Representative in Congress From the State of Texas...........    51
  Responses to Questions for the Record by Asa Hutchison.........    65

                                  (IV)


 HEARING ON THE DEPARTMENT OF HOMELAND SECURITY'S SECURITY INITIATIVES 
                      TO SECURE AMERICA'S BORDERS

                              ----------                              


                        Wednesday, June 25, 2003

                  House of Representatives,
             Select Committee on Homeland Security,
                                            Washington, DC.
    The committee met, pursuant to call, at 2:08 p.m., in room 
2318, Rayburn House Office Building, Hon. Christopher Cox 
[chairman of the committee] presiding.
    Present: Representatives Cox, Dunn, Smith, Shays, Camp, 
Diaz-Balart, Goodlatte, Souder, Thornberry, Gibbons, Sweeney, 
Turner, Sanchez, Markey, Dicks, Frank, Cardin, DeFazio, 
Andrews, Norton, Lofgren, McCarthy, Jackson-Lee, Christensen, 
Pascrell, Etheridge, Lucas and Meek.
    Ms. Dunn. [Presiding.] Good afternoon, ladies and 
gentlemen.
    The quorum being present, the Select Committee on Homeland 
Security will now come to order.
    The committee is meeting today to hear testimony assessing 
the Department of Homeland Security's initiatives to secure 
America's borders.
    Our chairman will be joining us shortly, but since he is on 
the floor making a statement right now, I think to take 
advantage, Mr. Hutchinson, of your time with us today, we will 
begin.
    I am especially pleased to welcome Under Secretary Asa 
Hutchinson here this afternoon. Many on this committee know him 
as an esteemed former colleague and friend. We also know him as 
an extraordinarily capable leader who is well equipped to take 
on what we all know is the Department of Homeland Security's 
toughest job, the Under Secretary of Border and Transportation 
and Security.
    Prior to the creation of the Department of Homeland 
Security, it was no secret that our national border strategy 
was fragmented, because the responsible agencies, the Customs 
service, the INS, the Border Patrol, the Animal and Plant 
Inspection Service, and the GSA all belonged under different 
Cabinet agencies.
    That situation no longer exists today.
    We now have a unified chain of command as our borders and 
we are working toward a unified structure. Together with our 
Mexican and Canadian neighbors, we are working through hard 
issues to secure our borders and at the same time to facilitate 
legitimate travel and commerce.
    The Border and Transportation Security's responsibilities 
involve virtually all of the 22 diverse agencies incorporated 
into DHS, and all of the department's old missions and its 
critical new one, to make America safer.
    Considering the complexity of America's ports, the long 
stretch of its borders, and the vast expanse of our critical 
infrastructure, one might simply ask our witness, where do we 
begin?
    The fact is, however, that the department has made 
significant progress on all these fronts, and we look forward 
to hearing about that progress this afternoon.
    It is also true that we have a lot more progress to make in 
the months and years ahead, and we also want to hear today 
about the department's plans to further enhance America's 
security.
    Internationally, we have been pushing our first line of 
defense overseas by placing customs agents in foreign ports to 
screen and inspect cargo before it arrives on our shores. 
Additionally, we are working with the private sector to ensure 
that all high-risk air cargo is screened before it is placed on 
the airplane bound for the United States.
    Our ability to gather, analyze and share relevant 
intelligence is key to our efforts.
    The Select Committee is committed to a strong Department of 
Homeland Security, with the capability to perform this 
intelligence and analysis function as is required by the 
Homeland Security Act. Barriers to information sharing need to 
come down.
    We need to take steps to arm customs and immigration 
inspectors with the timely information they need to carry out 
their number-one priority: to stop terrorists before they can 
do harm to Americans.
    Last weekend, the Select Committee on Homeland Security 
made a working visit to the Department of Defense Northern 
Command in Colorado Springs, and to the Los Angeles Long Beach 
ports in California. The trip included an air, land and 
waterway inspection of the port, and an informative public 
hearing on port security that we held in Los Angeles.
    During this trip we were struck by the enormous challenges 
of securing this strategic port, but we also were deeply 
impressed by the initiatives of the local and the regional 
leaders in partnership with Federal Government, both to secure 
the port from terrorism and to preserve its major contribution 
to this country's economy.
    Since the launch of the department's Container Security 
Initiative over a year ago, 19 megaports have now agreed to 
participate in CSI, 19 out of 20 megaports in the world have 
agreed to participate in CSI and are at various stages of 
implementation of the program. These megaports are points of 
passage for approximately two-thirds of all the containers that 
are shipped to the United States.
    I look forward to hearing about the level of cooperation we 
are receiving overseas.
    Legal sanctions take by the European Union against its 
member nations participating in the CSI program is a troubling 
development. And while questions remain regarding the 
operational status of the CSI program in various ports, the 
commitment to act by so many nations is in itself dramatic 
progress in the right direction.
    Intelligence information is a key element to the success of 
the Container Security Initiative since it informs the agents 
on the ground of likely high-risk containers and allows them to 
target their efforts.
    With good intelligence, we can reduce our risk and promote 
the flow of commerce. In this and so many other areas of 
homeland security, we need better intelligence to understand 
the terrorist threats and we need to get this information to 
our customs and immigration inspectors, and to the first 
responders, who need it to enhance our security.
    We must have better intelligence and we must find ways to 
share it more broadly if we are to reduce the terrorist threat, 
if we are to prioritize our vulnerabilities and if we are to 
develop cost-effective solutions.
    Our nation shares 5,525 miles of border with Canada, and 
1,989 miles with Mexico. More than 500 million people cross the 
borders into the United States each year. Facilitating the 
legitimate travel and business of these people is as critical 
to our way of life as in preventing would-be terrorists and 
terrorist materials from entering our country.
    The Bureau of Immigration and Customs Enforcements and the 
Bureau of Customs and Border Protection have been formed to 
ensure that both of these dual missions are rigorously pursued. 
They are using new promising technologies to facilitate the 
entry of legal residents and to identify those who pose 
potential threats to our countries.
    The Bureau of Customs and Border Protection, for example, 
has worked with Canadian officials to put in place the Free and 
Secure Trade Initiative, which enables the bureau to focus its 
security efforts on inspections, on high-risk commerce and 
facilitate the legitimate trades. On our southern border, too, 
through sound risk management principles, we are working to 
ensure safe, orderly and secure travels for legitimate border-
crossers.
    To encourage low-risk pedestrian and vehicle travel through 
already congested ports of entry, DHS plans to expand the 
secure electronic network for travelers rapid inspections, the 
sentry program. Already the United States has expanded the 
enrollment period for this program from one to 2 years. Already 
too, plans are underway to establish the first dedicated 
pedestrian lanes at the San Isidro port of entry.
    Additionally, the United States is expanding programs and 
partnerships with the private sector, such as the Business 
Anti-smuggling Coalition and the Customs Trade Partnership 
Against Terrorism. And Mexico's Compliant Importer/Exporter 
Program by developing high-tech dedicated travel lanes which 
will be made available only to those large companies willing to 
dedicate extra resources to securing their shipments to the 
United States. These lanes will expedite and facilitate the 
border crossing process, thus reducing the cost of doing 
business. As I understand it, we will open the first dedicated 
lane in El Paso Jaurez later this year.
    In conjunction with the Department of State, the Department 
of Homeland Security's visitor and Immigrant Status Indicator 
Technology Program at air and sea ports of entry is designed to 
collect information on the arrival and departure of most 
foreign nationals, to determine whether they should be allowed 
entry into the United States, whether they can change their 
immigration status or whether they have violated their visa 
status. We are eager to hear about the department's progress 
with this program.
    Incorporating advanced technologies into our security 
systems, training our security personnel and using intelligence 
to target our security efforts are central to the success of 
protecting our borders, our ports and our infrastructure, 
without compromising the values that make America a beacon of 
freedom, hope and opportunity in a troubled world. The 
expansion of current programs and the development of new 
processes will take time. And we must anticipate more bumps in 
the road.
    Failure, however, is not an option. America demands we 
succeed. Our constituents demand we succeed. And we want to 
keep that commitment. The committee is prepared to help DHS 
succeed in any way we can.
    I thank you, Mr. Hutchinson, for being with us, and look 
forward to your testimony.
    The Chair now recognizes Mr. Turner, the ranking Democrat 
member, for any statement he might have.
    Mr. Turner. Thank you, Madam Chairman.
    Welcome, Mr. Secretary. We are glad that you are with us 
today. I know that we all share a common purpose, and that is 
to do whatever it takes to secure our borders and to protect 
the American people from the threat of terrorism. Our joint 
mission is to make America stronger against those threats, and 
to do it in a faster way.
    The urgency of the task came to my mind yesterday as I read 
of the reports about threats to the chemical industry in Texas. 
It is clearly our duty to move with speed and to strengthen our 
nation in the same way we mobilize for war. To accomplish our 
mission means strengthening our borders on the land, sea and in 
the air.
    Two years ago, the PATRIOT Act called for tripling border 
officers on our northern border. Yet, today only one person on 
average watches every 16 miles of our northern border. That 
goal of the PATRIOT Act has yet to be met. That is why I think 
we must move faster and act now.
    We have dozens of border security tracking systems, but so 
far those systems do not work together. This leaves a serious 
question as to whether they can keep America's borders safe.
    On the sea, we have not yet completed the required port 
security assessments for the thousands of port facilities in 
America. These assessments are supposed to be submitted and 
reviewed by July of 2004, yet only a portion of the necessary 
funds has been provided to accomplish the mission. Ports need 
security upgrades at every level. At the current pace of 
construction it will be years before they are secure.
    In the air, we have passenger planes flying with holds 
filled with unscreened cargo. There are screeners who have not 
passed criminal background checks. For example, the Los Angeles 
Airport officials recently discovered 12 more screeners with 
felony convictions, despite the administration's rescrubbing of 
the screener's backgrounds.
    TSA's mission is much broader than just aviation. TSA must 
do more to assess and adequately protect other modes of 
transportation, such as rail, buses and ferries that millions 
of Americans ride every day. Despite this, almost 88 percent of 
TSA's budget is allocated to aviation security, and only 2 
percent is requested for both maritime and land security.
    Mr. Secretary, there are some who might tell us that our 
mission is to vast and too challenging. There are some who 
might say that the Department of Homeland Security has only 
been operational for a few months and that it needs more time. 
But I know and you know that our terrorist enemies do not wait. 
And we cannot wait to be prepared, so we must move faster and 
we must be stronger.
    Mr. Secretary, as a former member of this body, you know 
that Congress has always been willing, in a bipartisan manner, 
to do whatever is necessary to protect our national security. 
That means all you have to do is ask, and this Congress will 
respond.
    If you need additional resources to accomplish the 
objectives that I have mentioned-or any others-I know this 
Congress would stand ready to fund those endeavors in a 
bipartisan manner..
    We look forward to your testimony today. We look forward to 
receiving an update on the activities of your department. And 
most importantly, we appreciate your service to our country in 
your capacity as Under Secretary.
    Thank you, Madam Chairman.
    Ms. Dunn. Thank you very much, Mr. Turner.
    Under Committee Rule III, members who are here in the first 
5 minutes of the hearing can make opening statements of 3 
minutes or reserve their time for questioning. Does any member 
of the committee wish to make an opening statement?
    All right. Why don't we start on this side, and the 3 
minutes will be ceded to Mr. Camp.
    Mr. Camp. I thank the chairman.
    I would like to welcome Department of Homeland Security 
Under Secretary for Border and Transportation, Director Asa 
Hutchinson. Thank you for being here. We all know you pretty 
well and it is good to see you again. I realize this is your 
first appearance before the Select Committee on Homeland 
Security. I look forward to your testimony, and I know we have 
it in writing, and the update on the BTS Directorate.
    I had the opportunity to hear from you a little earlier 
this morning as you addressed the Northern Border Caucus. And I 
appreciate the knowledge and commitment to meeting the security 
challenges facing our nation.
    As chairman of the Subcommittee on Infrastructure and 
Border Security, I am particularly interested in your formal 
testimony, and I look forward to inviting you to appear before 
the subcommittee later this year.
    Obviously, homeland security is not an 8:00 to 5:00 job; it 
is 24 hours a day, seven days a week. Every day travelers pass 
through ports of entry, trucks carrying valuable commerce enter 
the nation, and ships full of containers arrive at sea ports.
    Obviously, you and other DHS officials have repeatedly said 
they are committed to moving security away from our borders to 
foreign ports and by screening cargo before they reach our 
ports of entry. I support this initiative, and I want the 
committee to be an asset to the department in moving this 
initiative forward. I hope you will provide an update on the 
programs and progress made toward this end, especially the 
container security initiative and advanced cargo manifests.
    Our nation thrives and grows based on the flow of goods and 
people. The United States is proudly the most open nation in 
the world. However, while ensuring these same transportation 
modes are accessible for legitimate uses, they also must be 
secure.
    And the challenge before us is to provide a level of 
security that is appropriate for the risk, including cargo 
screening, monitoring who and what is coming in and out of the 
country, without hindering legitimate commerce and travel. 
Closing down borders or delaying the flow of commerce in the 
event of a terrorist attack or in the name of increased 
security would have serious and long-standing affects on the 
national and world economy.
    The security and livelihood of the U.S. depends more than 
ever upon how efficiently Federal agencies charged with border 
management achieve their respected missions and coordinate 
their functions.
    The limitless innovation of citizens in industry in America 
will be invaluable in ensuring that security enhances commerce 
and travel, rather than hinders.
    As the department continues to organize and develop offices 
for assessing needs and proposals, I encourage you to develop 
strong partnerships and focus on finding these business 
solutions to our security needs.
    Border security cannot be discussed without including the 
implementation and utilization of advanced technology for 
monitoring and detection of contraband and illegal travelers 
crossing our borders. Without a doubt, we have some of the most 
hard-working and dedicated Americans serving our nation at 
ports of entry and along our borders. We must provide them with 
the technology and the tools to assist them in their mission.
    I thank the chairman for holding the hearing today and look 
forward to your testimony. Thank you.
    Ms. Dunn. Thank you very much, Mr. Camp.
    The Chair now yields 3 minutes to Ms. Sanchez.
    Ms. Loretta Sanchez of California. Thank you, thank you, 
Madam Chair.
    And thank you, Mr. Hutchinson, or Under Secretary Hutchison 
for being here. It is great to see you again, as usual.
    The security of our land borders, our sea ports and our 
ports are of course foremost in everybody's minds here, in 
particular, this committee, because we worked on it every day. 
But I think it is also important to every member who has a land 
border or a sea port. And so, we are very anxious to hear from 
you about the initiatives that you have for securing America's 
borders.
    One of the things that happened just this past weekend was 
that this committee took a trip out to California to see the 
Long Beach and Los Angeles port, and we held the hearing. And 
during that hearing, we heard a testimony from a number of 
witnesses, management, front-line people, who said they are not 
receiving the Federal fund that they need, the resources that 
they need to do their job.
    For instance, 35 percent of all U.S. international trade 
passes through the ports of Los Angeles and Long Beach. It is 
the third largest port area in the world, and about two and a 
half times the size of New York, New Jersey. So it is the 
largest sea port that we have.
    And yet, when we were there at our hearing, we were told 
that the port of Los Angeles has actually received--actually 
received--money they have received, a mere two and a half 
percent of the port grant money administered by the Department 
of Homeland Security. From a fiscal standpoint and from a 
security standpoint, it is just amazing to have heard that 
number. This gentleman went through the actual grant monies 
that he had in hand.
    Furthermore, while Commissioner Bonner's testimony from 
last week, another hearing that we had, highlighted the 
department's progress in developing non-intrusive technology 
equipment. Our front line United States Customs inspectors have 
told us that their x-ray equipment is frequently broken, and 
that there is often not enough staff to adequately use them. 
And of course, then there is the IG report that talks about not 
enough staff, poor training or a lack of training at this 
particular point.
    Meanwhile, the Department of Homeland Security talks about 
extending the borders outside of the United States or pushing 
off our actual borders and ports of entry, becoming our last 
line of defense. The department has publicized the Container 
Security Initiative as the bureau's primary port security 
program in operation today.
    We heard from Bonner and we heard from--I can't remember 
her name at the Los Angeles hearing that we had--about having 
now signed up 19 of the 20 largest ports in the world. However, 
after asking all of the questions, on closer inspection, what 
we have is only agreements with 19 of the 20 ports, and that 
the program is so far only in 10 of those 19, and that it is 
just operational. And sometimes operational means just one 
person at that port.
    And now we see Secretary Ridge has announced that this is 
going to be expanded up to 25 new ports of Middle Eastern and 
other Muslim countries.
    So I just hope that you will focus not on the plan and what 
you want to do, but what you actually already have in place. We 
are interested to know, because it is important for the safety 
of our people and our commerce.
    Thank you, Madam Chair.
    Ms. Dunn. Thank you. The gentlelady's time has expired.
    The Chair now recognizes for 3 minutes for an opening 
statement, Mr. Gibbons.
    Mr. Gibbons. Thank you, Madam Chairman.
    And I also want to welcome my good friend and colleague 
back before the committee. I know it is a great honor to see 
you in the position you are in today, and I wish you all the 
very best of luck.
    And I know that you have a very challenging task, to 
coordinate all those numerous Federal agencies while at the 
same time ensuring our border security and ensuring the free 
flow of goods and commerce to this country to keep our economy 
going. By no means is that an easy task.
    I know there is much to be done, and I certainly applaud 
you for the work you have done so far and as I said, certainly 
not going to be easy for what you have ahead of you.
    I ask only that perhaps in your opening statement you could 
address three basic areas that I have an interest in. And of 
course first would be how has our assessment of border breadth 
and border vulnerabilities improved since the inception of the 
Department of Homeland Security?
    But second, Congress has already passed and is currently 
considering several measures to mandate the screening and 
inspection of 100 percent cargo in containers entering the 
United States.
    So is this level of cargo inspection--and may I say that is 
going to be a task which certainly will hinder the flow and 
speed of our commerce--the only way to ensure materials posing 
a threat to our security do not enter the country, or is that 
the only way we can do this?
    And finally, as a former commercial airline pilot, I have 
taken a great interest in the Federal flight deck officer 
program that has commenced in February of this year. If you 
could address the number of flight crews that have completed 
the federally mandated training program and how much do you 
anticipate there will be a reduction in the cost of security or 
incidents attributed to this program to our aviation industry?
    And with that--I know that is a big challenge--want to 
welcome you once again. It is great to see you, and look 
forward to your testimony.

 PREPARED STATEMENT OF THE HONORALBLE JIM GIBBONS, A REPRESENTATIVE IN 
                   CONGRESS FROM THE STATE OF NEVADA

    First, I would like to welcome Under Secretary Hutchinson back to 
Capitol Hill this afternoon.
    Undersecretary Hutchinson has the challenging task of coordinating 
the numerous federal entities responsible for the protection of 
America's thousands of miles of border, and transportation within and 
through those borders, all while ensuring a free flow of the people and 
commerce that gives our nation the tools it needs to thrive.
    While I know that there is still much to be done, I applaud 
Undersecretary Hutchinson for his work thus far. His job certainly is 
not an easy one.
    Questions:
    How has our assessment of border threats and border vulnerabilities 
improved since the inception of the Department of Homeland Security?
    Congress has already passed and is currently considering several 
measures to mandate the screening and inspection of 100 percent of 
cargo and containers entering the U.S. Is this level of cargo 
inspection, a task that will certainly hinder the flow and speed of 
commerce, the only way to ensure materials posing a threat to our 
security do not enter our country?
    As a former commercial airline pilot, I have a keen interest in the 
progress of the program to arm airline pilots in the cockpit. Since the 
Federal Flight Deck Officer Program commenced in February of this year, 
how many airline pilots have completed the federally mandated training 
program?
    How much of a reduction in security incidents do you anticipate 
will be attributed directly to the Federal Flight Deck Officer program?

    Thanks for taking time out of your busy schedule to be here 
for us.
    And I yield back the balance of my time, Madam Chairman.
    Ms. Dunn. Thank you, Mr. Gibbons.
    The Chair now recognizes for a 3-minute opening statement, 
Ms. Norton.
    Ms. Norton. Thank you, Madam Chairman.
    And welcome, Secretary Hutchinson.
    I would like to bring to your attention an unusual and, I 
think, dangerous infiltration of a border that perhaps was not 
anticipated: The border I am talking about is the District of 
Columbia.
    And what I am talking about should concern all of us. 
Before the department was set up, you had a good working 
relationship with the Immigration Service on this issue. But 
what I am talking about is the sale of green cards and other 
documents within a mile of the Capitol of the United States in 
the Adams Morgan area of the District of Columbia.
    After working with the immigration authorities, we were 
able to get the kind of response that you might expect. This is 
at worst a danger to our country, at best I should think an 
embarrassment at this point. This began before 9/11 in 1998 
with the arrest of seven key suspects in the Adams Morgan area. 
In March 2000, three more.
    But let me tell you what they are selling within a mile or 
so of the Capitol. Right off 16th Street, straight out from the 
White House, this is what was confiscated in March 2000: 1,500 
counterfeit documents including green cards, employment 
authorization cards, Social Security cards, state 
identification cards, and related printing equipment. They 
also, by the way, seized a half a pound of marijuana at the 
same time, showing you what the links are here.
    Fourteen undocumented aliens were, in September 2000, 
seized, again with the same kind of loot.
    My office has a meeting on Friday with a man who was most 
helpful and skillful on this, Mr. Warren Lewis, and the man who 
I think heads this division of Homeland Security now, or 
section, Mr. Kevin Delcolie.
    Apparently, when this went over to Homeland Security, a lot 
of it, perhaps understandably, got derailed. It is very 
important that this get back on track right away.
    I also want to bring to your attention what the 
Transportation Committee did this morning. A unanimous 
amendment, lots of outcry from members at the 2-year shutdown 
of all general aviation at National Airport.
    This is the one place where the terrorists have won. We 
have opened up everything else: LaGuardia, you can put a 
charter plane in there, even though that is where the Twin 
Towers were taken down. You can get a charter plane out of 
Dulles or BWI.
    We have had briefings, but briefings are quite outrageous. 
They are Star Trek briefings, worse case scenario briefings. 
And they instruct you to, in fact, issue regulation. Issuing 
regulations doesn't mean it happens. What it does mean is we 
get an opportunity to see what should happen.
    Thank you very much, Madam Chairman.
    And thank you, Mr. Secretary.
    Ms. Dunn. Thank you. The gentlelady's time has expired.
    The Chair now recognizes Mr. Sweeney of New York for a 3-
minute opening statement.
    Mr. Sweeney. I thank the Chair for recognizing me.
    I hadn't intended on giving an opening and going to 
questions, but Secretary Hutchinson, I am in the middle of a 
markup on approps, and it is always good to see my old friend.
    It has been quite some time since your last testimony 
before a committee I sat on, which was the Subcommittee on 
Appropriations. And an awful lot has changed in the eight weeks 
since then, including the fact that yesterday, I think rather 
historically, we passed what is the House's blueprint for 
homeland security, making what subjectively I would say are 
pretty substantial changes to the original proposal. And I 
think they are reflective, as you noted to me yesterday in a 
conversation, to some things that have changed and occurrences.
    In the course of your testimony today or in questioning, 
because I am going to be in and out, there are a couple of 
things that I have of particular interest, and some of them 
relate to more of the process issues that have to happen, and 
others relate to I think the clear direction we are going to go 
in.
    I know you said and you said in that prior testimony to 
appropriations and you said, and Secretary Ridge has said a 
number of times, that formulation changes need to occur, 
especially in places like ODP and things of that nature. So I 
would be interested in hearing what the department's proposal 
would be, because I really think it is important that the 
department weigh-in on that issue, as well as the issue of 
high-risk, high-density dollars and what the department's 
position is now. I don't think I have to restate the history on 
that. We did that all too painfully yesterday on the floor. But 
I would like to hear where the department is definitively on 
that.
    And finally, of note today in one of the New York 
newspapers was a story that I think may point out in part a 
success, but certainly raises the worry that we all have of our 
homeland security, and that is that department investigators 
have been tracking and have uncovered a plot by the Iraqi 
government to infiltrate the homeland and carry out terrorist 
activities as part of a guerrilla war in the homeland. So I 
would be of great interest, given the public forum that we are 
in, of what information you could share with this committee on 
that.
    And I welcome you, Secretary Hutchinson, and look forward 
to hearing your words.
    Thank you.
    Ms. Dunn. I thank the gentleman.
    The Chair now yields 3 minutes for an opening statement to 
the gentlelady from Missouri, Ms. McCarthy.
    Ms. McCarthy of Missouri. Thank you, Madam Chairman.
    And welcome back, former colleague. I am glad to see you in 
your new role. And I thank you for coming before us today to 
brief us on this important matter.
    As ranking member of the Subcommittee on Intelligence and 
Counterterrorism, I am particularly interested in your thoughts 
and assessment of the intelligence data that you receive from 
the Intelligence Analysis and Infrastructure Protection 
directorate, IAIP. It is not mentioned in your testimony, but 
if there is time I would love for you to share your thoughts 
with us, so that this subcommittee can assist you in that 
important endeavor.
    And as we look to our port security, I must remind you that 
out in the heart of America in Mark Twain and Harry Truman 
country, the confluence of the Mississippi and Missouri River 
in St. Louis is a critical inland port area for all of the 
agricultural products that are being shipped from the Northwest 
on to New Orleans and back with supplies and things that we 
need.
    And in addition, our interior interstate, the NAFTA 
highway, I-35, runs through my district and much of southwest 
Missouri, hazardous material transportation is carried, and 80 
percent of it on our highways I-70 and I-44 as it makes it way 
through the heart of America.
    And the Kansas City area is second in rail traffic in the 
country, and there is a great deal of inland port activities 
that go on in my greater Kansas City and this district 
community. So I would also love for you to share your thoughts 
on how we are doing with our inland port security, both rail 
and highway, as well as riverways.
    And lastly, I am concerned because the House, in a very 
bipartisan way, adopted an amendment during your appropriations 
discussion to make sure that inspections were given to cargo on 
airplanes as it is for passengers. But an amendment that was 
proposed to increase your funding was withdrawn because it was 
ruled out of order.
    I would like your thoughts on how, as the bill progresses 
in this passage, you would recommend that we, who are all well 
intended in a bipartisan way, want this agency, this new 
department, and your efforts to succeed, can work together to 
make sure you have the resources needed to carry out the wishes 
of the Congress and your desire, as well as for the people of 
this country?
    Madam Chairman, I am going to yield back the balance of my 
time and hope that this helps move us along to the important 
discussions we will be having with our Secretary today.
    Thank you very much.
    Ms. Jackson-Lee. I thank the chairwoman very much for her 
kindness. And I, again, add my appreciation for the Secretary's 
presence, having formerly served with him on the Judiciary 
Committee.
    I said earlier today that, in times past, that we hope that 
Rome is not burning as we proceed with hearings and 
reorganization and organizing. And I know that there are many 
goodwill people, people of good intentions, working to make 
sure that the Department of Homeland Security works. And that 
is the challenge of this committee.
    Having had the opportunity to visit recently the northern 
border and the southern border, I know that you have a large 
task before you, not because they are not good people working. 
But I believe they need good resources and added people.
    And so I hope that in your testimony and in our discussion 
later, we will be able to talk more about using technology at 
the borders, particularly in the areas that I will speak about 
very briefly in the 3 minutes that I have.
    I also hope, and I had an amendment on the floor yesterday 
and engaged Mr. Rogers in a colloquy to talk about expediting 
the funds to the individuals that are on the home front, in the 
neighborhood. Now, there is some language in the appropriations 
bill that the money should be gotten to the state within 60 
days and to local communities within 30 days.
    Now, Mr. Secretary, are you aware that, in that process, 
application requirements are being put in place? And local 
entities that are the recipients of the funds to distribute to 
the actual performers of security are being asked to draft 
regulations again so that we can again apply and go through 
hoops and loops as it relates to getting money to the port 
security in Los Angeles, in Long Beach, in Houston, Texas, to 
the airport security in Chicago, and I mean the local 
enforcement that has this responsibility. This is a crisis.
    Then, I would like to bring to your attention the tragedy 
that occurred in Texas just about the beginning of May, May 11, 
when now 21 victims died, individuals who came to this country, 
most of us believe, to seek an opportunity. Yes, they were 
entering in an illegal manner, but I believe that we have got 
to grapple with that, because that is security.
    The oldest was 91, the youngest 5. And I will be putting 
forward to this body and to my colleagues, in a bipartisan 
legislation that will create a new class of non-immigrant alien 
status for those who would help us fight this terrorism and 
smash the smuggling rings, as well to adjust the status of 
anyone who happens to be a victim and smuggled in. That will 
provide the resources or the information regarding prosecution 
of those individuals.
    And finally, what we found to be very effective, providing 
extra resources, incentives, financial resources, for those who 
will provide us with that information.
    I would just like to close by simply saying this is a 
matter to the Chair. And I see that Chairman Cox is not here, 
but I will be pursuing this in the line of questioning. And 
that is a letter that we are asking for Chairman Cox to bring 
before this committee, Secretary Ridge, on the matter dealing 
with the Department of Homeland Security in Texas. And I will 
discuss that later.

       PREPARED STATEMENT OF THE HONORABLE SHEILA JACKSON-LEE, A 
          REPRESENTATIVE IN CONGRESS, FROM THE STATE OF TEXAS

    Mr. Chairman, thank you for convening the Full Committee to allow 
us to further examine the status of our border security. We are here 
today, in part, to query the Department of Homeland the Full Committee 
Security as to its plans to provide a balance of the establishment and 
maintainenance of security at our ports of entry coupled with the 
thwarting of any impediments to the stream of commerce, which is our 
lifeline. The new DHS programs designed to facilitate the border 
inspection process such as the Container Security Initiative (CSI) 
which will utilize the ``24-hour rule'' and those programs designed to 
expand our borders such as Free and Secure Trade (FAST), NEXUS, and the 
Customs-Trade Partnership Against Terrorism (C-TPAT) are quite 
encouraging when one looks at the overall picture. However, as we 
narrow our scope to the ``front line'' and the actual facilities that 
would be first in contact with a terrorist attack, these programs 
generate significant concerns.
    For example, I am very disturbed by the many deaths that have 
occurred recently during alien smuggling operations. Several weeks ago, 
an 18-wheeler passing through rural Texas was carrying undocumented 
immigrants from Mexico, Honduras, Guatemala, and El Salvador. The 
oldest was a man of 91, the youngest, a three-year-old child. At some 
point during this ourney, the heat inside the truck became unbearable. 
They pounded on the walls and shouted for help. Someone used a cell 
phone to call the police, but no one at the nearby police station spoke 
Spanish. It was too late when the police finally found a translator. By 
the time the sheriff's deputies arrived, the door to the truck 
compartment had been forced open. Four lifeless bodies were lying on 
the ground, dead from heatstroke and asphyxiation. Inside the truck, 
they found 13 other corpses, including that of a seven-year-old boy. I 
want to know what is needed to reduce the occurrence of such deaths. 
Our emergency preparedness initiative must work in conjunction with 
careful and conscientious employment policies.
    The Immigration and Nationality Act gives the Department of 
Homeland Security authority to offer nonimniigrant visas to aliens who 
can assist the United States government with the investigation or 
prosecution of a terrorist organization, enterprise, or operation. It 
also gives your Department the authority to adjust the status of aliens 
providing such assistance to that of lawful permanent residents. This 
authority must be used to maintain an orderly system of detection and 
enforcement.
    Relative to our discussion of DHS? border protection and 
enforcement programs, I have also been concerned about the issue of 
commercial alien smuggling. It is not clear, in the current regulatory 
scheme, how DHS will approach the situations that involve operations 
across international borders. We should examine our current inter-
agency dynamics, such as DHS collaboration with the Department of State 
and the Department of Justice. It would be helpful if we knew how 
successful DHS has been in working with other government agencies on 
investigating, apprehending, and prosecuting people involved in 
commercial alien smuggling. I am particularly interested in the methods 
that the Department has devised to share information provided by 
informants from other countries.
    Shifting gears to the actual borders, specifically the US Mexican 
line, I would suggest that we need more improvement measures for the 
critical infrastructure and other related facilities. Since the North 
American Free Trade Agreement (NAFTA) entered into force in 1994, the 
number of commercial vehicles crossing the U.S.-Mexico border has 
increased by 41 percent, while two-way trade between the United States 
and Mexico has almost tripled. Cross-border trade now averages more 
than $650 million a day, two-thirds of it through ports of entry in 
Texas, and nearly 70 percent of truck traffic coming from Mexico into 
the United States enters through Texas. The U.S.-Mexico border in Texas 
covers some 1,951 miles and is the busiest in the world. Each year, the 
United States' southern border allows in more than 300 million people, 
approximately 90 million cars, and 4.3 million trucks, and upon 
entering NAFTA, the number of vehicular crossing of this border 
increased by 41 percent. Mexico, as our second largest trading partner, 
shares the border as well as a wealth of unique history with the United 
States. The need for border infrastructure and border management 
systems that facilitate the continued integration of the North American 
economic region is vital. These systems should protect the citizens of 
both nations from terrorism, illegal drugs, and other dangers; 
facilitate and expedite legitimate cross-border travel and commerce; 
and allow our governments to better determine who crosses the borders.
    The new entry-exit systems to track the arrival and departure of 
non-U.S. citizens must operate efficiently and with an objective eye. 
The proponents of the CSI, C-PTAT, and FAST contend that they will 
dramatically improve our ability to deny access to those individuals 
who should not be allowed to enter the United States, while speeding 
the entry of routine, legitimate traffic. I fear, however, the 
potential for these programs to become a thinly disguised form of 
racial and political profiling. With respect to the NEXUS program with 
Canada, I ascribe to the belief that we need to draft and promulgate a 
set of bi-national regulations to govern the NEXUS system. This 
proposal would allow for a focus of the applicant's enrollment decision 
on whether this fast lane admission process poses a potential threat to 
national security. Furthermore, we need to include with this trade 
scheme a set of regulations that establish a due process appeals 
procedure for cases in which NEXUS applications are denied. Related to 
this matter, we need to ascertain the basis for the acceptance of NEXUS 
applications that have been denied, under the ``zero tolerance'' 
standard on the basis of old, very minor infractions. Moreover, despite 
the fact that Canada and the United States are both signatories to the 
1951 Convention relating to the Status of Refugees and the 1967 
Protocol and adhere to the definitions provided for in this body of 
international treaty law, the jurisprudence of our respective countries 
has developed independently. In light of our joint recognition of this 
document, the respective Refugee Status Determination systems are 
subject to patent differences of interpretation. The spirit NAFTA 
reflects the preferential trading relationship between Canada, Mexico, 
and the United States. Our task of effectively securing our borders 
with a respect for individual liberties must include a fair standard of 
determining and granting Treaty-NAFTA (``TN'') classification and hence 
allowing participation.
    The overall balance of thorough emergency preparedness, sound 
border patrol facilities and programs, and fair trade restrictions will 
keep our nation functioning at a comfortable, albeit efficient level.
    Mr. Chairman, again, I thank you for your time and effort in this 
matter.

    I yield back. Thank you very much, Madam Chairperson.
    Ms. Dunn. Thank you very much. The gentlelady's time has 
expired.
    The Chair now yields 3 minutes for an opening statement to 
Mr. Meek of Florida.
    Mr. Meek. Thank you, Madam Chair, Secretary. Thank you for 
being here.
    Prior to the committee meeting, we talked a little bit 
about border security and what happens every day and every 
weekend in South Florida.
    In South Florida, we are part of that 95,000 miles of 
coastline. And we have a Caribbean with a lot of issues, some 
as it relates to a dictatorship in Cuba, and others as it 
relates to the level of poverty and unsafe conditions for the 
people of Haiti.
    Any given weekend, we have well over 200 or 300 individuals 
coming to our coast. Some are released immediately because of 
the Cuban Readjustment Act, which is a good piece of 
legislation. If it is on the floor tomorrow. I will vote for it 
because it is the right thing to do. Others are incarcerated. 
We say detained.
    I think it is important that as we look at border security, 
especially those that are seeking political asylum due to a 
very dangerous situation, we are going to protect our borders. 
Our Coast Guard there in South Florida, we have one of the 
biggest stations in the country. They have a border patrol that 
has a very strong presence there.
    But I think it is important for areas such as South 
Florida, because I can't think of any other place in the 
country where you are going to have that kind of influx of 
individuals that will not land, that we must have a better 
strategy there.
    Why I am raising this question, as we look at border 
security and transportation, the fact that you have Castro that 
sided with, as it relates to the U.N. and as it relates to the 
actions of this nation in Iraq, it was one of the three 
countries that stood against us. We have individuals that are 
trying to escape the situation that is an unbearable situation 
for them.
    But at the same time security of our ports and security of 
our borders are important, but also the freedom of those 
individuals are important also. So I think it is important, as 
we look at diplomats, we look at business individuals who have 
to travel to this country to be able to do business, to be able 
to bring about the kind of trade that helps this country 
survive, we also have to think of those individuals that work 
on those ports, those individuals that may not be flying in 
first class.
    So, maybe if somewhere in your testimony, and I am going 
through your written testimony, you can address some of that, 
it would be much appreciated. Or look forward to similar 
questions on transfer.
    Thank you, Madam Chair.
    Chairman Cox. [Presiding.] Is there any other member who 
wishes to be recognized?
    If not, we welcome the Hon. Asa Hutchinson.
    And the chairman apologizes for coming late to this 
hearing. I had a bill on the floor, and no one will better 
appreciate what that is all about than, our former colleague, 
who is.
    We want to thank you for being here. We want to thank you 
for the work and dedication and energy and leadership that you 
have put into this position, which is so vital to our country. 
And thank you, especially, for your testimony submitted today. 
We have your written testimony and invite you to summarize. You 
are recognized for 5 minutes.

 STATEMENT OF THE HONORABLE ASA HUTCHINSON, UNDERSECRETARY FOR 
  BORDER AND TRANSPORTATION SECURITY, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Hutchinson. Thank you, Mr. Chairman and Congressman 
Dunn. Thank you for your presiding. Congressman Turner, thank 
you for your comments today.
    Former colleagues and members of this committee, I want you 
to know, first of all, I am encouraged by homeland security 
just by being here and seeing in this room such extraordinary 
talent and experience and dedication to the prospect of 
homeland security. And sometimes it is good to come over on the 
Hill for a lot of reasons, but today for a pump-up and a bit of 
encouragement that we are all, in a bipartisan way, engaged in 
this important endeavor for our country.
    And so, I want to thank you for the work of this committee, 
the partnership that we experience with you, and what we will 
be able to accomplish together.
    This is my first appearance before this committee, and I am 
pleased to be here as Under Secretary for the Border and 
Transportation Security Directorate.
    It was pointed out in the comments that securing our 
nation's air, land and sea borders is a very difficult and 
critical task. And Border and Transportation Security 
Directorate is one of five directorates within the department, 
and we are in partnership with the Coast Guard. And we have 
responsibility for watching over those borders and 
transportation systems.
    This directorate is comprised of former U.S. Customs 
Service, part of the Immigration and Naturalization Service, 
the Transportation Security Administration, the Office for 
Domestic Preparedness, the Inspections Division of the Animal 
and Plant, Health Inspection Service, the Federal Protective 
Service, and the Federal Law Enforcement Training Center.
    It is comprised of about 110,000 very dedicated employees 
from those various agencies brought under BTS directorate 
because of a common focus that each of them have on ensuring 
the security of our borders, our ports of entry and 
transportation systems, and, at the same time, making sure 
commerce flows in an unimpeded fashion.
    In the 5 months since the creation of the department, and 
less than three since we truly became an operational entity, 
this directorate has taken a number strides to integrate its 
historic agency and streamline their operations. We have 
achieved a number of operational and coordinating successes and 
challenges since January 24.
    And I wanted to share just a few of those accomplishments. 
I hope the conclusion is that we are, indeed, out of the gate, 
running fast and hard toward our objective. Since January 24, 
the BTS directorate has initiated a comprehensive 
reorganization of its agencies creating two new bureaus, the 
Bureau of Immigration and Customs Enforcement, and the Bureau 
of Customs and Border Protection.
    I will just add Congresswoman Jackson-Lee mentioned 
Victoria, Texas, and one of the successes that was noted in the 
apprehension of the alien smugglers that devastated human 
lives. The investigation was aided by the fact that we had both 
Customs's expertise and Immigration expertise working together 
to accomplish that mission. We have deployed new technologies 
and tools at our borders.
    We have expedited the distribution of billions of dollars 
in grant monies to states and cities, with more to come. I will 
remark, Congresswoman Sanchez, yes, there is some difficulty in 
getting it out not from an ODP standpoint, Department of 
Homeland Security, but in moving it through the pipeline 
quickly. I congratulate Congress for putting a 45-day 
restriction requirement to get the money from the state to the 
localities. That has been a helpful initiative.
    We have certainly tried to add technical expertise within 
the Department of Homeland Security to help the states, local 
governments and their processing of this money. And we are 
trying to work with the states to move it out very quickly, and 
to put pressure on them to accomplish that goal.
    We have created a 24-hour radiation weapons of mass 
destruction hot line to assist our officers on the front line 
with scientific and technical needs regarding chemical, 
biological, radiological and nuclear alerts along the border. 
We have held bilateral meetings with Home Secretary of the U.K. 
David Blunkett, Canada's Deputy Prime Minister John Manley, and 
Mexico's Secretary of Interior Santiago Creel to continue 
progress on security initiatives of mutual interest.
    The directorate has pushed the first phase to develop the 
U.S. Visit System. And we will have an initial deployment at 
air and seaports of entry by December 31 of this year. The 
system will be capable of tracking the entry and exit of 
foreign visitors who require a visit to the U.S., and will make 
entry easier for legitimate travelers and more difficult for 
illegal entrants through the use of biometrically authenticated 
documents when this system is fully implemented.
    And so the BTS objective is to increase security through 
risk investment, through increased intelligence sharing and 
through improved organizational coordination.
    In regards to the intelligence programs, our directorate 
has set up an operational intelligence working group to begin a 
comprehensive review of our agency's operational intelligence 
programs and how we share information among us. Obviously, we 
are working with the directorate of information analysis as we 
do this. We are looking at it from an operational standpoint.
    And one of the successes that came out of this is that the 
chief of naval intelligence came to see me just to thank me 
because prior to the creation of the Department of Homeland 
Security, they could not gain information that U.S. Customs had 
in their databases that would be helpful in the naval 
intelligence system in protecting America. They actually had to 
go out and try to buy it on the commercial market. We changed 
that. We made that available. It is now available, because of 
increased intelligence sharing.
    When it comes to air cargo security, my directorate has 
hosted working groups between CBP, Customs and Border 
Protection, and Transportation Security Administration to talk 
about how we can increase the working relationship between the 
agencies, taking inventory of the different initiatives that 
are out there, formulate a stronger strategy and move these 
issues forward.
    When it comes to combating drug trafficking, having been in 
the DEA, I understand it from both perspectives. And there has 
been insufficient cooperation among some of the drug 
enforcement components. And so we entered into discussions 
between Immigrations and Customs Enforcement with the DEA. We 
have entered into a joint partnership in which we have 
initiated some pilot programs to increase cooperation, 
intelligence-sharing and actually co-locate some of our task 
forces.
    In fact, when you look at Immigrations and Customs 
Enforcement almost half of their cases are drug cases. If we 
cannot have a high level of cooperation and sharing with the 
DEA and other drug enforcement agencies, then we are missing 
the boat and not doing a good job for the American people. We 
are heading up that initiative.
    When it comes to immigration delegation of authority, the 
Immigration Nationality Act, Section 287(g) provides capability 
for us to give immigration enforcement authority to state and 
local law enforcement. This has only been used in Florida. It 
is being looked at in Alabama. But we have engaged additional 
discussions with the Los Angeles County Sheriff's Office, 
looking at pilot projects, different ways that we can partner 
together, cross-train, so that we can utilize local law 
enforcement when proper training is in place. And so we are 
investigating that possibility.
    Whenever you look at incident management, we have had plans 
from Customs, we have had plans from Coast Guard, we have had 
different plans as the 22 agencies have come on board DHS. Our 
responsibility is to review those plans to see and make sure 
that they are coordinated. We are proceeding with that.
    Reviewing policies and training in regard to racial 
profiling policy. As the President has announced, new policies 
to the attorney general, we are looking to make sure they are 
implemented in the agencies of Border and Transportation 
Security directorate.
    These are a few of the examples of what BTS is doing to 
coordinate the functions of the agency.
    I look forward to the questions and discussions that we 
will have in this committee as time goes on. I have used up my 
time. But again, I want to thank you for your partnership, your 
joint leadership with us, and look forward to continued 
success.
    [The statement of Mr. Hutchinson follows:]

             PREPARED STATEMENT OF THE HON. ASA HUTCHINSON

    Good morning Chairman Cox, Congressman Turner, distinguished 
members of the Committee. I am delighted to appear before you today to 
discuss the progress, status and plans for the Department of Homeland 
Security's Directorate of Border and Transportation Security.
    On this my first appearance before this committee, I wish to 
commend you on its creation and for your willingness to serve our 
nation in this fashion. I came to know many of you during my time in 
the House of Representatives and have the utmost respect for your focus 
on advancing what is best for the nation and for its citizens. Your 
dedication to ensuring the security of our homeland will be a critical 
element in the Department's success. Today's hearing marks a 
significant milestone in our combined effort to ensure the Department 
of Homeland Security, and in particular, the Border and Transportation 
Security (BTS) Directorate, fulfills its promise and potential.
    Securing our nation's air, land, and sea borders is a difficult yet 
critical task. The United States has 5,525 miles of border with Canada 
and 1,989 miles with Mexico. Our maritime border includes 95,000 miles 
of shoreline, and a 3.4 million square mile exclusive economic zone. 
Each year, more than 500 million people cross the borders into the 
United States, some 330 million of whom are non citizens, through our 
350 ports of entry.
    The Border and Transportation Security Directorate is one of five 
Directorates within DHS, and in partnership with the Coast Guard, 
watches over our nation's borders and transportation systems. The BTS 
Directorate is comprised of the former U.S. Customs Service, the 
Immigration and Naturalization Service, the Transportation Security 
Administration, the Office of Domestic Preparedness (ODP), the 
Inspections Division of the Agriculture Plant Health Inspections 
Service (APHIS), the Federal Protective Service (FPS), and the Federal 
Law Enforcement Training Center (FLETC). Its extraordinarily dedicated 
employees--over 100,000 of them--were brought together under the BTS 
roof because of their common focus of ensuring the security of our 
nation's borders, ports of entry and transportation systems, on 
facilitating the flow of legitimate commerce and on enforcing our 
nation's immigration laws.
    In the five months since the creation of the Department, and less 
than three since we truly became an operational entity, the BTS 
Directorate has taken a number of strides to integrate its component 
agencies and streamline their operations. We have achieved a number of 
operational and programmatic successes and challenges since the 24th of 
January, and I'd like to share some of those accomplishments with you 
in the hope that you will share my assessment that we are indeed, off 
to good start.
    Since its inception on January 24, 2003, the Border and 
Transportation Security Directorate has:
    <bullet> Initiated a comprehensive reorganization of its component 
agencies, creating two new bureaus: the Bureau of Immigration and 
Customs Enforcement, and the Bureau of Customs and Border Protection.
    <bullet> Deployed new technologies and tools at land, air and sea 
borders;
    <bullet> Expedited distribution of billions of dollars in grant 
monies to states and cities, with more to come.
    <bullet> Created a 24 hour RadiationlWMD Hotline to assist BCBP and 
BICE officers with scientific and technical needs regarding Chemical, 
Biological, Radiological and Nuclear (CBRN) alerts along the border.
    <bullet> We have held bilateral meetings with UK Home Secretary 
David Blunkett, Canada's Deputy Prime Minister, John Manley, and 
Mexico's Secretary of Interior, Santiago Creel, to continue progress on 
security initiatives of mutual interest.
    <bullet> BTS is in the first phase of developing the US-VISIT 
system and we will have an initial deployment at air and sea ports of 
entry by December 31, 2003. The system will be capable of tracking the 
entry and exit of foreign visitors who require a visa to the U.S. US-
VISIT will make entry easier for legitimate travelers and more 
difficult for illegal entrants through the use of biometrically 
authenticated documents.
    <bullet> Conducted a series of listening sessions at strategic 
ports throughout the U.S.
    <bullet> Participated in Operation Liberty Shield, the first 
comprehensive, national plan to increase protections of America's 
citizens and infrastructure;
    <bullet> Completed TOPOFF II, the largest terrorist response 
exercise in history.
    Accomplishments to strengthen and improve security by BTS component 
agencies include:
    Transportation Security Administration
    TSA's approach to transportation security is one designed to 
provide layered protection. To date, TSA has achieved significant accomplishments in both its overall approach and within the specific transportation modes:
    <bullet> TSA is screening passengers and checked baggage at our 
nation's airports, including electronic explosives detection for 
checked baggage at nearly all commercial aviation airports--all within 
the Congressionally mandated deadlines and all with the congressionally 
approved methods of screening set forth in the Aviation and 
Transportation Security Act that was passed by Congress and signed by 
President Bush on Nov. 19, 2001. As a side note, I would like to 
mention that nationally, about 92 percent of all bags are screened 
electronically. Prior to 9-11 only about 5 percent of all bags were 
being screened by any means.
    <bullet> TSA is working with airports on the installation of 
equipment needed to screen all bags electronically and is preparing 
Letters of Intent for several major airports that will commit federal 
funds to projects for the installation of electronic screening 
equipment.
    <bullet> TSA dramatically expanded the Federal Air Marshals program 
to cover a significant percentage of both international and domestic 
flights.
    <bullet> TSA worked with the FAA in administering a program for air 
carriers to install hardened cockpit doors for commercial passenger 
aircraft.
    <bullet> TSA is developing a new and improved successor to the 
current Computer Assisted Passenger Prescreening System (CAPPS). CAPPS 
II will assist the agency in identifying terrorist threats to the 
aviation system while also dramatically reducing the number of 
travelers subjected to additional screening procedures at the nation's 
airports. This system is being carefully designed to improve security 
while respecting the civil liberties of American travelers.
    <bullet> Enhanced security in general aviation through the private 
charter and the ``12-5'' rules
    <bullet> TSA screeners at Denver International Airport developed a 
pilot program, ``Tots Friendly,'' designed to put children at ease as 
they go through security. The program is being evaluated for possible 
nationwide expansion.
    <bullet> TSA implemented a full scale training program for 
screening persons with disabilities and those with special situations.
    <bullet> TSA launched Federal Flight Deck Officer training program 
to enable qualified flight crews to be armed while on duty. The first 
class concluded on April i9 with 44 pilots certified to carry firearms 
in the cockpit as Federal Flight Deck Officers
    <bullet> TSA developed a strengthened ``Known Shipper'' program for 
air cargo including strengthened requirements to achieve Known Shipper 
status, and is developing additional layers of security to ``pre-
screen'' cargo for targeted inspections.
    <bullet> TSA has worked with airlines, airports and other airport 
employers to ensure that background checks have been done on all of 
their employees. This includes criminal background checks done by the 
airports. More than 1 million background checks have been completed.
    <bullet> TSA has launched a development program for the 
Transportation Worker Identification Credential (TWIC).
    <bullet> TSA has promulgated a new background check rule for hazmat 
transportation under the Patriot Act.
    <bullet> TSA has undertaken planning to run a consequence 
management drill with Amtrak and New York City's Penn Station.
    <bullet> TSA has developed an initiative with the Chlorine 
Institute to address their bulk hazardous materials shipments.
    <bullet> TSA has begun coordinating with the Federal Railroad 
Administration to develop a rail system inspection guide for use by 
rail law enforcement and security personnel to inspect trains for 
explosives and other threats.
    <bullet> TSA is partnering with BCBP and DOT on Operation Safe 
Commerce (OSC), a program to enhance the security of the international 
and domestic supply chain while ensuring efficient cross-border 
transportation, and recently announcing the award of $58 million in OSC 
grants.
    <bullet> TSA recently announced the award of $170 million in Port 
Security Grants, with additional surface transportation grants (e.g., 
intercity bus grants) in process.
    Bureau of Customs and Border Protection
    <bullet> The Bureau of Customs and Border Protection (BCBP) has 
consolidated incoming inspectional resources into a single face of 
government at ports of entry by establishing Interim Port Directors to 
integrate all of the incoming border agencies into one chain of 
command. A single field manager can implement a change in threat level 
in what used to be three disparate workforces.
    <bullet> BCBP continues to deploy multiple technologies to support 
our layered inspection process, using various technologies in different 
combinations to detect the adversary who might defeat a single sensor 
or device.
    <bullet> To date, more than 180 devices that are non-intrusive 
inspection systems and/or portal radiation detection devices have been 
deployed to detect and deter the entry of radiological material into 
the country.
    <bullet> BCBP has provided all of its front-line (BCBP) inspectors 
across the country with personal radiation detectors that alert them to 
the presence of radioactive material.
    As a result of the Shared Border Accords between the U.S. and 
Canada, a number of activities are underway to meet the Accord's 30 
action items for increasing security, enhancing joint law enforcement, 
improving technology and facilitating trade.
    <bullet> Mexican and U.S. border control personnel are operating on 
a 22 point agreement to protect and secure infrastructure, and ensure 
the smooth flow of legitimate persons and goods.
    <bullet> The Border Patrol conducted a bi-national training event 
for elements of the Mexican government responsible for border control 
activities. The training included elements of search and rescue, first 
aid, and aquatic safety.
    <bullet> The Border Patrol is working with local tribal law 
enforcement in historic new agreements to protect tribal lands from 
unlawful entry along the over 250 miles of borders adjacent to tribal 
lands. For example, the Border Patrol is providing basic 
interoperability between Federal and State law enforcement agencies and 
the Tohono O Indian nation.
    <bullet> BCBP continues to harden the entire Northern Border ports-
of-entry through the installation of technology and infrastructure, 
such as barriers, gates, bollards, lighting and video security systems.
    <bullet> The Border Patrol will deploy an additional 387 agents 
along the U.S. and Canadian border by January 2004, bringing the total 
number of agents deployed to over 1,000.
    <bullet> BCBP's Border Patrol has deployed additional helicopters 
and fixed wing aircraft at 8 Northern border Sectors and at 7 of the 9 
Southern border Sectors.
    <bullet> Integrated Border Enforcement Teams have been created in 
each Northern border Sector to promote better coordination and inter-
operability among law enforcement agencies and the Royal Canadian 
Mounted Police.
    <bullet> In fiscal year 2003, the Border Patrol has removed 100,886 
illegal aliens so far. This is in addition to the 149,067 removed in 
fiscal year 2002.
    <bullet> BCBP is implementing the Free and Secure Trade Initiative 
(FAST). The FAST program enables the Bureau of Customs and Border 
Protection to focus its security efforts and inspections on high-risk 
commerce while making sure legitimate, low-risk commerce faces no 
unnecessary and costly delays. NEXUS and SENTRI are also being 
implemented to facilitate the travel of legitimate visitors on the 
Northern and Southern Borders.
    <bullet> BCBP continues implementation of the Customs-Trade 
Partnership Against Terrorism (C-TPAT), a public-private partnership 
aimed at securing the global supply chain against terrorism, while also 
facilitating legitimate trade.
    <bullet> The Container Security Initiative has established tough 
new procedures targeting high- risk cargo containers before they embark 
en-route to U.S. ports. 19 ports (including 3 Canadian)--through which 
approximately two-thirds of cargo containers coming to the U.S. will 
pass--have agreed to participate in the program. 10 initial ports are 
operational.
    <bullet> Along with CSI, BCBP began enforcing the new 24-hour rule 
in February, requiring submission of electronic advance cargo manifests 
by sea carriers 24 hours before U.S. bound cargo is loaded aboard the 
vessel at a foreign port. The information obtained is used as a factor 
in determining which containers are high-risk. This foreign based 
activity can preclude a risk from ever arriving in the USA.
    <bullet> BCBP continues to coordinate with the Coast Guard to have 
expanded Passenger Analysis Units at seaports around the country to 
target and identify high risk travelers and immediately react to 
threats. BCBP cross checks advance notice of arrival information 
provided to the USCG 96-hours prior to arrival at U.S. ports, rather 
than the previous 24-hour notice, for potentially dangerous crew, 
passengers and cargo, thus allowing USCG to act appropriately prior to 
arrival in the U.S. port.
    <bullet> BCBP requires all airlines to provide information on U.S.-
bound passengers prior to their arrival; information is then checked 
against the FBI's and other relevant databases.
    <bullet> BCBP's National Targeting Center and enhanced Automated 
Targeting System continue to identify those containers and travelers 
that pose a high risk of terrorism.
    Bureau of Immigration and Customs Enforcement (BICE)
    <bullet> BICE combined all the investigative functions of Customs, 
Immigration and the Federal Protective Service into one bureau. BICE 
has taken steps to provide a single point of contact within DHS for 
U.S. Attorneys and other law enforcement agencies.
    <bullet> In conjunction with the Foreign Terrorist Tracking Task 
Force, BICE agents have apprehended more than 1,000 immigrants for a 
variety of offenses of which over 500 were deported.
    <bullet> Operation Joint Venture, a special operation initiated by 
BICE to identify and remove persons with unknown or questionable 
identities with access to restricted areas of military installations, 
has, resulted in 37 arrests, of which 28 were removed from the United 
States.
    <bullet> BICE's Operation No Mercy, initiated after the tragic 
deaths of 19 persons believed to be undocumented aliens in Texas, has 
resulted in the indictment of 14 individuals.
    <bullet> BICE acquired and deployed additional ``A-STAR'' and 
``HUEY'' helicopters to bolster enforcement efforts along the U.S. 
Southern border.
    <bullet> BICE continues in its efforts to ensure the integrity and 
lawful operation of U.S. Financial systems.
    <bullet> Project Shield America, a BICE initiative, continues to 
prevent sensitive U.S. technology and munitions from falling into the 
hands of terrorists and other U.S. adversaries. Under this initiative, 
BICE agents partner with U.S. manufacturers and exporters to guard 
against illegal arms exports.
    <bullet> The BICE Office of Air and Marine Interdiction (OAMI) 
provided 24-7 airspace security coverage over Washington, D.C. During 
Operation Liberty Shield, OAMI expanded this mission to include 
airspace security coverage over New York City as well.
    Office of Domestic Preparedness
    <bullet> The Office of Domestic Preparedness (ODP) has made 
available more than $4.4 billion dollars in funding for grants since 
March 1, 2003.
    <bullet> ODP recently announced the award of $100 million in urban 
area security initiative grants to high threat areas; and made 
available an additional $700 million in urban area security initiative 
grants for 30 cities and their contiguous counties and mutual aid 
partners; of this $700 million, $65 million was in grants to 20 transit 
agencies for security enhancements and $75 million was to enhance port 
security.
    Funds are clearly flowing. While these awards have been announced, 
large amounts of this funding are still making its way down to our 
first responders, as states, localities and vendors do what they need 
to do as part of these programs.Federal Law Enforcement Training Center 
(FLETC
    <bullet> FLETC, in partnership with the TSA, is providing training 
for Federal Flight Deck Officers and Federal Air Marshals.
    <bullet> FLETC is upgrading its counter/antiterrorism, weapons of 
mass destruction, and first responder training to accommodate the 
training needs of all 75 of its partner organizations.
    <bullet> FLETC is developing a new training for CBP Inspectors, 
scheduled to commence Oct. 1.
    Conclusion
    This list is far from complete, but I believe it shows that the BTS 
Directorate is hard at work on the task before us. We are shaping a new 
department, improving the security of our country and still sustaining 
the centuries old traditions of operational excellence that our 
individual components have brought to the BTS Directorate.
    Because of the efforts of the dedicated employees of the Border and 
Transportation Security Directorate, undertaken in partnership with the 
American people, our federal, state, local, private and international 
counterparts, and our other colleagues within the Department of 
Homeland Security, America is becoming safer and more secure every day. 
A number of challenges lie ahead, but we are taking the necessary steps 
to improve the security of our borders, ports of entry, transportation 
systems; facilitate the movements of people and goods. As we fulfill 
these missions, we are redoubling our efforts to protect the freedoms 
and liberties that have made this country so great, as exemplified by 
the President's guidance to law enforcement agencies to minimize the 
likelihood of racial profiling. We are keenly aware of the importance 
of the contributions of our partners in this effort, including you, the 
Congress, and we look forward to working with you to continue the 
successes we have achieved in the last 5 months and ensure that our 
Homeland is indeed safer and more secure in the months and years ahead.
    Thank you again for inviting me to appear before you today. I look 
forward to your partnership and I would be happy to answer any 
questions you may have at this time.

    Chairman Cox. Secretary Hutchinson, I thank you for your 
testimony.
    Let me begin by asking you about the implementation of 
legislation written in 1996 that enables the Secretary and 
volunteering political jurisdictions to work out deputization 
agreements for the enforcement of Federal law through the 
offices of state and local law enforcement.
    Since 1997, only two states have been involved with the 
Federal Government in exercising this authority. And truly 
until the Bush administration commenced, there wasn't much work 
at the Federal level on this at all. But with the intervention 
of 9/11 and the reorganization of our government to put these 
responsibilities into a Department of Homeland Security, we now 
have not only a new opportunity to work with state and local 
governments on this, but also a new reason to do so.
    The Department of Homeland Security provides us with a 
great opportunity to rationalize our contacts with state and 
local government. The law, the way it is written, permits the 
Federal Government to work not only with states, but also 
directly with local governments. Is it your intention to pursue 
opportunities with willing local governments, as well as 
willing states to implement this law?
    Mr. Hutchinson. Absolutely. And you are correct, Mr. 
Chairman, that Florida, as a state, initiated a program. I 
believe they trained about 40 officers. We went through a 5-
week training program to understand immigration law and the 
difficulties of it. That program's in place. Alabama is looking 
at it. But as you pointed out, local jurisdictions have this 
opportunity as well.
    Prior to recent organizational changes, there was a 
reluctance to use this authority: concerns on local 
jurisdictions part, concerns among many immigration groups. Our 
strategy is to address those concerns.
    What is critical is that we have adequate training when we 
enter into these partnerships. But my experience has been that 
there are many local departments that are willing to put their 
officers through this training.
    So we are engaging in a working group with the County of 
Los Angeles to initiate how we can work together and we can 
have training, immigration authority utilized by local law 
enforcement there. And we are looking at ways that we can 
partner together. So that is in place, ongoing and we are 
looking at other opportunities to implement that same strategy.
    Chairman Cox.--Under the law, as it is written, it--is the 
state or local government and not the Federal Government that 
bears the expense of the training? In the Florida example, how 
has that worked or how has it not worked?
    Mr. Hutchinson. Well, they were trained at our Federal Law 
Enforcement Center in Glynco, Georgia, which is the right way 
to do it. As to who actually paid for that, I would have to 
look at it. I do not know.
    Chairman Cox. The law was written, and I say this as its 
author, in 1997 under very different circumstances. And one of 
the reasons for that provision that localities or states pay 
and not the Federal Government was that we saw much more 
interest on the part of states and localities at the time and 
much less interest at the Federal level, and we didn't want 
lack of resources to be an excuse for not proceeding with this.
    My interest and potential concern is that while making sure 
that this remains an option, that it not necessarily be the 
only way to go, because everyone on this committee on both 
sides of the aisle is very aware with their own constituencies, 
their own states that they represent, that the real problem now 
is the Federal mandates that are associated with homeland 
security--whether it is raising the threat level and imposing 
costs in that or in so many other ways requiring our first 
responders and our state and local law enforcement to pick up 
costs that they weren't just a few years ago thinking about, 
let alone doing.
    So I would like to be sure that something that is so 
obviously a Federal responsibility not be hamstrung when it 
comes to funding.
    And I would appreciate, if you are not prepared to go into 
greater detail in the Florida example, the opportunity to learn 
how that is going and whether or not it is a barrier with 
respect to any other jurisdictions that might wish to become 
involved. But to your knowledge, that has not been a problem in 
the Florida circumstance?
    Mr. Hutchinson. No, I don't think that has been necessarily 
a barrier. I think the barrier is that from a state and local 
standpoint, that we require 5 weeks of training. That is a 
great deal of time to devote a significant number of officers 
to take out of the work force. I think that has been a 
drawback.
    Chairman Cox. And in that sense, the Federal Government 
clearly is not paying. That is an expense that is borne by the 
participating jurisdiction.
    Mr. Hutchinson. They would. And I am making an assumption 
that we would bear the training costs, because it is our 
personnel that are physically there. They have the immigration 
experience. And I think it is a reasonable commitment that we 
would make. So from our standpoint, that is a commitment that 
we are delighted to make, because of the benefits that it would 
bring.
    Chairman Cox. We will have legislation on the floor in just 
a short while, the intelligence authorization bill, that is 
going to initiate a formal training program between the Federal 
Government and the state and local law enforcement concerning 
the use of intelligence and promoting intelligence sharing. One 
of the opportunities that we have because of the creation of 
the Department of Homeland Security is to take all of these 
different programs, making DHS the interface with state and 
local government, and make sure that there isn't duplication.
    If you are taking people off the job to train them on 
Intelligence, it would be a shame 2 months later to take the 
same people off the job and train them over again about 
Immigration. It would nice if we could make these programs work 
together.
    So we will appreciate learning from your early experience 
with this even as we are writing the intelligence authorization 
bill.
    And you may know that, in fact, the language concerning the 
DHS role in the training programs is very much in flux. So we 
can use your advice in real time.
    Mr. Hutchinson. Thank you for that opportunity.
    Chairman Cox. Well, my time has expired. And I recognize 
the gentleman from Texas, the ranking member, for his question.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Secretary, you, I am sure, are aware that this 
committee had a hearing a week or so ago with Mr. Redman 
present of the Office of Information Analysis. And the 
committee was somewhat dismayed with the lack of progress in 
establishing that critical function within the department, 
which is the place where, under law, the threats are supposed 
to be assessed, the threat information is supposed to be 
matched up against the vulnerabilities that that office is also 
charged with assessing.
    And from that matching of threat information and 
vulnerability information, information is to flow throughout 
the department and flow from the department down to the states 
and local governments.
    It would be of interest to me to know where your 
directorate and where you currently receive your intelligence 
information from if it is not flowing from the entity within 
the department that was created to provide that function.
    Mr. Hutchinson. Well, first of all, I want to assure this 
committee that I have accessed the highest level of 
intelligence daily, and that there is nothing that is kept from 
me as someone being responsible for borders and transportation.
    In reference to the IAIP directorate, I was pleased that 
the Senate confirmed General Frank Lubutti to head that 
directorate as Under Secretary last week. So he is on board, 
and I know that this committee will be looking forward to 
hearing from him.
    But he has hit the ground running. They have over 20 
analysts, 20 coming. Their plans are to have 85 by the end of 
October, so they are aggressively increasing their capability 
in reference to what I receive. And not only do I receive 
intelligence reports from them, but also they provide risk 
assessments to those in the field.
    In fact, it has moved with lightening speed in a couple of 
instances in which intelligence has come from overseas that has 
moved quickly to the aviation industry on particular areas of 
concern.
    And so there are products that are coming out, analysis 
going on, and I think that will only increase with time.
    I receive my intelligence from them as well as CIA 
briefings.
    Mr. Turner. What kind of information flows to TSA screener 
or a Border Patrol agent, maybe a customs inspector, on a daily 
and routine basis?
    Mr. Hutchinson. First of all, they would receive from TSA 
intelligence operations, the screeners for TSA, reports on 
aviation security. And so it flows both from IAIP, and it flows 
coordinated with TSA to distribute it to the field. When it 
comes to customs inspectors, as national intelligence is 
gained, international, it is passed on to the field.
    But, in addition, what I think is very significant, when I 
am down in the border at San Ysidro and I see on-ground 
intelligence operators there, they have for the inspectors in 
the field the photographs of the most recent suspects or the 
most recent means of hiding contraband.
    And so intelligence is moved quickly, and it is a number of 
different ways to get the information and have the training for 
those inspectors in the field.
    Mr. Turner. A GAO report addressed the failure of the State 
Department and what was then the INS and the FBI to share 
information on visas that have been revoked on terrorism 
grounds. That was a disturbing report because what it told us 
is that there are folks out there who have had their visas 
revoked, and yet we don't seem to be able to find them or 
locate them.
    Do you have any information about what the department is 
doing to locate the individuals that the GAO has identified as 
possibly still being in our country?
    Mr. Hutchinson. This is something that we are better at, 
but we must get much improved on in the future.
    First of all, there is a different standard for revocation 
of a visa, versus expelling someone from the country. And so 
you can administrative action through the State Department to 
revoke a visa and it might be for some information that they 
receive or for some other diplomatic reasons. But that does not 
mean that we can automatically take them and remove them from 
the country. It is a separate administrative proceeding, and it 
might be with different standards. And that might be something 
that needs to be made uniform.
    In addition, we are looking at ways to increase our 
cooperation of State Department and the information flow. 
Tremendous progress has been made since September 11, but we 
can even enhance that more and we hope to do that.
    Mr. Turner. On the front end, The Washington Post reported 
Saturday that the administration is considering a plan that 
will require face-to-face interviews with the 8 million people 
who seek visas to enter the United States every year.
    Could you tell us what those plans are, whether that can be 
accomplished, what resources would be required for you to carry 
out that task?
    Mr. Hutchinson. Of course, we are building our partnership 
with State Department, have a great relationship with the 
consular affairs. They actually ran that cable by us. And so we 
helped in the distribution of that cable or the discussions on 
that cable.
    And it did increase the number of interviews for visa 
applicants. It wasn't 100 percent. There is still some 
discretion there, but it narrowed the discretion. And it is 
obviously a security measure so that we can have more 
information.
    And the face-to-face interview is a very important part of 
making an assessment as to whether someone is at risk or no 
risk to the United States. There is a concern that this will 
slow down the process. I certainly would support the State 
Department in any review of their resources to review visa 
applicants overseas as time goes on.
    And ultimately, we are having discussions as to whether 
fingerprints will have to be taken on certain applicants 
overseas. This takes equipment. This takes additional personnel 
and it takes additional personnel for the interviews, as well. 
But it is something that is important to do for our security.
    Mr. Turner. You have a deadline, a statutory deadline, that 
is, I believe, just under six months away, November 25 of this 
year to eliminate the backlog of applications. Will you be able 
to meet that deadline?
    Mr. Hutchinson. The State Department still issues the visas 
through their consular offices. So I don't know that I am in a 
position to answer that.
    We have a role to play under the Homeland Security Act of 
overseeing and establishing visa policy. So we have some of the 
responsibility that will lead to that result, but that is a 
State Department commitment.
    And I think the question probably goes to the backlog in 
the review by the Justice Department for checks that the State 
Department refers on visa applicants, and there is a backlog 
there. And that is something that we need to do in a more rapid 
fashion. I know the Department of Justice is working on that, 
but that is a hurdle that we have to overcome.
    Mr. Turner. So you are telling me that there is no plan to 
require a face-to-face interview with all visa applicants that 
you know of. There is increased review, but no plan to have 
every visa applicant come in for face-to-face or have a face-
to-face interview to get a visa.
    Mr. Hutchinson. It is my understanding that there was a 
substantial increase in the number, but it is not 100 percent, 
and that there is still some discretion that is given to the 
consular office for people that have close ties diplomatically 
or are known, other types of exceptions. There certainly is an 
increase, but it is not 100 percent.
    Mr. Turner. Thank you.
    Thank you, Mr. Chair.
    Chairman Cox. The gentleman from Florida, Mr. Diaz-Balart, 
is recognized for his questions.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Mr. Secretary, welcome back.
    Mr. Hutchinson. Thank you.
    Mr. Diaz-Balart. It is good to see you.
    In the context of service on this committee, I have been 
learning so much. I can only imagine in your service, how you 
must be bombarded with information. And with regard to some of 
the agencies under the authority of your directorate, I have 
just a few questions.
    I was extremely encouraged by the existence and the ongoing 
implementation of the Container Security Initiative by Customs.
    And we learned--Bonner was here a couple of days back--
about its implementation. And that the, I believe, 19 ports 
that there are already agreements with are the largest ports 
with regard to trade with the United States and the world. It 
was of some concern to me, representing South Florida, where 
the majority of our trade is with Latin America, that there are 
agreements with none of the ports of Latin America.
    And so the argument was none of the 20 ports, the top 20 
ports in the world, are in Latin America. But when you are from 
a community where the majority of the trade is with Latin 
America, that is little solace.
    If you could give us, more than anything else, because Mr. 
Bonner gave us the information that I just relayed to you, but 
if you could look into that, because we are concerned that none 
of the ports as of now that have entered into CSI are Latin 
American ports. If you could, not today, get back to us with 
regard to the implementation of what apparently will be the 
next phase, that hopefully will include the ports where the 
majority of trade and commerce in South Florida is with. We 
would certainly be very interested to learn about that.
    Obviously, do you have any other comments or updating with 
regard to that issue today? We would appreciate it. That is 
with regard to Customs.
    And then with regard to the TSA, the number of entities, 
most recently and specifically the airport in Fort Lauderdale, 
has come to my attention.
    It has brought to my attention that there is a very large 
problem with regard to use of the services of TSA at the 
airport from and by the passengers of cruise ships, who arrive 
massively, all of a sudden. There may have been a situation 
where TSA workers have been a little bit under utilized for 
some hours; all of a sudden, the lines are extraordinary.
    What I would ask you is what steps may be taken to, I 
guess, bolster staffing at those specific times, perhaps with 
part-time TSA people?
    And then one final point, Mr. Secretary. We in South 
Florida face a very evident dual threat, it was referred to by 
Mr. Meek previously, of terrorism and, obviously, narcotics 
trafficking. Mr. Sweeney mentioned to me before an article that 
he read today. I haven't had a chance to read it. You may have 
some questions on it, in the New York Daily News, about 
precisely terrorists, a report that terrorists, Iraqi agents 
with instructions to commit acts of terrorism in the United 
States, have been trying to enter the United States from the 
Caribbean.
    So we have a serious threat in South Florida, perhaps more 
than in other areas, of that dual nature, narcotics trafficking 
and terrorism. How has the directorate's resources, or how will 
the directorates resources, be balanced to address those 
challenges?
    I won't bring up any more issues. Obviously, I want to 
commend you beforehand for the extraordinary work you are 
engaged in and have performed already, and would appreciate any 
comments that you have on these items.
    Mr. Hutchinson. Thank you.
    And first, in reference to the CSI initiative, I am pleased 
with the progress of it. Obviously, the staffing overseas, we 
need to move expeditiously on. But we are getting those 
clearances, and that is being expedited.
    In reference to phase two, you are absolutely correct, that 
there were not any Latin American ports in phase one. In phase 
two, expansions are being looked at in Balboa and Colon, 
Panama, as well as Buenos Aires, Argentina. There has been some 
discussions going on. So we recognize the need that is there. 
In Santos, Brazil, there has been some meetings to discuss it. 
A lot of it depends upon their political will and their 
commitment and technical capabilities.
    But we are initiating those discussions. We hope in phase 
two to add some Latin American ports to the list.
    In reference to TSA and Fort Lauderdale and the problem of 
passengers coming in such a volume from the cruise lines. We 
have looked at certain ports of moving TSA temporarily to where 
the cruise lines disembark so that we can, and Customs also, 
check in the bags, doing the screening there so that it will 
eliminate some of the lines when they get to the airport.
    The cruise lines like it because it moves the passengers 
through very quickly. It allows some of the work to be done off 
of the airport site. So this might be something we can look at 
in Fort Lauderdale as well. It was a pilot program that has 
worked very, very well and it might be worth looking at 
expanding that.
    And then the third point you made on terrorism and 
narcotics. Whenever you are looking at any individuals, any 
terrorists, they will move to the weakest point of entry. They 
will move to those people in the criminal world that will 
facilitate illegal shipments, whether they are weapons or 
whether they are people, and whether it is narcotics or 
terrorist related.
    And so we have to look at any vulnerabilities through Latin 
America as well as through other means coming into our country. 
We are aware of the concern, and we are certainly gaining 
intelligence and trying to ascertain and trying to close any 
loopholes.
    Mr. Diaz-Balart. Thank you.
    Chairman Cox. The gentlelady from California, Ms. Sanchez, 
is recognized for her questions.
    Ms. Loretta Sanchez of California.Thank you, Mr. Chairman.
    Thank you once again, Secretary Hutchinson for being before 
us today.
    I go back to the couple of things that I highlighted in my 
opening statement. And I don't know if you have the numbers 
with you today, if you can answer the questions directly right 
now. But there are really two sets of questions that I have.
    The first one is back to this whole issue of the port of 
Los Angeles. In reviewing the information that Chief Cunningham 
had given us with respect to the Port of Los Angeles, he said 
that there was just $1.5 million that was given in round one of 
port money to be split between the Port of Los Angeles and the 
Port of Long Beach. So in fact, the Port of Los Angeles 
received $750,000 out of round one.
    In round two, he received $1.25 million for the Port of 
L.A. Again, double that amount to be split between Long Beach 
and L.A., because they are sister ports there.
    They also received $800,000 to purchase patrol boats. And 
that is the only individual award that he says that the Port of 
Los Angeles has been given.
    In sum, he said the totals of the grant process that they 
have is $2.8 million. Published reports indicate that a total 
of $197 million in grant funds were awarded during round one 
and round two for the country's sea ports. That would put the 
Port of Los Angeles at 2.5 percent.
    So my first and foremost question is why in the first two 
rounds do we only receive 2.5 percent for the Port of Los 
Angeles out of the monies given in those rounds when that is 
the largest port area, carries, by anybody's estimate, between 
40 and 45 percent of all containers coming to this nation come 
through those ports. What is happening there? Why aren't we 
seeing monies come to our ports in Los Angeles and Long Beach? 
That would be the first one.
    And is there anything to remedy that in the following grant 
processes or individual grants?
    I am trying to understand what is the logic? What is the 
picture that you all have with respect to protecting our 
biggest port facility? So that is the first series.
    And let me get to the second set. You might want to start 
writing some of this down.
    We also heard from U.S. Customs when we were out at Los 
Angeles-Long Beach. And one of the things that we found out 
from the committee hearing is that the 2000 Customs internal 
review of staffing estimated--that is the 2000 Customs internal 
review--estimated that U.S. Customs would need 14,000 new 
employee hires just to fulfill its basic mission at that time.
    We have also heard that since September 11 very little 
increase in staffing has happened there. Does CBP have a 
comprehensive plan as described by the GAO report? How many new 
U.S. Customs employee hires have been made since September 11? 
Do you have a list of ports and border points where Customs 
staffing has been increased, and by how much? And how do you--
how are you going to affect the Customs with respect to the 
2004 budget?
    In other words, what we have heard from the GAO report and 
from others through these hearings is that we are understaffed. 
We are understaffed just to do our basic requirements, let 
alone all of this new layer stuff that is happening. And we are 
not getting people. We are not being trained. And we don't have 
the resources.
    So my question to you is what are you going to do about 
that? What is your plan? What do you have? Can you give it to 
me in writing?
    Thank you.
    Chairman Cox. I am sorry, before the witness answers, the 
gentlelady has 50 seconds remaining. I remind the members that 
they have 5 minutes for questions and answers, and they should 
try and allocate their question time so that the witness has 
the opportunity to answer within that 5 minutes.
    The 50 seconds remaining, Secretary Hutchinson.
    Ms. Loretta Sanchez of California.He can talk fast.
    Mr. Hutchinson. In reference to the Port of Los Angeles, 
TSA administered port grants in the first round, nationally $93 
million, second round $170 million. In addition, there was $58 
million in safe commerce grants.
    I went through how they allocate money from those 
nationwide grants. They look at the quality of the grant 
applications. They talk to the Captain of the Port, which would 
be the Coast Guard Captain of the Port, as to whether this 
would enhance security, whether it fits in. And so there is an 
evaluation done in that fashion.
    In addition, there were the urban area security grants in 
which some of it was allocated to the ports. So that is a 
separate pot of money that the Port of Los Angeles may have 
received some. I would be happy to look at that more 
specifically. But that is the nationwide amounts that were 
allocated.
    In reference to Customs, I don't have all the figures 
nationwide. But in reference to the northern border, for 
example, the Customs agents being deployed has almost doubled 
since September 11. There has been a serious, significant 
investment of new personnel at Customs, both in terms of the 
inspectors, but also in terms of the new initiatives, such as 
the CSI, which has been funded. That has had increased 
positions. And other initiatives that has been security 
related.
    Ms. Loretta Sanchez of California.Thank you, Mr. Secretary. 
I will submit them in writing and hopefully you can get me back 
the specifics.
    Mr. Hutchinson. Happy to.
    Ms. Loretta Sanchez of California.Thank you, Mr. Chairman.
    Chairman Cox. The gentleman from Virginia, Mr. Goodlatte, 
is recognized for his questions.
    The gentleman from Indiana, Mr. Souder, is recognized for 
questions.
    Mr. Souder. Thank you.
    Good to see you, Mr. Secretary.
    I am going to do something similar to what Congresswoman 
Sanchez did. And I have a series of questions that I want to 
put on the record and then additional ones for written.
    And as you know, I chair the Narcotics Subcommittee. And 
rather than hold a separate hearing, this will give me a chance 
to get some of those questions on the record because as you 
know, Customs, Border Patrol, Coast Guard are three of the main 
narcotics enforcement agencies. We have seen FBI backing up 
from narcotics enforcement, which has come out in several 
hearings here in Washington. DEA is not getting a significant 
boost up.
    Both you and Commissioner Bonner have served as head of 
DEA. I am excited that you are there. But we are having 
increasing concerns around the United States about how this is 
going to ripple through anti-narcotics.
    Chairman Cox. Would the gentleman yield?
    Mr. Souder. Yes.
    Chairman Cox. I heard the gentleman say he was going to 
attempt the same thing that Congresswoman Sanchez just did. I 
tried to admonish the members that the 5 minutes that they are 
allocated is time for questions and answers by the witness. So 
if you were intending that the witness answer your questions in 
writing after the hearing, that is acceptable.
    But I think it does a disservice to members when we are 
under the 5 minute rule to use up the entire 5 minutes to put a 
whole series of questions and then require the witness to 
answer at length. We will not be able to allow all members the 
opportunity to question witnesses if we do that.
    And the time that I just took will be added back to the 
time of the member from Indiana.
    Mr. Souder. I am not asking him to answer the question 
here. I understand the 5-minute rule.
    Chairman Cox. I appreciate the gentleman's comment.
    Mr. Souder. But sometimes the written answers don't come 
back quite as thorough unless we put them on the record.
    I know he is my friend, but some of these are tough 
questions.
    Mr. Mackin's position was added in this agency at my 
request, at the speaker's request, to try to make sure that 
narcotics was coordinated. We would like to know how often you 
have met with Mr. Mackin and what you see his role in the 
department?
    As you know, he has a statutory mission. His position is to 
coordinate policy and operations in the department and between 
the department and other Federal departments and agencies with 
respect to interdicting the entry of illegal drugs in the 
United States and tracking and severing connections between 
illegal drug trafficking and terrorism.
    And we would like to know what specific role he has played 
so far in deciding how to allocate resources and in improving 
coordination.
    And we would also like to know any specific recommendations 
that can be released to the committee, or we can have a 
separate discussion about this, and if those recommendations 
have been accepted or rejected.
    And I have another series of questions along that line, 
because we are very concerned about how that role is going to 
play through the department in our oversight responsibility.
    Second, in the Air and Marines Interdiction Division, which 
has historically been under Customs, it is now under BICE. From 
what I have seen in Riverside and elsewhere on the border, 
particularly the Southwest border as well as in the Caribbean, 
that has traditionally been used in drug interdiction, in 
breaking up smuggling, not in the follow-up investigation. I 
have some concerns about its allocation inside the agency and 
would like to have further discussions and answers about that, 
whether it should be separate, whether it is in the right 
place.
    third, that we have recently been down on the Southwest 
border, and I am going to combine two things here, and we will 
have more specific breakouts. We met with Commissioner Bonner 
about the Shadow Wolves, and he assured us he is working with 
that, looking at even putting similar units in other places.
    We would like to stay updated. Congressman Shadegg, other 
members across the board from this committee and other 
committees have been interested in this.
    And then in a broader question, we have had multiple 
concerns coming up to our committee, both Homeland Security and 
the Narcotics Committee, that there is a feeling that some of 
the drug cases are not being passed through because of a 
concern about inside the border patrol in particular, about it 
looking like either the cases haven't been followed up or areas 
might be more vulnerable than they have been. And I have a 
series of questions related to that.
    And lastly, in the division of the two agencies, that part 
of my concern is is that by separating the enforcement with the 
investigation, I would like--and I have a series of questions 
related to this--to be assured that the Southwest border 
personnel, such as the Border Patrol, the Customs, Coast Guard 
in the Caribbean are going to be fairly stationary. But the 
investigators could be fairly mobile.
    And this could lead to a disconnect between the arrest 
cases and an eventual discouragement at the grassroots level 
from developing these cases unless there is an administrative 
structure set up to make sure that either the investigators 
stay in region and additional investigators are there.
    And we will continue to ask the questions to make sure that 
those investigations are indeed followed-up, because we have 
roughly 30,000 deaths on the streets of the United States a 
year from narcotics. If we can't control the meth precursors 
and others, then marijuana, cocaine and heroin, we are in deep 
trouble.
    I would be happy to--a brief comment here, and then?
    Mr. Hutchinson. I will be happy to follow up. I would like 
to respond quickly. Roger Mackin has done an outstanding job as 
our drug coordinator. I meet with him weekly, at a minimum of 
once a week. We discuss all of the issues. We have a close 
working relationship.
    His role, of course, representing us interagency, in many 
occasions, on drug policy. But we have to be engaged as well at 
the operational level, because many of the interagency meetings 
deal with interdiction programs, other things that are the 
operational level. So there is a close working relationship.
    AMID, Air Marine Interdiction Division of Immigration 
Customs Enforcement, they do an outstanding job there, 
absolutely placed in the right location with the enforcement 
side. That is their background. It does not diminish their 
capability for surveillance and backing up our border efforts, 
but they have a broad nation, and they do lead to 
investigations, which is critical.
    And you are worried about the leading to a disconnect. That 
could always be a concern in terms of reorganization. It is my 
job to make sure that disconnect does not take place.
    And I am fully committed to make sure AMID backs up our 
border officers and that there is a linkage between our 
inspections on the border with our investigators. And I have 
made that commitment in making sure that is happening.
    Chairman Cox. The gentleman's time has expired.
    Mr. Hutchinson. And I talked fast.
    Chairman Cox. You both did well.
    The gentleman from Massachusetts, Mr. Markey, is recognized 
for questions.
    Mr. Markey. Thank you.
    Welcome back, Asa.
    Mr. Hutchinson. Thank you.
    Mr. Markey. I have been informed, from TSA, that all U.S. 
mail and cargo which is 16 ounces or less is not screened as 
they are put on passenger planes. And I was told by TSA that 
that weight limit has been decided based upon careful 
evaluation of security risks.
    I think it is a big mistake. I will tell you why. This is 
16 ounces. Richard Reid, when he landed at Logan Airport, had 
10 ounces of Class B in his shoes. He just couldn't figure out 
how to detonate it. Security people say that that was enough to 
blow a hole in the fuselage of that plane.
    I think it is unacceptable to have 16 ounces of that or 
other materials that could be detonated remotely to be allowed 
to be put unscreened, without question, on any passenger plane 
in the United States.
    Would you recommend closing this loophole so that all of 
these potential threats are screened as they are put on the 
passenger planes under the feet of passenger's shoes that have 
been screened and passenger bags that have been screened?
    Mr. Hutchinson. I would be happy to look into the specific 
questions on the mail and what is permitted. I have reviewed 
that briefly, but I don't want to give you a detailed response. 
I would be happy to do that more in formal or in writing.
    Mr. Markey. But do you think it makes any sense that this 
goes on unscreened in the cargo bay? Never screened at all, 
under any circumstances.
    Mr. Hutchinson. What is important is that we know what goes 
on and who puts it on in the cargo bay of a passenger aircraft.
    Mr. Markey. No, this is never screened under any 
circumstances.
    Mr. Hutchinson. May I proceed with my?
    Mr. Markey. It is an exception to the Known Shipper 
Program. Just so you know that, this does not come under the 
Known Shipper Program. This is not looked at at all. This is a 
waiver.
    Mr. Hutchinson. I would be happy to talk to you outside of 
an open session on these issues that pertain to some of the 
security aspects that we are undertaking on these initiatives. 
But I will be glad to talk to you in general principle?
    Mr. Markey. Honestly, Asa, I think this is a subject that 
every American has the right to have an answer to. I don't need 
a secret briefing on why this is totally exempt from any 
program, even the Known Shipper Program, in terms of an 
inspection.
    Mr. Hutchinson. I would like to be able to address the 
approach to cargo security, if I might have that opportunity.
    Mr. Markey. In your testimony, you state to us today that 
you are working with the Chlorine Institute to address their 
bulk hazardous material shipment program. Can a known shipper 
send explosive or toxic material such as chlorine into the 
cargo hold of a passenger plane?
    Mr. Hutchinson. I would have to get back to you on that 
answer.
    Mr. Markey. If there isn't a program, then obviously, if 
there is no prohibition, then obviously, there is a very 
serious problem.
    Now, Mr. Under Secretary, Mr. Bonner, who heads up Customs, 
testified before us on June 16. And we know that, from him, 
Customs provides advance notice to the companies that 
participate in the Customs version of the Known Shipper 
Program.
    In other words, before Customs conducts an audit of any 
particular company's operations, to ensure the company is 
complying with security requirements, they get notice, 30 days 
notice, that there is an inspection coming. Now, I am very 
concerned that advance notice, rather than unannounced visits, 
could allow criminal or terrorist activities that have set up 
front shipping companies to hide their illegal activities.
    We know from the article in The Washington Post on Saturday 
that companies like Kashmir Transport Service are already 
setting up cargo companies to exploit this weakness in our 
security net. And we already learned, unfortunately, through 
our sad experience, that the International Atomic Energy Agency 
never did inspect the physical facilities. They mostly looked 
at paperwork. And when they did, and still do, do an on site 
announcement inspection, they give 30 or 60 days notice.
    Haven't we learned that the unannounced visit to these 
3,000 sites in America that are allowed to have this Known 
Shipper Program. Wouldn't we be better off with unannounced 
visits, rather than 30 days notice?
    Mr. Hutchinson. Absolutely, absolutely. And TSA has an 
inspection regime for the Known Shipper Program. The carrier is 
responsible, but TSA has an inspection responsibility. They 
certainly should be unannounced inspection.
    I think when you look at the protection of the cargo bays, 
the aircraft, it is critical that Congress fund the $30 million 
requested in the 2004 budget to continue research, but also the 
development of the Known Shipper Program. But $5 million is 
being used for research and whether technology for screening 
bags can be used for cargo.
    So we are investigating that. But you have to keep in mind 
that prior to September 11, there was a report prepared for FAA 
that said if we were going to inspect all cargo going into the 
aircraft it would take?
    Mr. Markey. No, I am not talking about--I am not talking?
    Mr. Hutchinson. --7,800 employees would be required.
    Mr. Markey. I am talking here--
    Mr. Hutchinson. And so I think the strategy of the Known 
Shipper Program is the correct approach.
    Mr. Markey. And I am saying, in the Known Shipper Program, 
you give 30 days notice to the known shipper at their warehouse 
before you go and inspect their warehouse.
    Mr. Hutchinson. No, you cited Customs. And the TSA runs the 
Known Shipper Program for the aircraft.
    Mr. Markey. Customs. So you don't have--
    Mr. Hutchinson. You are citing Customs.
    Mr. Markey. So do you have jurisdiction over Customs?
    Mr. Hutchinson. I have jurisdiction over Customs. But you 
are talking apples and oranges. If you are looking at TSA, they 
are the ones that do the inspection. You can't cite Customs 
protocols for what TSA does.
    Mr. Markey. So how about with Customs, do you want to give 
30 days notice in the Customs that you are going to inspect?
    Mr. Hutchinson. No, absolutely not. There should not be the 
advance?
    Mr. Markey. Well, will you change that program so there is 
no longer 30 days notice?
    Mr. Hutchinson. I will look into that matter, absolutely.
    Mr. Markey. OK, well, that is very helpful to me.
    Thank you, Mr. Chairman.
    Chairman Cox. The gentleman has 45 seconds remaining.
    Mr. Markey. I give it as a gift to the committee.
    Chairman Cox. Well, the gentleman has a tab that he is 
running, so this will even it out.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Chairman Cox. The gentleman from Virginia, Mr. Goodlatte.
    Mr. Goodlatte. Under Secretary Hutchinson, welcome back. We 
are delighted to have you here.
    I do think the issue raised by the gentleman raised by the 
gentleman from Massachusetts is worth looking into in terms of 
what might fit or not fit into that category. I would note, 
though, that the gentleman held up a bottle of water. A bottle 
is measured by volume, not by weight. And I think the standard 
that we are talking about here is a weight standard. So there 
is a very different criteria. And the concern I have, in 
screening smaller items that could be a hazard, I wouldn't want 
to get into the situation where we were examining every letter 
that went on board an airplane.
    Because I can tell you if we examine every letter that 
comes to my office and arrives two or three weeks later than 
the people who send it expect it will arrive here. And I 
wouldn't want that to be true of every thing in the country.
    Plus, I assume that some of the mail that we receive from 
our constituents goes on an airplane and goes to be screened in 
Ohio. And that would make it excruciatingly long to mail 
anything. So I think there needs to be some common sense 
applied in examining whether the current standard is an 
appropriate one or not.
    And there does need to be a waiver for lighter envelopes 
that are less likely to cause a major problem on an airplane. 
And certainly the standard ought to be based on weight, and not 
on volume.
    The area I would like to ask you about is things that weigh 
a whole lot more. And that is people that get into the United 
States lawfully and then overstay their visas. What is the 
department's expectations with regard to that? Are you going to 
be more aggressive than this administration or the previous 
administration has been with regards to people who enter the 
country legally and either overstay their visas or are engaged 
in activities while the visa still has not expired.
    It is actually an entry permit, but not with the visa. The 
visa just gets you through the border. Then, you are authorized 
to stay here for a period of time.
    But if you engage in something other than what you are 
authorized to engage in, we really don't seem to know that that 
is occurring right now. We don't have a very good communication 
system between the colleges and universities and the 
immigration service in terms of has that person actually shown 
up and enrolled?
    And we don't seem to have a very good system of determining 
whether the person left the country when they were supposed to 
leave. And I know we have a very poor system in terms of going 
and doing something about it when we do find out that they are 
here beyond their authorized stay.
    Mr. Hutchinson. It is a challenge, but it is also a mandate 
that has been given to us by Congress that we implement a 
system in which we can track our foreign visitors that are here 
under a visa, and also note when they leave. Therefore, we know 
who overstays.
    Mr. Goodlatte. What are you going to do about it when you 
know they have overstayed?
    Mr. Hutchinson. And a second part of the challenge is 
dealing with that information. And I realize that there was a 
gap there so under my direction, we set up an office of 
compliance within Bureau of Immigration and Customs Enforcement 
to monitor that information, to screen the information, 
determine what the valid reason that they have overstayed. Or 
they have actually gone back. The information was incorrect. 
And that which we need to refer to the field for investigation.
    I will give you a good example of it. We have the SEVIS 
initiative, which is the Student Exchange and Visitor 
Information System, in which the universities and academic 
institutions have to report to us on those foreign students who 
come here under a visa to study at their institution. They have 
to report to us when they show up, if they do not show up, for 
class.
    Since last December, over 2,000 calls have come in, reports 
have come in, from universities and academic institutions that 
over 2,000 foreign students have not showed up for class who 
actually had permission to come in for that purpose.
    We are having to develop the capability to handle that 
information. Obviously, some of those may have returned without 
going to class, got homesick, got ill. Some of them left out of 
a different means we are not aware of. Some might have got a 
job, still violates the terms of their visa. Others might be 
here to do us harm.
    So we are having to develop the information systems, but 
also the capability to handle that information, and not just in 
reference to the students. But as we garner more information on 
the millions of people that come every year, we have to know 
who overstays the visas and have to handle that information.
    Mr. Goodlatte. Right now, if an individual were to contact 
my office, and I know because they have, and I were to forward 
on to the Immigration Service that somebody was known to have 
overstayed their student visa or not attending college as was 
intended, we have no idea that they might be engaged in the 
activities that those who entered the country include the jets 
into the World Center and into the Pentagon. But we do know 
that there is a greater risk, because our prisons are full of 
people who are arrested in this country, are illegally here.
    About 4 percent of the people in the country, it is 
estimated, are illegally in the country. But 23 percent of the 
population that are in Federal prisons are illegal aliens. Are 
you going to go and act on that information and go look for 
that individual and see that they are required to leave the 
country, or taken out of the country if they have indeed 
overstayed their visa?
    Mr. Hutchinson. Yes. But right now, we do not have the 
total capability to know when someone overstays a visa. If 
someone comes in from a particular country under a visa through 
a land port of entry and then they leave 60 days later, we have 
no record of whether they have left or not. And therefore, 
somebody who comes in under a visa and they stay here, we do 
not have that information unless they transact our criminal 
justice system. And then, we have information that they have 
overstayed their visa.
    Or if they have left, they had a 60-day visa and they left 
after six months and they try to reenter the country, we get a 
hit that they overstayed their previous visa and they cannot be 
allowed to come in. Those are the checks we have right now.
    Our strategy is two-fold. One, to develop a full entry-exit 
system where we can know when they enter and they leave. 
Humongous investment. It is going to be difficult. It is going 
to take a number of years.
    The second part of it is to target everyone who intersects 
with our criminal justice system, or our justice system in any 
way. So that information comes to us. It triggers that they are 
an overstay. And we are capable of handling that information.
    Mr. Goodlatte. But do you act on it now? The information I 
have is that the Immigration Service and the Justice Department 
only act if they know the individual has a criminal record or 
is suspected of being engaged in a crime and not if they are 
simply unlawfully in the country.
    Mr. Hutchinson. We don't have 100 percent coverage there, 
and we are trying to get to that 100 percent coverage. 
Obviously, we are targeting with our resources those that are 
in the institutions that are under an immigration violation so 
that whenever?
    Mr. Goodlatte. They don't get released back into the 
general public when you know they have got a criminal record.
    Mr. Hutchinson. Exactly. Right. Before?
    Mr. Goodlatte. Well, that is certainly a good step. But I 
think there is a lot more that needs to be done for people who 
come into the country, as did most of the terrorists. They had 
no record of any previous criminal activity, but were obviously 
a very severe risk to the country.
    Mr. Hutchinson. You are absolutely correct. And we 
understand the issue. We are trying to increase our capability.
    Mr. Goodlatte. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Cox. Thank the gentleman.
    The gentleman from Washington State, Mr. Dicks, is 
recognized for his questions.
    Mr. Dicks. Mr. Secretary, thank you very much and I 
appreciate your courtesy in meeting with me a few weeks ago, 
and I want to go back to that subject just for a moment.
    The 2001 PATRIOT Act and the 2002 Border Security Act 
directed the Secretary of State and the Attorney General 
jointly, through NIST, to develop a technological standard, 
including appropriate biometric identifier standards for use in 
developing a successful visa system. Since U.S. VISIT will be 
relying on utilizing the FBI's IAFIS system for criminal 
background checking as part of the initial registration process 
for visa applicants, it becomes even more important for a 
single standard to be established to ensure the overall success 
of the program.
    These standards were issued by NIST in a report to Congress 
in January of 2003. The findings state, ``To perform background 
identifications, 10 plain image impressions should be used for 
enrollment and retention.'' NIST also points out in their 
report, ``Based on the experience with the FBI's IAFIS system, 
increasing the number of fingers used increases the system 
accuracy, and that using more fingers also reduces both the 
size and cost of hardware, as well as the number of and 
operational costs associated with false readings.''
    Can you explain why DHS has chosen to go with two 
fingerprint standard, rather than with a 10-print standard as 
recommended by the Secretary of State, the attorney general and 
NIST?
    Mr. Hutchinson. Well, the Secretary of State, the attorney 
general and the Secretary of Homeland Security agreed that the 
initial step would be two fingerprints.
    Now, we are working closely with NIST. NIST has indicated 
that, as you said, that if we are going to totally interrelate 
to the IAFIS system that multiple fingerprints would be 
important as we increase our databases of fingerprints that are 
stored. But they also said that the initial steps of two 
fingerprints is a logical first step that would add to 
security. And it is a system that could be built upon.
    And so we are continuing to work with NIST and with 
Congress as we develop the specific criteria on the biometrics 
that will be used. Our goal this year would be the two 
fingerprints. And then we would want to move to?
    Mr. Dicks. But if 10 is better, why not go to it right now? 
Why not just get it started? It is going to be a better way to 
identify. It is going to mean less checking and rechecking.
    I mean, the people who are experts in this industry tell me 
that this isn't even a close call technically.
    Mr. Hutchinson. Two reasons, I mean, one, we cannot do that 
this year. We could implement a system without a biometric 
component, but we are missing a security link if we do that. 
And so we can add a security capability by having some 
biometric, two fingerprints, this year and we do not miss any 
opportunity by going to a greater biometric capability next 
year. And so it is just a matter of giving us increased 
security this year.
    Mr. Dicks. I want to continue to work with you on this 
subject.
    Mr. Hutchinson. Absolutely. Your comments have been very 
helpful.
    Mr. Dicks. In the fiscal year 2003 omnibus appropriations 
bill, Congress explicitly instructed the department to use full 
and open competition with regard to development of what has 
become the U.S. VISIT system. I and many colleagues were 
surprised to learn that the department has chosen to expand 
upon existing contracts for the IDENT system, expressly 
disregarding congressional intent.
    I understand the department plans to issue an RFP for phase 
two of the U.S. VISIT. But since the basic infrastructure of 
the system will already be established in phase one, this can 
hardly be described as open competition. I have been informed 
by the people in the industry that the administration's 
December 31 deadline can still be met if the system is open to 
competition.
    Why did DHS choose to ignore congressional direction when 
it decided not to open phase one for competition?
    Mr. Hutchinson. We are very committed to an open process. 
And Jim Williams, who is our program director for U.S. VISIT 
and Bob Mocny, who has worked on it long and hard, has met 
with, I believe it is Sagem Morpho, and indicated to them that 
they would be able to bid on the next RFP, request for 
proposal, that will be put out.
    So we are very committed to an open process. And I think 
that as we develop this system, there will be plenty of 
opportunity for private industry to participate in it.
    Mr. Dicks. Well, we want to work with you on that as well.
    One final thing, Mr. Chairman, SeaTac Airport problems. In 
May, TSA announced that it was reducing the number of passenger 
and baggage screeners by 6,000. It is my understanding that the 
first 3,000 job cuts were completed late last month. At SeaTac, 
in Washington state, it has been reported that these cuts led 
to a reduction in the work force from 1,250 personnel to 1,050, 
a reduction of more than 15 percent.
    At the same time, however, the airport has experienced its 
usual summer rush of travelers, its busiest time of the year. 
This has led to waits of as much as 2.5 to 3 hours to get 
through security checkpoints, delaying several flights and 
causing many to miss their flights altogether. What is TSA 
planning to do to address this issue? Can you help us with this 
at all?
    Mr. Hutchinson. Be glad to look into that. Obviously, that 
kind of wait time is unacceptable.
    Mr. Dicks. And frankly, we were just doing beautifully. Out 
there it was going great and then all of a sudden they took 
these 200 people out. And on Sundays and Mondays, we have had a 
crash. And it is all over the papers. People are upset, and it 
is hurting us out there.
    Mr. Hutchinson. As you know, we are reducing 6,000 on the 
work force, and we have been very successful in terms of 
reducing without increasing those wait times. But we will look 
more carefully at your airport.
    Mr. Dicks. Who should I talk to you in your staff on this? 
Anybody? Admiral Loy?
    Mr. Hutchinson. We will get back--Admiral Loy, obviously, 
is the responsible leader on this. But our leg staff will get 
back with you as well.
    Mr. Dicks. Thank you. Good to see you.
    Mr. Hutchinson. Thank you.
    Chairman Cox. The gentleman from Connecticut, Mr. Shays, is 
recognized for 8 minutes.
    Mr. Shays. Thank you, Mr. Chairman. And welcome, Secretary 
Hutchinson.
    On a scale of one to 10, in terms of competence and 
experience and background, you are a 10 in my book. And I am 
very pleased you are there, and believe that you have the 
hardest task of all within DHS.
    I guess I am saying that because now I want to speak a 
little more, I want to be equally frank and honest, but I want 
to tell you that sometimes given your department's largeness 
and newness, it is hard to kind of get their attention. I feel 
you kind of have to do it in a public forum.
    I think you have to tell the American people the truth, and 
they will tell you to do the right thing. And I believe that 
the Department of Homeland Security wants to make people feel 
good and comfortable and we get on with life. But in the 
process, it is in danger of kind of misleading people.
    For instance, we don't check all baggage on airplanes, even 
though we say we do. I guess you could say it if we said we 
check it but checking means the following: machines, dogs, 
swabs, people. But even then some luggage, I believe, is not 
checked.
    And we clearly know that all cargo is not. And we do know 
that cargo is placed on the belly of aircraft.
    So what I am wrestling with is why don't we don't we just 
say it to people and say, We are not there yet, but we will be, 
rather than giving the impression that we are already there?
    And I guess that is my first question that I would like you 
to respond to.
    Mr. Hutchinson. You are absolutely correct, we should be 
honest with the American public. They can deal with the truth. 
And we should not overstate our accomplishments or the level of 
security. They can deal with it.
    Whenever you look at our baggage screening, I think one 
point is important, that prior to September 11, we screened 
electronically 5 percent of the bags. Now we screen 92 percent 
electronically.
    Congress did give this year an opportunity to use different 
means of screening the bags, and that has allowed the 
compliance with the congressional mandate. And we are moving 
toward 100 percent electronic screening.
    Mr. Shays. You know, this is what I am troubled with. I 
just don't believe, and I don't mean any disrespect, that all 
of the passenger luggage goes through a machine, 92 percent of 
it?
    Mr. Hutchinson. Congressional legislation allowed other 
means of baggage screening during?
    Mr. Shays. I understand.
    Mr. Hutchinson. --the interim.
    Mr. Shays. And so what the response of the department is we 
are conforming to all of the requirements of the legislation. 
But is it your testimony before this committee that 92 percent 
of all luggage goes through machinery?
    Mr. Hutchinson. That is the information I have.
    Mr. Shays. OK. I just totally dispute it. And the reason I 
totally dispute it, and I mean no disrespect, is we don't have 
enough machines to do it.
    I mean, that is why I--I just don't know why we are saying 
it.
    Mr. Hutchinson. Well, of course, you look at the volume of 
bags that are going through the airports, the major airports, 
that handle the vast, highest percent of the bags, have the 
equipment for electronic screening. And so I would be happy to 
go over that.
    And in reference, though, to the cargo, you are absolutely 
correct. And we would never mislead the American public that we 
do not do 100 percent electronic screening of the cargo that 
goes in the belly of the aircraft. We do have protective 
measures and a strategy that they should be aware of that 
should give a level of confidence of what is going in there 
coming from known shippers.
    So honesty, but at the same time we should tell them the 
strategy that we have.
    Mr. Shays. Known shippers means that if it is a known 
shipper, we are comfortable, and we don't check it. And if it 
is not a known shipper, then we are going to check it.
    But I think it is pretty clear that it is very easy for 
someone to get a known shipper to ship something that may in 
fact be an explosive device. And an explosive device can simply 
be a mat that looks like it is a rug. But it can be a highly 
explosive device.
    I guess I am deeply concerned that we are continuing to try 
to give people the impression that somehow we are able to do 
this. It relates to the whole issue as well. We tell people 
that when products come into the United States that are men and 
women wearing belts that will get radioactive material and 
disclose that, uncover it, whatever. Isn't it a fact that those 
belts can not, in any way, detect plutonium or enriched 
uranium?
    Mr. Hutchinson. The electronic detection equipment?
    Mr. Shays. No, I am now on another level. I am at the level 
when the department is saying that our men and women at our 
ports are wearing detection gear for radioactive material.
    And the implication is that we should feel comfortable that 
they are going to be able to detect some untoward event, an 
instrument like plutonium enriched uranium. And I want to 
establish on the record what I believe the truth to be, that 
those simply have no use in uncovering whether it is enriched 
uranium or plutonium.
    Mr. Hutchinson. The personal radiation detectors for each 
inspector has its limitations. It is just simply one of the 
systems to guard against radiological material. We also have 
the portal monitors. But there are limitations on the systems.
    Mr. Shays. See, the reason why I get into this is that when 
I vote for something like the PATRIOT Act, I have my 
constituents say, I don't like it. And in my view, we have done 
such a good job of making them feel comfortable about the 
threat, that we are there to respond to it, that they don't 
need it. And that is the basis for why feel so strongly that we 
need to have a little more honesty.
    I don't want to scare people, but I want people to 
understand that enriched uranium or plutonium--enriched uranium 
is the size of a grapefruit. Plutonium is the size of a large 
orange. And you can hold it, you can touch it, and it is not 
detectable.
    And so being able to say to people that we are checking 
just makes me feel like they feel comfortable when they 
shouldn't.
    Mr. Hutchinson. Just so I understand your point, 
Congressman Shays, when it comes to the cargo in the belly of 
the aircraft, I would be very open to your strategies for 
protecting America.
    Are you advocating that we should have 100 percent 
inspections?
    Mr. Shays. No, no, absolutely no.
    Mr. Hutchinson. --of the equipment? I mean, what?
    Mr. Shays. We can't. I guess what I want is just honesty. I 
want people to know when they fly in an airplane, the plane can 
be blown up. Just like when you ride--no, you can smile at 
that, but it is the truth. Just like when I ride on a road, I 
know that 40,000 people get killed every year from drunk 
drivers. Guess what, I still ride on the roads. But I know the 
truth. And I want them to know the truth.
    Mr. Hutchinson. You are absolutely right, but the truth 
also is that we have many inspectors. We have initiatives that 
are trying to protect against that. I think we ought to tell 
them that as well, that we are working very hard--
    Mr. Shays. I agree with that.
    Mr. Hutchinson. --with limitations that are appropriate to 
get the job done, and that there is a security component to 
what we are doing.
    Mr. Shays. Thank you.
    Chairman Cox. The gentleman from New Jersey, Mr. Andrews, 
is recognized for his questions.
    Mr. Andrews. Thank you, Mr. Chairman.
    Thanks, Mr. Director. Welcome back.
    Mr. Hutchinson. Thank you.
    Mr. Andrews. I guess your job here seemed easy compared to 
what you are doing now. We are glad that you are doing it. I 
know that you have responsibility for a very high number of 
people. I know you have a very difficult job. I know that your 
directorate is very new at it. I want to tell you that everyone 
I have had the chance to interact with at your department has 
been courteous and responsive and went out of their way to try 
to answer my questions, and I appreciate that very much.
    Now, you know that when someone says something like that in 
these hearings that the next part of it is critical.
    Mr. Hutchinson. I knew that the last time I was 
complimented.
    Mr. Andrews. I wanted to tell you a story that I think is 
local in origin but global in impact in the agency. And it is 
my observation that there is not the proper sense of urgency in 
the agency in all cases. And there is also the sort of 
reflective bureaucratic sense to say if the paperwork looks 
good, the problem is being solved.
    About 10 weeks ago, I became aware at the Philadelphia 
Airport that there was a problem where there was a gate through 
which trucks were going without being inspected in any way and 
through which individuals who had not had a background check 
and who were not being screened in any way were also going.
    I spoke to Admiral Loy about it twice. He was quite 
responsive. I met with the individuals who were responsible for 
TSA in Philadelphia. They were quite responsive.
    I am in no way dissatisfied with their effort, but I am 
troubled by the underlying type of responses, because I sat in 
the meeting with the Philadelphia people and said the 
following, Why should anybody who might get access to an 
airplane not walk through some kind of detector or screening 
device before they walk into the airport? since they told me in 
the meeting that 95 percent of the people who work in the 
airport, who work in the McDonald's, who work in the baggage 
area, who work for the airlines, get screened or detected when 
they walk into the airport?
    Why not 100 percent? Why shouldn't the people who are 
walking through this gate not have to walk through a metal 
detector, even though it would be less convenient for them, 
even though it might mean they have to go out of their way 
somewhat? Why not 100 percent?
    The second question that I asked was about these trucks 
going through this gate, with direct access to the tarmac, so 
they could drive up to a plane if it was a truck bomb. The 
answer was there is another part of the airport where every 
vehicle is inspected in some way, either by guards, by humans 
or by some kind of technology screening device. Why not every 
truck through that gate?
    Now, Mr. Secretary, there may be a good answer to that, but 
the answer that I got was that it is up to the operator of the 
Philadelphia Airport to submit a plan to TSA that answers those 
kind of questions and that TSA will decide after reviewing that 
plan whether or not the plan is sufficient to meet the safety 
needs of the public. Under the statute and the regulations, 
that is the right answer.
    But you know, to a layperson who sat there at that meeting 
and said why not everybody who works in the airport and has 
access to a plane go through a metal detector. You do, I do, we 
all should. And the answer that I got was a process answer, not 
a substantive answer. The same question with respect to the 
trucks. I am not being--
    Mr. Hutchinson. What was the process answer?
    Mr. Andrews. The process answer was, well, look at the 
airport's plan, and we will see how they determine to deal with 
something like this.
    I have got to tell you I think what they should have done 
was gotten on the phone that afternoon with the operator of the 
airport and said there appears to us to be no good reason why 
anybody is going through this gate and why any truck isn't 
going to the gate that is screened to start doing it this 
afternoon.
    Now, if the answer was no, Congressman, there really is a 
reason for this, because it is inspected somewhere else, I 
could understand there might be a substantive reason.
    But you have dealt with this, Mr. Secretary, for your 
constituents before. There is nothing more dissatisfying than 
calling a government agency and you say they really should fix 
this traffic light at the intersection of Main Street and Smith 
Avenue. And you hear the Highway Department say, Well, we have 
a regulation that says we review every traffic light every six 
months, and when we review this traffic light, we will see if 
it is broken. And if it is broken, we will fix it. You would 
want them out there that afternoon fixing the traffic light.
    There may well be a reason they can't fix the traffic light 
this afternoon. There may be a reason the Philadelphia Airport 
that some of these employees do not go through a metal detector 
and that some of these vehicles do not wait in line with the 
other vehicles. But boy, if there isn't. It ought to be fixed 
right away.
    And I mean nothing critical of the individuals, but here is 
the point that I am making, we have been blessed in this 
country since the 11th of September. We have not had a majorly 
successful attack in the aviation industry. And I think that 
has lulled us into a sense it is back to business as usual.
    That is not what your department policy says. That is not 
the way you feel. And that is not the way Admiral Loy feels.
    But I think that is the culture of the agency.
    And you know, the one suggestion I could make to you, and I 
know that you are the guy who can get this done, is that 
imagine that the person asking that question is one of the 
constituents at your town meetings back in Arkansas, who would 
want to know how come the truck doesn't wait in line with the 
other trucks? And how come all of these people don't walk 
through that metal detector? And if you can't give them an 
answer that would satisfy them as being a common-sense answer, 
change it.
    That is what I think you need to do in Philadelphia. I know 
Mr. DeFazio has pointed out other situations at other airports 
across the country.
    We need someone like yourself who is restless with 
bureaucracy--I know you were around here--to be restless with 
this one.
    Mr. Hutchinson. Thank you, and I will look into that. But 
let me just say in general response there needs to be a sense 
of urgency about what we do. We ought to be grateful with 
success or with the fact that we have not had an incident that 
has cost lives since September 11. But we shouldn't take that 
for granted. There should be that sense of urgency.
    And let me assure you there is among the people that I work 
with day in and day out.
    Now, obviously, whenever you are looking at operators in 
the private sector, everybody has different levels of 
motivations. But we need to instill that. And I pledge to you 
that I will work to do that.
    Mr. Andrews. I know, I have confidence in you that you 
will. And I know the people working with you will. It just 
strikes me that this is not a form that gets filed 60 days 
late, or this is not some grant that doesn't get to a city for 
6 months later than it should. Those are serious matters too.
    But there is no accident here that the MO of the terrorists 
go back to the places that they have gone before. You know 
that.
    And it would just be such a tragedy if because we weren't 
urgent in our attention to simple common sense things like 
this, we weren't doing what we should.
    You have a huge job, screening all of this baggage and 
doing thousands and tens of thousands of background checks. If 
something fell through the cracks there, it would be tragic, 
but understandable.
    But something that is right in front of our eyes, we ought 
to fix. And I hope that you would help us in this respect.
    Mr. Hutchinson. Thank you.
    Chairman Cox. The gentleman from New York, Mr. Sweeney, is 
recognized for his questions.
    Mr. Sweeney. Thank you, Mr. Chairman.
    If I had known, Mr. Secretary, that I would only have had 
one vote in the markup, I would have--I would have reserved my 
time.
    I want to associate myself with the gentleman from New 
Jersey's comments, and most specifically his frustrations with 
perception of the culture of the agency. You and I have had 
this conversation privately, and this is not a reflection of 
you or Ed Maloy or some of the folks in those positions, but 
more of a reflection of what may be the development of an 
agency that has a lot of folks in it who come from different 
varying backgrounds--security, intelligence, et cetera, law 
enforcement--who haven't really had the responsibility of 
dealing with the public on a level that your agency does at 
this point and who may not quite understand the need for candor 
and a get-it-done sort of sensibility on some issues.
    I alluded to earlier the New York Daily News Story. I know 
that in some instances you are going to be able to respond. In 
some instances, you aren't, but I guess let me ask you this 
question, it is a credible report?
    Mr. Hutchinson. In reference to the Secretary's comments in 
New York?
    Mr. Sweeney. No, we will get to that later.
    In reference to the report today that the department was 
involved with the FBI and the CIA in tracking a possible 
terrorist threat from Iraqi intelligence involving cruise ships 
and the like?
    Mr. Hutchinson. I wouldn't comment on the specifics of any 
particular operation in this forum. I will tell you that we do 
have our ICE agents that are in critical places. And they have 
a good relationship with those agencies, but I couldn't comment 
on the specifics of that.
    Mr. Sweeney. The report is credible or not then?
    Mr. Hutchinson. I don't--
    Mr. Sweeney. Let me ask you this. Is it instructive at all 
to us who have been concerned about your capacities and your 
ability to interact with the intelligence community, that this 
is apparently a very substantial operation reflective of the 
involvement of DHS, and maybe, indeed, shows growth by the 
agency and its ability to take the information and get it out 
in real time and do real things with it.
    Mr. Hutchinson. Oh, absolutely. First of all, since 
September 11, because of the President's direction, there is 
not any equivocation about sharing of intelligence information 
very quickly across agency lines. The desire is to get it there 
as quickly as possible.
    We are doing an effective job of getting that to the people 
in the field and acting upon that intelligence. And we do that 
daily. That is our job, and I think we are being effective of 
getting information out.
    Mr. Sweeney. As a member of the Intelligence Subcommittee, 
I really want to look at that as instructive in terms of your 
capacity.
    Let me get quickly to other questions about the Secretary's 
statements in New York about high-risk type high threat funds. 
Where are you guys? You sent a budget that had zero. We put 
$500 million in. And on Monday, I believe the Secretary 
endorsed a different number.
    Mr. Hutchinson. Well, first of all, we are very grateful to 
the Congress for the $500 million for the High-Threat Urban 
Initiative that the House places in. You all have been 
tremendous partners in this.
    The Secretary and the administration has submitted a budget 
that first of all we do advocate a base for all of the states. 
There is a security need at a certain level for everywhere in 
the country, were that it Idaho or whether that it New York.
    But we also recognize that there has to be a distribution 
formula that considers factors like population density, 
critical infrastructure and threat to the area. And that is 
what we have worked with Congress and want to continue to 
develop that criteria in a reasonable fashion.
    The 2004 budget has $3.5 billion for first responder grant 
money; $2.5 billion of that was requested to be allocated on a 
threat-based distribution mechanism with flexibility. And so 
that is our view.
    Flexibility more--I don't mean to interrupt, but I am 
running out of time--flexibility or money? Which is most 
important? Or both?
    Mr. Hutchinson. Well, obviously, we want the money that is 
allocated and requested in the President's budget and then the 
maximum amount of flexibility with that so we can target the 
money based upon threats, population density and other factors.
    Mr. Sweeney. Final question. I mentioned earlier about does 
DHS have any work in the establishment or revised formulae? You 
alluded to it a little bit here on the suggestion, in our 
comments just now. I think it is critically important that the 
agency come forward with as many concrete ideas as they can on 
the formulation. I know the chairman has legislation coming 
forward. I have a bill in that relates to the formulation. And 
I think you folks need to really weigh in on this so that we 
get it right.
    And with that, I yield back my time and thank the chairman.
    Mr. Hutchinson. Thank you, and we look forward to working 
with you on that.
    Chairman Cox. The gentleman from Massachusetts is 
recognized for his questions.
    Mr. Frank. Thank you, Mr. Secretary.
    I am particularly concerned about the CIVS program that you 
alluded to. And I know that there is some concern on the part 
of many of my colleagues that we are not catching enough bad 
buys, and that is very important. But I think it is also 
important to remember that the overwhelming majority of foreign 
students are not bad guys. They are good guys and girls. And 
they are also very important to America.
    One of the important sources for American higher education 
is, of course, foreign students. Foreign students very often 
pay not only full tuition, but in some cases, even a little 
additional. And they also add significantly to the intellectual 
and cultural atmosphere.
    And I know you get a lot of pressure and people are 
concerned that you might be letting people slip in wearing 
their enriched uranium belt, although it strikes me that you 
would get an awful rash from that, but I am not an expert.
    But I want to also express, and as I know you understand, 
the importance of not overreacting, and particularly with 
regard to there was some initial response after September 11 
that would have banned all foreign students, or made it harder 
for foreign students should come.
    People should understand that would be an enormous loss, 
not just to the intellectual riches of our universities, but it 
would cost American students money. If you removed all foreign 
students from the mix, you would have to find a significant 
source of replacement income for many of our universities and 
colleges.
    And it is also, of course, the case that we have a multiple 
battle here for our safety. And obviously, in the immediate 
situation, we want to be physically secure. That is a very hard 
job that you have, and it is never going to be done perfectly. 
And I think people should always be aware in a free society it 
is always going to be difficult to give people even 98 percent 
assurance, certainly not 100. And I think most people want to 
maintain the element of risk, since it is the inevitable price 
of an essentially free society.
    But we also are trying to deal with the rest of the world 
in positive ways. And having people come to America to study, 
on the whole, seems to me to be a good thing. I think given 
what appears to me to be the misinformation about America, the 
unduly negative views of America that so many people have, that 
we have a lot to gain by letting people come here.
    I think this is a situation where our reality is far better 
than hostile propaganda and honest misinformation perform.
    So I am urging that in addition to trying to put up that 
screen, we be cognizant of the need to do the right thing. And 
with the great majority of students in the majority of schools 
are all trying to do well. And I do think we gave you an 
unrealistic mandate with regard to SEVIS, too quick a deadline. 
And it wasn't fully met, and that caused some problems.
    It was kind of both under inclusive and over inclusive, in 
lawyer's terms. We didn't catch some of the people we should 
have caught. But we kept out some of the people we shouldn't 
have excluded.
    Several of the schools came to me, and they were looking 
for some postponement of some deadlines on a one-time basis. I 
mean, we had some obvious significant start-up difficulties. 
And they were looking, particularly with regard to the need for 
students to say when they would be coming back for some time. 
Some of that has already slipped.
    But I just wonder, where are we now with SEVIS? And 
particularly from the standpoint of not unduly interfering with 
the overwhelming legitimate mission of most students at most 
schools.
    Mr. Hutchinson. And I do share your concern on that. One of 
the things I am trying to do is to communicate a message that 
we welcome foreign students in our country. We do not want to 
shut that off.
    I share your concern to a certain extent about the money 
for the academic institutions. But even to another extent, the 
opportunity we have to explain to the world what America is 
about. And so we want to have that welcome mat and send that 
message out.
    One of the difficulties is processing time. And we are 
trying to reduce that processing time. We do need the 
cooperation of the universities that if they receive an 
applicant in August, they are not going to be able to get him 
enrolled for September class. It is just going to take a little 
bit longer than that. And so for foreign students, they need to 
start earlier. But there should not be any impediment, other 
than that processing time.
    We had a private contractor that handled the information 
systems of this so that the universities can be on line, that 
we can handle it in that automated fashion. There have been 
some difficulties. We are trying to remedy that. We have a 
number at which the universities can call us, the help desk, 
and that is been working effectively.
    So I think we are getting the difficulties out of the 
system, speeding up the processing time. And I have met with 
the universities, and they have given me some very specific 
illustrations of problems, and we are working on those as well.
    Mr. Frank. Let me just say--and I appreciate the time, Mr. 
Chairman.
    I thank you for that, and I am glad that you are working 
with them. And I hope that you will not feel that if in the 
interest of trying to make this function, we don't get 101 
percent screen that there is then going to be an overreaction 
here. I mean, I hope that my colleagues will be realistic here 
and recognize that we are always talking about trade-offs. And 
that a focus exclusively on making sure that you prevent 
anything bad from ever happening anywhere with regard to a 
student slipping in doesn't justify a significant interference 
with the function of universities.
    I don't suggest that you are doing this. I have no 
criticisms to make in this regard, which is why I didn't praise 
you in the first place. I figured I could just break even in 
terms of time.
    But I do hope--I appreciate the attitude you have 
expressed.
    Mr. Hutchinson. Thank you.
    Chairman Cox. The gentlelady from California, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    You know, sitting here today I was remembering before 9/11, 
when you were a member of the Judiciary Committee, and we were 
all invited, a bipartisan group, to go meet with the attorney 
general. And I believe you, Mr. Frank and I and the chairman 
and a small group went and met with the attorney general. And I 
think he expected us to talk about civil rights, or I don't 
know what he expected. But every single one of us, including 
the chairman of the committee, just let loose about the 
Immigration Service and what a disaster it was.
    And unfortunately, I think that that agency, which has not 
been a model of efficiency through the decades, is still a 
problem.
    And I remember thinking that it might have been a mistake 
to move some of the functions into DHS, because I could imagine 
Secretary Ridge, or now you, trying to explain why the infant 
adoptions are late, and because we have just put things that 
have nothing to do, really, with security into the agency.
    So I remain concerned. And as you know, you have heard this 
when we served together on Judiciary, I think a major part of 
the problem is the lack of adequate technology in the agency. 
It is in the Dark Ages.
    And I want to go back to the SEVIS system that Mr. Frank 
talked about. I hear from the universities that that program is 
still no working. The inspector general delivered a report to 
the Immigration Subcommittee outlining the flaws. It is not 
scalable. It doesn't work.
    And so I am concerned that if we are using the SEVIS system 
as the basis for expansion of exit-entry systems, the entire 
thing is doomed to failure. And I am wondering if you could, 
either now or later, give me your insights on that issue.
    Mr. Hutchinson. First of all, we are very closely engaged 
in that system, its development and its improvement. We have a 
SEVIS working group, in which my director of operation meets 
regularly with the folks that are running that program, 
troubleshooting it, trying to improve the system.
    My understanding is that--and this comes from both our 
side, but also meeting with the universities--it is a fairly 
well-designed system, that they have great hope that it is 
going to work well. There were some bugs, and we have got those 
being addressed. So I am much more hopeful about the system, 
even though I know we have miles to go.
    And I think it is the right design. It is an automated 
information system that allows us to track the students and 
foreign visitors that come in. That is the type of thing we 
need to expand.
    Ms. Lofgren. I am not opposed to what we are trying to 
achieve. My question really is about the technology that just 
flubbed.
    Mr. Hutchinson. You know, it is an example here of where we 
hired a private outside contractor to do this. But even under 
that scenario, there are difficulties because usually private 
industry is not used to dealing with the mass of information 
that we have to deal with in the government. So there is 
challenges every step of the way.
    Ms. Lofgren. Well, yes and no. I mean, Albertsons deals 
with a lot of information, but I will pass on that.
    I am concerned that at this late date that we have still 
not merged our watch lists from the various sources and that 
immigration inspectors, who should have access to that 
information, may not. And I have actually seen the immigration 
officers, and I mean, they are busy. They are not going to 
check 113 different databases at a point of entry.
    What is the status of that merger? When is that going to be 
done?
    Mr. Hutchinson. First of all, enormous improvement has been 
made since September 1. And both the State Department list, 
their visa information, is made available to our inspectors at 
secondary inspection. And so we can improve that, but there has 
been an enormous step forward.
    At the Department of Homeland Security, we have our chief 
information officer, Steve Cooper, who is tackling that project 
of bringing our information systems together. You have got 22 
different agencies, all different systems. I think there is 
like 2,500 mission applications and programs.
    Ms. Lofgren. It is a mess.
    Mr. Hutchinson. And I am pleased with his strategy, the 
progress that is being made. We are anxious for the day when it 
is all together and we can communicate with each other well.
    Ms. Lofgren. Perhaps it would be helpful if I just 
solicited a briefing from that individual and became more 
informed on that.
    Mr. Hutchinson. We welcome that.
    Ms. Lofgren. I wanted to also go back to the issue of the 
six month processing requirement that is going to go into play. 
And I am interested in whether the department will meet that 
requirement, and if so, how?
    And although it is true that the State Department has a 
large role to play in the issuance of visas, I mean, their 
primary role, certainly the former Immigration Service, the 
Immigration Benefits Division, has a huge role to play in a 
whole variety of immigration benefits, including the issuance 
of permanent residencies and the role they play in concert with 
the State Department on the H1B program and the like.
    I know that you have just recently experimented with Web-
based applications in just a few matters. Is that the direction 
you plan to take? And if so, when will we have an entire Web-
based application system in play?
    Mr. Hutchinson. I believe that pertains to the services 
side, under Eduardo Aguirre--
    Ms. Lofgren. Right.
    Mr. Hutchinson. --who is the director of the Immigration 
Services. And that is the goal, to reduce the backlog. And they 
have made progress in terms of moving online. They introduced 
that. So gradually, I think, they made the first step, that 
there can be applications and activity done online, on the 
services side. We hope to increase that.
    That is probably about as far as I should go into the 
depths of that question. That is his responsibility.
    Ms. Lofgren. If you could get back to me later. I am very 
interested because it is always bothered me that if you order 
something from Amazon.com, you can find out where it is. You 
know, it just landed at the airport. It just got put on the 
truck. But if you are applying for a visa for your husband or 
wife, you are in the dark for years.
    No one answers the phone. You can't find anything out. We 
ought to be able to track them just as you would a package.
    And finally, I would like to raise the issue of background 
checks for foreign students. I went and met with Iranian Ph.D. 
candidates at Stanford last fall. I mean, these are the 
brightest kids in the country. They are all candidates for 
Ph.D.'s in engineering. They are being sought by universities 
all over the world. I mean these are hot jobs.
    And they explained to me and the engineering department 
explained to me that they are going to lose these kids, because 
if they go to an international conference in Europe or if they 
have a parent who becomes sick, they can't get back into the 
country. They are going to miss their classes.
    And it relates in part to the FBI. It is not your 
department, but really it is of the piece, because these kids 
were so wonderful. They said we are here too. We want to be 
safe. And so investigate us, you know, that is fine. They had 
no problem with that. They said, Can we go into the FBI here in 
the United States and answer any questions that they have? And 
in fact, many of them had been undergraduates here. There 
really was nothing to find out about them in Iran. But there 
never was any action.
    I know that Chairman Sensenbrenner met with the Secretary 
of State on this issue. Can you help resolve this problem in 
any way?
    Mr. Hutchinson. Happy to work on it. We want to be able to 
have a group within my arena that works specifically on problem 
cases, and so if there are specific ones, please let us look 
into it to address those. Well over the 90 percent of them move 
through quickly. There is a few that get stuck because they 
can't complete the background quick enough, and there is some 
questions that have to be resolved. We want to be able to 
reduce that number.
    Ms. Lofgren. If you could identify--and I thank the Chair--
    Chairman Cox. The gentlelady's time has expired.
    Ms. Lofgren. If you could just give me a name, I would love 
to set up a meeting to follow up on that.
    Chairman Cox. The gentlelady from Texas, Ms. Jackson-Lee?
    Ms. Jackson-Lee. Thank you very much, Mr. Chairman, and 
again to the witness. I appreciate your presence here and the 
time frame that you have spent with us.
    As I indicated before I start questioning the witness, Mr. 
Chairman, if I might yield to you for just a moment. I want to 
refer you to a letter that was sent by about 13 members of the 
Texas delegation dated June 19, 2003, that asks for a hearing 
and the subpoenaing of Secretary Tommy Ridge on this question 
dealing with the democratic legislators on May 11, 2003. I 
would like to submit this letter into the record. I ask 
unanimous consent to submit it into the record, but also to--
    Chairman Cox. Without objection.
    Ms. Jackson-Lee.--to ask of the chairman that we have a 
speedy response.
    Let me just quickly say that partly the language in the 
letter says both the Department of Homeland Security and DPS 
have admitted and acknowledged that the DPS contacted the 
Federal Air and Marine Intradiction Coordination Center, an 
agency within the Department of Homeland Security, seeking 
information concerning the whereabouts of an airplane owned by 
one of the absent legislators.
    In addition, the Department of Homeland Security 
acknowledged that it use Federal resources to respond to the 
request. The department confirmed and admitted that the Air and 
Marine Intradiction Coordination Center, located in Riverside, 
California, contacted the Federal Aviation Administration and 
local officials as three Texas airports to attempt to locate 
this private plane. Again, this was done, although this 
situation was a purely political matter and there was no 
allegation of wrongdoing on the part of the absent legislator.
    Chairman we have worked in a very bipartisan manner on this 
committee. I hope that the letter that has been signed by a 
good number of members of the Texas congressional delegation, 
at least 13, will be accepted in the manner of getting to the 
truth. And I guess my inquiry to you is when we might have such 
a hearing with respect to Secretary Ridge on this matter?

                             FOR THE RECORD

                           House of Representatives
                        Washington, DC 20515, June 19, 2003
Hon. Christopher Cox
Chairman, House Select Committee on Homeland Security, The Capitol, 
        Washington, D.C.
    Dear Mr. Chairman: As you know, on May 11, 2003, a number of 
Democratic members of the Texas House of Representatives absented 
themselves from the floor of the state house in Austin, Texas, in a 
proper procedural move to defeat a quorum in that body.
    Subsequently, on that same date, the Speaker of the Texas House of 
Representatives, Tom Craddick, ordered the Texas Department of Public 
Safety (``DPS'') to locate the absent legislators and return them to 
the capitol.
    The DPS thereupon took steps to locate the lawmakers and, among 
other things, contacted the U.S. Department of Homeland Security 
(``DHS'') for federal assistance--in spite of the fact that this was a 
state political matter and there was absolutely no allegation of any 
sort whatsoever that the legislators had violated any state or federal 
law. In fact, DPS based its subsequent decision to destroy records of 
its activities in connection with this matter on the absence of any 
evidence or allegation of unlawful conduct by the absent legislators.
    Both the Department of Homeland Security and DPS have admitted and 
acknowledged that the DPS contacted the federal Air and Marine 
Interdiction Coordination Center, an agency within DHS, seeking 
information concerning the whereabouts of an airplane owned by one of 
the absent legislators. In addition, DHS acknowledged that it used 
federal resources to respond to the request. The Department confirmed 
and admitted that the Air and Marine Interdiction Coordination Center, 
located in Riverside, California, contacted the Federal Aviation 
Administration (``FAA'') and local officials at three Texas airports to 
attempt to locate this private airplane. Again, this was done although 
this situation was a purely political matter, and there was no 
allegation of wrongdoing on the part of the absent legislators.
    It has also been learned that other federal agencies became 
involved in this political dispute. U.S. Representative Tom DeLay, the 
House Majority Leader, said that bringing in U.S. Marshals or agents of 
the Federal Bureau of Investigation to aid in the search would be 
justified, and he admitted that his office called the FAA and the 
Justice Department to inquire about help in locating the Texas 
legislators.
    The Department of Homeland Security has now admitted that the 
Department has in its possession certain audio tapes, transcripts, and 
other documents concerning its contacts with Texas DPS officials. In 
spite of this admission, the Department has failed and refused, and 
still fails and refuses, to release this information fully and 
completely either to the public or to the Select Committee on Homeland 
Security--despite repeated demands.
    To wit, on May 14, 2003, members of the Texas congressional 
delegation tendered a written request to Attorney General Ashcroft, 
Secretary Ridge, and FBI Director Mueller for information regarding any 
actual or attempted diversion of federal law enforcement or homeland 
security resources in connection with this state political matter. 
While William B. Moschella, Assistant Attorney General for Legislative 
Affairs, responded by letter to our request on behalf of Messrs. 
Aschroft and Mueller, his response provided no relevant details in 
response to our stated inquiry.
    As a consequence of his failure to respond to our letter of May 14, 
2003, members of the Texas congressional delegation addressed a second 
written request to Secretary Ridge on May 19, 2003 again requesting 
information regarding any actual or attempted diversion of federal law 
enforcement or homeland security resources in connection with this 
matter. In addition, that letter specifically requested the recusal of 
Mr. Clark Kent Ervin, Acting Inspector General of the Department of 
Homeland Security, from any involvement in the investigation of the 
matter based on his evident conflict of interest. To date, our request 
has not been answered, although Mr. Ervin did recuse himself.
    Met again with silence, on May 21, 2003, we addressed a third 
letter to Ms. Lisa Redman, Assistant Inspector General for 
Investigations of the Department of Homeland Security requesting 
information regarding any actual or attempted diversion of federal law 
enforcement or homeland security resources in connection with this 
matter. In addition, in anticipation of any reluctance to release such 
information, we specifically sought a legal justification for any 
refusal to respond to our repeated requests. In response, Richard 
Skinner, the Deputy Inspector General, acknowledged that no federal 
statute prohibited the Department from releasing the records. He 
asserted, however, that the Department could withhold records under 
exemption 7 of the Freedom of Information Act (FOLA), which protects 
law enforcement records under certain circumstances.\1\
---------------------------------------------------------------------------
    \1\ Specifically, exemption 7 provides that FOIA's mandatory 
disclosure requirement does not apply to matters that are:
    records or information compiled for law enforcement purposes, but 
only to the extent that the production of such law enforcement records 
or information (A) could reasonably be expected to interfere with 
enforcement proceedings, (B) would deprive a person of a right to a 
fair trial or an impartial adjudication, (C) could reasonably be 
expected to constitute an unwarranted invasion of personal privacy, (D) 
could reasonably be expected to disclose the identity of a confidential 
source, including a State, local, or foreign agency or authority or any 
private institution which furnished information on a confidential 
basis, and, in the case of a record or information compiled by criminal 
law enforcement authority in the course of a criminal investigation or 
by an agency conducting a lawful national security intelligence 
investigation, information furnished by a confidential source, (E) 
would disclose techniques and procedures for law enforcement 
investigations or prosecutions, or would disclose guidelines for law 
enforcement investigations or prosecutions if such disclosure could 
reasonably be expected to risk circumvention of the law, or (F) could 
reasonably be expected to endanger the life or physical safety of any 
individual.
---------------------------------------------------------------------------
    As a consequence of the Department's continuing refusal to provide 
a full and meaningful accounting of its admitted and alleged 
involvement in locating the absent legislators and otherwise in 
connection with this matter, on June 4, 2003, the House Conimittee on 
Government Reform invoked the seldom-used ``Seven Member Rule'' \2\ in 
a further attempt to compel the cooperation of the Department with the 
legitimate exercise of oversight and investigation of the alleged 
diversion of federal law enforcement or homeland security resources in 
connection with this internal state political matter. As of this 
writing, the Department has not yet responded to these Members' 
request.
---------------------------------------------------------------------------
    \2\ 5 U.S.C. Sec. 2954.
---------------------------------------------------------------------------
    Moreover, and of further concern, it was reported late last week 
that additional evidence has been discovered as to involvement of the 
Federal Bureau of Investigation in attempts to locate the absent state 
legislators. Accordingly, members of the Texas congressional delegation 
directed an inquiry and request to FBI Director Mueller, dated June 5, 
2003, renewing our prior requests for records and related information 
and seeking further explanation in respect of various media reports 
detailing FBI involvement in this matter. No written reply to this 
request has yet been received. While FBI spokesmen have dismissed the 
agency's involvement as ``routine'' and ``really pretty benign,'' 
without a full, complete and open examination and consideration of the 
facts and evidence, the truth may never be known.
    Finally, on June 13, 2003, the Office of Inspector General of the 
Department of Homeland Security completed its internal investigation 
into the alleged diversion of federal resources to assist in the 
resolution of an intrastate political dispute. In the Inspector 
General's report, the Department confirms its prior admission that its 
resources were used to assist the ``Texas DPS in locating a purported 
``missing aircraft.'' In closing the case, the Inspector General's 
report concludes that its actions ``had no reducible effect on its 
mission or resources'' and were ``appropriate under [Air and Marine 
Interdiction Coordination Center]'s guidelines.'' Characterizing the 
Department's involvement in this purely intrastate political dispute as 
``nominal,'' the Inspector General describes at least eight phone 
calls, ``which consumed no more than 40 minutes of one dispatcher's 
time.''
    The Inspector General's conclusions, however, are cold comfort when 
considered in the context of its report. The report is substantially 
redacted allegedly to protect the parties involved against 
``unwarranted invasion of personal privacy.'' Moreover, it is our 
contention that the exemptions claimed by the Inspector General as the 
basis for its substantial redactions are inapplicable in this case.\3\ 
Nevertheless, the net effect of these significant redactions is to 
preclude any further inquiry or investigation of the conclusions stated 
in the report. In sum, we--as well as the interested public--apparently 
are expected simply to take the Department's word for it. This is 
simply not acceptable.
---------------------------------------------------------------------------
    \3\ U.S.C. Sec. 552(b)(2) (applicable to matters that are ``related 
solely to the internal personnel rules and practices of an agency''); 5 
U.S.C. Sec. 552(b)(6) (applicable to matters that are ``personnel and 
medical files and similar files the disclosure of which would 
constitute a clearly unwarranted invasion of personal privacy''); 5 
U.S.C. Sec. 552(b)(7)(C) (applicable to matters that are ``records or 
information compiled for law enforcement purposes, but only to the 
extent that the production of such law enforcement records of 
information... could reasonably be expected to constitute an 
unwarranted invasion of personal privacy'').
---------------------------------------------------------------------------
    The concerns we have repeatedly expressed and the inquiries we have 
repeatedly put to the Department are not quantitative in nature, i.e. 
not how much of the Department's resources were deployed in locating 
the ``purported `missing aircraft,' '' but rather are qualitative, i.e. 
whether the Department's resources were deployed, wittingly or 
unwittingly, in what was a strictly intrastate political dispute. The 
Inspector General's report does not assuage our concerns or respond to 
our inquiries. As a matter of fact, the substantially redacted nature 
of the report results in more (rather than less) concerns and 
questions. The Department's failure to provide a full and meaningful 
accounting of its participation in these matters and its interaction 
with Texas state officials is extremely troubling, and it is our firm 
belief that the Department must be compelled to produce the evidence in 
its possession in its original form without redaction or other 
filtration in order to find the truth with respect to the events in 
question.
    Additionally, at the state level, on May 14, 2003, the Texas DPS 
ordered the destruction of all notes, photos, correspondence, and other 
records related to its efforts to find the legislators. The order 
specifically said to retain no copies.
    In brief, it is our position that any effort to use federal law 
enforcement or homeland security resources to participate in a state 
political matter is clearly improper. Further, the destruction of 
records by the Texas DPS, which further limits the ability to determine 
the extent of federal involvement, coupled with the refusal by the 
Department of Homeland Security to produce its records are matters of 
grave concern.
    The Department's own internal investigative arm has been permitted 
to complete its investigation without congressional involvement, and 
the Inspector General has produced a report that is far from complete 
or meaningful. Accordingly, the Department should be required to 
release all of its records in connection with these matters--which is 
the Department's lawful obligation--in order to conclude a full and 
fair investigation of these matters. It is our contention that any 
conclusions from internal administrative investigations--to say nothing 
of the cursory and incomplete report produced by the Department last 
week--are no substitute for the facts themselves. The public does not 
need an administrative filter to determine the truth. Let the records 
speak for themselves. The truth will emerge from the records in their 
entirety.
    Therefore, please accept this letter as a formal, written request 
that the Secretary of the Department of Homeland Security, Tom Ridge, 
be immediately subpoenaed and compelled thereby to appear personally 
before the Select Committee on Homeland Security, and there remain day 
to day, both to testify and to produce and provide formally and 
completely the following testimony, audio tapes, video tapes, 
recordings in any and all media, photographs, transcripts, notes, 
letters, fries, documents, and evidence and information of every sort 
in the Department's possession and/or control concerning the above-
referenced matter, including but not limited to the following:
        (1) Full and complete audio tapes of any and all conversations 
        and transmissions pertaining to any aspect of the attempts or 
        alleged attempts to use any federal resources of any type with 
        regard to any member of the Texas House of Representatives and/
        or otherwise related to the subject matter of this 
        correspondence.
        (2) Full and complete copies of any and all other 
        communications, including audio tapes, video tapes, recordings 
        in any and all media, letters, notes, documents, schedules, 
        summaries, indices and/or other written or electronic records 
        of every sort, between or among Texas officials and any person 
        or persons at the Department of Homeland Security (including 
        but not limited to the federal Air and Marine Interdiction 
        Coordination Center) concerning the absent Texas legislators.
        (3) Full and complete copies of any and all communications, 
        including audio tapes, video tapes, recordings in any and all 
        media, letters, notes, documents, schedules, summaries, indices 
        and/or other written or electronic records of every sort, 
        between or among any person or persons outside the Department 
        of Homeland Security and any person or persons at the 
        Department of Homeland Security (including but not limited to 
        the federal Air and Marine Interdiction Coordination Center) 
        concerning the absent Texas legislators.
        (4) Full and complete original files, written, electronic, or 
        in any and all media of whatever sort, produced, developed, 
        and/or maintained by the Department of Homeland Security 
        (including but not limited to the federal Air and Marine 
        Interdiction Coordination Center) concerning the absent Texas 
        legislators.
        (5) A full and complete record of any and all telephone calls 
        and/or other contacts between the Department of Homeland 
        Security (including but not limited to the federal Air and 
        Marine Interdiction Coordination Center) and any and all other 
        persons, agencies and/or entities of every sort, regardless of 
        which party initiated or responded to the call or contact, 
        concerning the absent Texas legislators.
        (6) A full and complete record of any and all persons, federal 
        officials, state officials, law enforcement personnel, 
        agencies, and/or entities of every sort that have contacted or 
        have been contacted by the Department of Homeland Security 
        (including but not limited to the federal Air and Marine 
        Interdiction Coordination Center) concerning the absent Texas 
        legislators.
    Further, Secretary Ridge should be advised that the Select 
Committee on Homeland Security may request the production of additional 
information as a result of his testimony, and we will expect him to 
acknowledge and af6nn under oath that no records have been altered, 
deleted, destroyed, redacted or otherwise withheld in whole or in part.
    We respectfully request that a subpoena and subpoena duces tecuiiz 
be issued forthwith and that this matter be set for a formal heating 
within seven (7) days.
    Thank you for your prompt attention.
                    Max A. Sandlin
                    Martin Frost
                    Solomon Ortiz
                    Gene Green
                    Shiela Jackson-Lee
                    Nicholas V. Lamson
                    Ciro D. Rodriguez
                    Charles A. Gonzalez
                    Lloyd Doggett
                    Charles W. Stenholm
                    Chet Edwards
                    Eddie Bernice Johnson
                    Ruben E. Hinojosa
                    Silvestre Reyes
                    Chris Bell

    Chairman Cox. Well, the gentlelady's request is entirely 
reasonable. You have asked that you receive a prompt response, 
and you shall. I would just state for the record, and I will 
not use your time to do this, if you would yield to me further.
    Ms. Jackson-Lee. I would be happy to yield to the chairman.
    Chairman Cox. That the inspector general's report that has 
now been completed on this subject and has cleared the 
department of any wrongdoing, as you pointed out. And I just 
want to make sure that we understand that there are many 
unanswered questions I am sure.
    But this Associated Press article, for example, that 
reported on the investigation stated that investigators found 
no wrongdoing by a Department of Homeland Security agency that 
helped Texas police track down a private plane, and et cetera. 
So I just want the record to be clear on that point. And the 
gentlelady's request is entirely reasonable, and she will have 
a very prompt response from the chairman.
    Ms. Jackson-Lee. If you would indulge me just for a moment 
and if the witness would indulge me. I thank you very much, Mr. 
Chairman, if you would review the Office of Inspector General's 
report, you will see that the report submitted to Congress was 
filled with redactions.
    We have called it spots by many of my colleagues, but the 
main point that I think you would be interested in, in finding 
out the truth is that the final summary paragraph indicates 
that the OIG did not receive from the Department of Public 
Safety in Texas the names of those individuals who approached 
the Homeland Security Department and air marine who have made 
the request to intervene in a totally safe issue, and I believe 
a political issue.
    I believe our work is yet undone, because I want Mr. 
Hutchinson to have all of the resources he can to ensure the 
safety of this nation.
    And so, I appreciate it, Mr. Chairman, the interpretation 
of Associated Press, but I would take issue that there is work 
to do because the document that we received was really replete 
with redactions.
    And you really cannot make heads or tails out of what the 
report is trying to say. And particularly, they did not use 
their subpoena powers to be able to find the truth about who 
actually contacted the Department of Homeland Security on a 
purely personal political matter, which I think we should not 
engage in.
    I thank the chairman for indulging me on that. And I look 
forward to having my colleagues be as interested as we are in 
the truth, and having Secretary Ridge, who, by the way, just 
earlier today, I commented, he has the greatest of integrity 
and I have the greatest respect for him, to come before this 
committee to answer these questions.
    And I submit this into the record.
    Chairman Cox. If the gentlelady would yield. Whoever is 
controlling the time, if you would add 2 minutes to the 
gentlelady's time because of our colloquy.
    Ms. Jackson-Lee. I thank the distinguished gentleman.
    Mr. Hutchinson, if I might? You have a large challenge. The 
borders are very big, and the transportation issues are very 
large, which include port security. And I am going to try to go 
through a number of them. And you might take some notes, 
because some of them may indicate I am not doing it; I am doing 
it.
    I think one of my colleagues did raise the question on the 
Transportation Security Administration. We work very hard to 
secure the right kind of staff. We know there have been some 
problems. I want to say that I believe we have made an effort 
to get the best people. But I would like to know what are their 
plans to do massive firing that have nothing to do with 
correcting some of those problems? Meaning, we found some 
individuals with some records that may not be as savory as we 
would like.
    The other thing is I would encourage you to enhance their 
training. We tried to make better what was poor, and that was 
consistency in the airports. And I would say that there is some 
lacking in protocol and in the ability to understand making 
choices. I know there must be some instructions from your 
agency on how to be selective.
    I want to make this from the point of constructive 
criticism, because overall I want you to know my experience has 
been very positive. The team in Houston is fabulous, that is my 
bias. But I am interested whether you will be looking to hire 
and fire.
    Let me move on to the SEVIS. I just want to make these 
brief points and associate myself with the remarks with Mr. 
Frank.
    But I want to go on to where I would like an answer is on 
the non-immigrant visas. I know that when we designed the 
Homeland Security Department, we designed it to allow the visa 
determination in the State Department. But I know with the 
expertise that you bring to this, as well as Eduardo Aguirre, 
we have problems.
    In travelling to the Mideast, in particular to the Arab 
region, rather, and more particularly, Qatar, and other Arab 
nations that I have been engaged in over the last couple of 
months, there is an absolute panic and fear to even attempt to 
come to the United States.
    But more than panic and fear is the devastating impact on 
hospitals and research institutions, particularly, for example, 
the Texas Medical Center. When the number of patients coming 
from that region who really need care, some who, I understand, 
may have been put in jeopardy and lost their lives, cannot get 
in because of this very pronounced and rigid and seemingly 
unbalanced non-immigrant visa problem. We have problem that we 
should be intellectually capable of fixing. And also capable of 
fixing as it relates to our security.
    As relates to the border security, I encourage the agency 
to look closely at technology. I have a memo from the Justice 
Department that says they tested the ABIAN technology, which 
can screen 18-wheelers to find those who have been smuggling, 
or find the heartbeat. I would like your comment on using 
technology.
    Lastly, let me say that in the field hearings that I joined 
Chairman Cox with, very good field hearings this last weekend, 
there were law enforcement agencies who informed us and said, 
You know, I can't get--and this is an intelligence community 
issue and your issue--the right intelligence. We don't have 
security clearance.
    One particular gentleman said, I didn't want to let my 
other colleagues know I have a security clearance because I 
don't want them to, I don't know if I am supposed to say it or 
not, that I have a security clearance.
    I have legislation that would help to expedite the securing 
of individuals who are already in law enforcement, as needed, 
to help us in homeland security. And I would appreciate your 
comment on that.
    And I thank the distinguished chairman for his indulgence.
    And I would like to speak to the Secretary about a 
smuggling issue, and I will do that as we are allowed to do so.
    Chairman Cox. The gentlelady's time has expired.
    Ms. Jackson-Lee. If he could respond to--I think I gave him 
three questions, and the others were comments.
    Chairman Cox. And the Secretary may respond.
    Mr. Hutchinson. Thank you.
    And in reference to TSA, everybody who works at the TSA as 
a screener goes through a background check. Because we moved 
forward so rapidly in the hiring process, there was a 
preliminary background check done. As more complete information 
came in through OPM, some were dismissed. But those background 
checks are being completed very rapidly.
    You are absolutely correct in terms of training. I have 
heard that loud and clear today on the Hill, that Admiral Loy 
very well will send out a directive through his staff to the 
inspectors and it might be interpreted in different ways. We 
need to have more training and more consistency in what our 
passengers go through in reference to the screeners.
    On the non-immigrant visas--
    Ms. Jackson-Lee. But you are not intending on doing massive 
firing?
    Mr. Hutchinson. No, absolutely not.
    You know, we are doing a right-sizing, as Admiral Loy 
refers to it. We are reducing the work force. But it is 
primarily done through attritions. There have been some 
layoffs, but I think it is minimal in terms of the whole work 
force.
    In reference to the non-immigrant visas, we have to balance 
this. We cannot allow people to come in, particularly in 
countries of concern, without adequate background checks. We 
have to develop the systems to move that through quickly, so 
that they are not totally discouraged from coming. But we do 
have to maintain that security check.
    And you are absolute correct on the border technology. We 
are grateful for Congress's investment in technology. We are 
looking for new ways, both in sensors, surveillance, but also 
in systems moving people and cargo through the borders more 
rapidly.
    Ms. Jackson-Lee. I am sorry, the intelligence to law 
enforcement officers, expediting their security clearances?
    Mr. Hutchinson. That is a must. And that is through the FBI 
primarily, but it has to be a priority. We have to be able to 
get the intelligence to them, and that backlog is a handicap.
    Ms. Jackson-Lee. Will you work with me on that? I would 
like to work with you on that issue, please. Thank you.
    Chairman Cox. The gentlelady from the Virgin Islands, Dr. 
Christensen, is recognized for her questions.
    Mrs. Christensen. Thank you, Mr. Chairman. Is that 8 
minutes?
    Chairman Cox. Yes, the gentlelady is recognized for 8 
minutes.
    Mrs. Christensen. Thank you.
    I want to welcome my class of 1997 classmate.
    Mr. Under Secretary, your directorate, as many people have 
pointed out, has a monumental task to bring what looks like 
seven separate agencies, or parts of agencies, and more than 
half of all of the Department of Homeland Security employees 
into coordinated operations, while still on the other hand, not 
compromising the other important tasks that some of them also 
have to do, and to do it right away.
    I must say that looking at your testimony, I commend you 
for what you have done, while some of the other directorates 
that have come before us have told us that they are still 
looking for space, and have not been able to hire some of their 
staff. And also, for acknowledging the special needs of 
children and the people with disabilities. I commend you for 
that.
    And before I ask my question and run out of time, I don't 
want to miss the opportunity to say that in the Virgin Islands, 
with 175 miles of open unprotected borders, the largest oil 
refinery in the Western hemisphere, and the busiest cruise ship 
port in the Caribbean, we are very much in need and want to 
have one of your listening sessions.
    I want to just follow up on the question about TSA, which 
has really been a thorn in my side from the very beginning, and 
especially as the layoffs started. I lost more than half of my 
screeners at one airport. So it was protected there would be 
another 3,000 layoffs. Are we still doing that, or had that all 
been rethought?
    And let me just follow up with a follow-up question. Are 
there any plans, or is there anything happening that might 
provide lateral transfers into other parts of the directorate 
for those people that are being laid off and qualify?
    Mr. Hutchinson. Yes. There was a goal to reduce the work 
force by 6,000. I believe that they have.
    Mrs. Christensen. Some 3,000, I think--
    Mr. Hutchinson. And so we are half way there. But the goal 
is that first of all that there would be through attrition a 
substantial number would be reduced, and then there will be 
minimal in terms of out-right layoffs.
    There is an opportunity for lateral transfers if there is 
an area in which there is any increased screener force that 
will be applied. And that is in a number of locations that--
    Mrs. Christensen. And that is being encouraged where it can 
happen?
    Mr. Hutchinson. Absolutely.
    Mrs. Christensen. OK.
    Mr. Hutchinson. And we hope that they will take advantage 
of that.
    Mrs. Christensen. Thank you. And in your testimony, you 
also referred to meetings you had with countries like Mexico 
and Canada, with whom we share our borders. The Caribbean 
wasn't mentioned. Have you also meet with these very close 
neighbors, who not only have always supported us in many 
efforts, but are also are in need of help to do so as much as 
they would like to?
    Mr. Hutchinson. I actually have met with them frequently 
from my old job at the DEA, and they are--
    Mrs. Christensen. Right, I know that.
    Mr. Hutchinson. --tremendous partners with us. I have not 
had occasion to renew those friendships at Homeland Security. I 
will look forward to that opportunity, because they are a very 
important part of our effort as well.
    Mrs. Christensen. And they brought it to my attention, that 
they really do want to work more closely, but they will need 
some assistance to do that.
    Also in the testimony that you submitted, you talked about 
expanding the number of agents at borders, and you made 
reference to the U.S. and Canadian border.
    I hope that doesn't preclude us from having new border 
patrols instituted like the ones that we are hopefully going to 
get in the Virgin Islands. We don't have a border patrol. And 
we have made some requests and inquiries about doing that.
    Mr. Hutchinson. Would be happy to look into it. And 
whenever I talk about new resources for the border, obviously 
that is more than just simply our border with Mexico or Canada. 
We have many more miles to look at. And you are in a very 
critical role there that we have to look at as well.
    Mrs. Christensen. And I know that you are familiar with it 
because in our very first year we took a trip to Puerto Rico to 
look at HIDA and we looked at HIDA in the Virgin Islands and 
Puerto Rico.
    We had a press conference--the Small Business Committee--on 
the scorecard. And most of the agencies that have been 
incorporated, where portions of those agencies have been 
incorporated into the your directorate, those agencies got D 
and F for small business procurement and procurement with 
minority and women-owned businesses.
    What kinds of instructions and what kinds of initiatives 
are you undertaking to contract with small business and reach 
out to minority and women-owned businesses?
    Mr. Hutchinson. Well, we hope to improve upon the record 
that you just recited. And it is important that whenever we do 
competitive outsourcing, that it is available for disadvantaged 
minority businesses as well.
    That will be handled primarily by our Under Secretary of 
management, but it is something I will certainly encourage and 
visit with her about to review our protocols on that.
    Hopefully, we can increase our capability there.
    Mrs. Christensen. We want to see you at least have a B next 
year when we do this.
    Mr. Hutchinson. That is a good goal.
    Mrs. Christensen. OK.
    I had an amendment offered, when we were doing technical 
amendments--we may still to it--about how the department 
relates to the tribes. You mentioned in our statement that the 
Border Patrol is working with local tribal law enforcement to 
protect the tribal lands from unlawful entry. And I was 
wondering whether if they are treated as sovereigns. And are 
they afforded the same courtesies and respect with regard to 
consultations as the states are?
    Our amendment would have put them on the level with the 
states, whereas in the original legislation they are with 
smaller localities. But as sovereign tribes, we wanted to 
assure that they were being treated with the courtesy and 
respect due at that level.
    Mr. Hutchinson. They are treated with that respect and 
independence. And so the tribal authorities are treated 
independently, negotiated independently. The money that flows 
to them from Homeland Security grants would go through the 
states through to those tribal authorities.
    Give you an example of success. The Tohono O'odham Indian 
Reservation on the Arizona border, I went there. Their chief of 
police could not communicate with the Border Patrol. We were 
able to make sure that the communication systems were 
interoperable. So we are working with them and treat them as an 
independent sovereign.
    Mrs. Christensen. OK, but the funding does go through the 
states. We will look at that and see how that works. We will 
probably follow up with your department on that.
    I think I have exhausted my questions, because most of them 
have been asked and answered by the time they get here, Mr. 
Chairman.
    Thank you.
    Mr. Hutchinson. Thank you.
    Chairman Cox. The gentleman from Florida, Mr. Meek, is 
recognized for his questions.
    Mr. Meek. Thank you very much, Mr. Chairman.
    Mr. Secretary, I have been going back to the opening 
statements as it relates to how we are going to deal with 
border security and control. Let me just take about 2 minutes 
and just say what the reality is in South Florida, and 
eventually what the reality may be in this country, in other 
parts of this country.
    We have individuals that--just yesterday, we had a boat 
load of Haitians and Cubans come to our South Florida borders. 
And the reason why we have the program and the cooperation with 
the Federal Government there is because of that influx and 
threat that we have.
    Earlier this year, General Ashcroft put forth a directive 
saying that as it relates to Haitian immigrants that are trying 
to obtain political asylum, even thought it is illegal for them 
to come into the country without paperwork or visa, many of 
them are intercepted in the airport and are sent to Krome for 
almost indefinite detention, like General Ashcroft has put 
forth. His justification was that Haiti could possibly be a 
location for terrorism, or a staging place for terrorism, even 
though in non-secure reports CIA and any other agency that may 
be over there says that they find no evidence of any terrorism 
over there.
    I say that because in South Florida, and even in this 
country--and back in October, if you remember, we had a big 
boat load of Haitians that came. Every day Cubans that are 
seeking freedom come to our shares. And if they make it, they 
are out, they are processed in two days. And then we have 
Haitians that are detained for several months.
    And 9 times out of 10, these Haitians are interdicted by 
the Coast Guard. It is doing an outstanding job. That are 
interviewed by an asylum officer, by INS, may have a credible 
claim of fear, but they are still indefinitely detained, with 
criminals, I must add, at the Krome Detention Center.
    I am saying all of that because the credibility of this 
department and even the mission that you have to carry out to 
be able to secure our borders. And I am going to tell you, I 
volunteered to be on this committee and Armed Services. I feel 
very, very strong about security of the homeland.
    But at the same time, as we are in good times, and we have 
been very fortunate, as mentioned earlier, and blessed by the 
fact we haven't had an event here on the homeland since 9/11, 
that it is important for those groups, or groups outside of 
what we are doing here, that they don't misunderstand our 
mission. It is almost like--I don't even want to go here--we 
couldn't drink out of the same water fountain, and we have two 
different sets of policy. And that is where it comes from.
    The threat comes from communism in Cuba, when it comes down 
to Castro, not the Cuban people. But if something was to happen 
as it relates to Cubans going across the 90-mile stretch and we 
end up having a terrorist event in Key West or in Miami or 
somewhere in the country--I must add, the majority of the 9/11 
terrorists came from South Florida. So that is going to 
interrupt the Cuban Readjustment Act.
    Saying all of that, I don't want to be on a cable show 
saying I told the Secretary and I told the department and I 
told the Congress so, but I mean we are looking at Mexico, 
Texas or New Mexico or what have you, we are looking at that 
and saying, Oh, wow, Canada, U.S. We have it right there, an 
international community. Pilots are trained in South Florida. 
So this is a very serious matter. And I don't think that you 
take it lightly, nor anyone in this room.
    Saying that, we have to, under our new policies, we have to 
use South Florida as a unique situation. How are we going to 
detain these individuals? What is going to be the litmus test 
for us detaining? Who is going to be detained? Who is not going 
to be detained? Krome is overcrowded. Right now we are renting 
hotels in south Florida. Very expensive to process these 
individuals.
    So Mr. Secretary, like I started out earlier and we talked 
privately, I want to know what your agency, what is their 
thinking towards south Florida? If there is another place in 
this country that has the same set of issues that I am 
describing, the name it, because it is not there.
    We need special attention there. And I don't mean special 
attention as it relates to something has happened again in 
south Florida. We need special attention as it relates to 
working out a very unique problem.
    The reason why I may speak with a level of frustration, not 
towards you, but towards our situation, is that I have 
constituents that don't quite understand what we understand as 
it relates to policy, as it relates to law, as it relates to 
fair play.
    So you could address that the best way possible, sir.
    Mr. Hutchinson. Well, and I think your last comment is 
probably appropriate. It is hard for some to follow all the 
distinctions that Congress has made on immigration policy and 
how the policy is implemented there. Perhaps we could do a 
better job of talking to them.
    But in reference to South Florida, one, we understand the 
uniqueness of that area and the importance of it and the 
potentials that are there for problems that we would have to 
face in our country. And so we are working with Coast Guard, 
Border Patrol, Immigration, Customs Enforcement to coordinate 
plans and to be ready in the event that we have to coordinate 
and respond to any particular incident.
    In reference to the Attorney General's report on the 
Haitian refugees that have claimed asylum, the ruling that the 
Attorney General gave was that there was a basis to consider 
the impact on national security from the standpoint of mass 
migration, not in terms of necessarily a specific terrorist, 
but that would be a potential there as well. And so that 
consideration was made in the decision to detain.
    Obviously, we have to discourage, because of the danger of 
it as much as anything else, that type of migration coming 
across those choppy and dangerous waters. We have lost a lot of 
lives there.
    Mr. Meek. Mr. Secretary, just quickly, because I don't want 
the red light to hit me, and you and I have been here for a 
very long time today.
    Let me just say this: We don't have to get into that, 
because we know what the situation is. What I know--well I 
won't say we, but what I do know--is the fact that anyone would 
know the threat to the United States via Cuba is much higher 
than via Haiti.
    And as it relates to, and I hear what you are saying, but 
the general did verbalize that perception on the national 
media. But as it relates to mass migration, we are about to 
have that in a few minutes. We had it in 1994 when Castro 
started getting tough on the dissidents and what have you. He 
is doing it again now. And we may very well have a mass 
migration of individuals that may come to this country.
    As it relates to Haiti, we are working out, we just met 
with the Secretary of the Treasury on working out some of these 
loans that have been held up as it relates to Haiti, that is 
breeding some of this violence that is going on over there. And 
that is over and above our head.
    I think, Mr. Secretary, what is going to happen here is 
that we have to have, not only a meeting, but a working group 
as it relates to South Florida. Hotels and having people jammed 
at Krome is not the answer. It is not a temporary problem.
    If we are going to protect this homeland, we have to act 
like we are going to protect it and prepare our local community 
for it. And that is what we have to do, and that is the reason 
I asked you who should I work with in your office? And this is 
a carryover that my mother who served before me, some of the 
same issues. And so, but--
    Mr. Hutchinson. We would be happy to give you, you know, a 
briefing, some information on some of the plans and some of our 
interaction among the agencies there and discuss these things 
more specifically with you.
    Mr. Meek. OK.
    Mr. Chairman, it is just along the lines--thank you for 
indulging me. Along the lines of us not really understanding 
what the issues are. We understand it because we live the 
situation. We have Americans that are families of this 
individuals that are seeking asylum. But the functions of 
moving out of hotels, looking at how we are going to deal with 
women detainees, looking at how we are going to deal with 
families, how we are going to deal with children, how we are 
going to deal with all of these issues that are compounded.
    And it must be a South Florida working group, Mr. 
Secretary, because these issues are continuing to compound even 
more, and it is affecting our economy.
    Thank you, sir.
    Chairman Cox. Mr. Secretary, I understand that you to make 
a plane. We have one last questioner and the gentleman from 
North Carolina has waited a long time to ask his questions. If 
you can indulge us, we would certainly appreciate it.
    Mr. Hutchinson. Absolutely, I will yield to the gentleman 
from North Carolina.
    Chairman Cox. The gentleman from North Carolina, Mr. 
Etheridge, is recognized for his questions.
    Mr. Etheridge. Thank you, Mr. Chairman.
    And I thank you for waiting. I am the person you have been 
looking at all afternoon after three hours. A number of the 
questions have been asked, but I want to ask one very specific 
to my district, as many do.
    We haven't talked a lot about service this afternoon, but 
the truth is we are about protection. But at the end of the 
day, if we don't provide service, the taxpayers aren't very 
happy with the spending of the resources.
    Let me talk, Mr. Secretary, about a very specific 
situation. I hope it is not general, but my guess is there are 
a lot of situations like that, and recognizing that the area we 
are dealing with will be the INS, so you can understand where I 
am coming from.
    My district includes, in North Carolina, Fort Bragg and 
Pope Air Force Base. So I have got a lot of people who are on 
the front line defending this country, but also a large number 
of them are waiting to get their naturalization, to become 
naturalized citizens of this country and they are military 
personnel.
    And I got this from one of our caseworkers who is just 
absolutely frustrated because this has happened on a number of 
occasions. The department's advertisement that they will 
expedite naturalization procedures for military personnel. We 
have called the immigration service on one specific case, and 
there are a number of others, but I am going just use one. And 
they were unresponsive. They were inflexible in terms of the 
rescheduling of a hearing for soldiers who were about to be 
deployed.
    We have one individual who is an intelligence officer in 
the military wanted to get it. He has Top Secret security 
clearance. He had asked to have it rescheduled three times 
because he was deployed. Every time he got ready to be 
deployed, had to reschedule his hearing. Most recently, the 
Immigration Service Center refused to move up his hearing two 
days because he was getting ready to be deployed again.
    I know that is not something you deal with every day. But I 
know with the people in your agency, they need to know that if 
it is going to be advertised from the department level and 
through the White House, people in the agency have got to 
respond, because you are a member as well.
    I mean, you pick up the phone and call, they expect help. 
Pretty soon, they figure you are ineffective anyway. But more 
importantly, these are the men and women who are on the front 
line serving in Iraq, in Afghanistan. And you understand from 
Fort Bragg, they can be anywhere in the world within hours.
    And these men and women have come to this country and are 
serving. And everyone deserves service, but these people 
absolutely deserve our best effort.
    Mr. Hutchinson. I agree 100 percent with you, and it is a 
commitment that we make to recognize their contribution and 
make sure that their paperwork is processed. So I will be happy 
to talk to Director Aguirre and be more responsive in the 
future on those. And we will follow up.
    Mr. Etheridge. Would you be kind enough to have someone be 
in touch with our office, because we just need to know how we 
can help expedite this. You know, when one comes, in this case 
especially with deployments, it really does become a problem. I 
am sure this is proved in a number of other installations 
around the country. They are not asking any special attention, 
except for the fact if you have got a deployment and you are 
coming up, all you need to do is move a day or two, and if 
people could understand that, I think that would be most 
helpful.
    Mr. Hutchinson. That is right. And I have actually had some 
conversation with Director Aguirre that traditionally they have 
had to wait for a particular ceremony and time frame. And he 
says there is not any reason for that, that we can actually, 
you know, naturalize them at the time that their paperwork is 
completed. And so hopefully, we can work through that 
difficulty.
    Mr. Etheridge. I appreciate that and I will, given the 
lateness of the hour.
    Ms. Jackson-Lee. Will the gentleman yield for just a 
moment?
    Mr. Etheridge. I would be happy to yield.
    Ms. Jackson-Lee. May I just ask a quick question to the 
gentleman that I said I was going to do privately. But you have 
to catch a plane.
    On the incident that happened in Texas, the 21 that lost 
their lives and the whole smuggling issue.
    Mr. Hutchinson. Yes.
    Ms. Jackson-Lee. I am studying legislation that deals with 
a program that tracks the State Department's reward system, 
that will give rewards to the victims who will help in the 
prosecution, arrest, et cetera. Would that be?
    Mr. Etheridge. Excuse me, when you finish, would you yield 
back? I do have another--
    Ms. Jackson-Lee. Yes, would be happy to.
    Would that be something as well as enhanced penalties? And 
it also has the possibility of a new class of status if that 
individual helps in the conviction. I like the term 
``conviction.'' And I would be interested in your thoughts on 
working to provide greater resources to get those smuggling 
rings smashed, or bashed, if you will.
    Mr. Hutchinson. Without looking at the details of it, it 
certainly sounds like that would be helpful. Any time we can 
encourage information, encourage cooperation, going after these 
smuggling organizations, give incentives for that and then 
enhanced penalties, I think that would be helpful to us.
    Ms. Jackson-Lee. I thank you. I yield back to the 
gentleman.
    Mr. Etheridge. Thank you. Mr. Secretary, if you will just 
put someone in touch, or give us the name of some person that 
we can be in touch with, I would appreciate that.
    Mr. Hutchinson. Pam Turner is our legislative affairs 
person. And we have got some here, and they are taking notes. 
And we are going to follow up.
    Mr. Etheridge. Good. Thank you, sir.
    One final point, just as a question, and you can put it in 
writing if you like. Last week we talked with Under Secretary 
Brown about the Fire Grants and other things as it relates 
going directly to the departments and not getting called up, 
because that now is a direct flow. And I hope we can have your 
assurance, as we had it last week, that that will continue to 
happen.
    Mr. Hutchinson. You are speaking of the money on Fire 
Grants?
    Mr. Etheridge. Yes, sir.
    Mr. Hutchinson. Mike Brown, I will certainly support him in 
getting that out.
    Mr. Etheridge. Thank you, and I yield back.
    Chairman Cox. Mr. Under Secretary, your time and attention 
to the concerns of this committee are very appreciated. You are 
always welcome here. We stand ready to work with you to make 
our country safe from terrorism.
    We know you have a plane to catch. And so you are excused, 
and this hearing stands adjourned.
    Mr. Hutchinson. Thank you, Mr. Chairman.
    [Whereupon, at 5:15 p.m., the subcommittee was adjourned.]

       Questions for the Record Submitted by Rep. Mark E. Souder.

    1. I have several questions relating to the role of the 
counternarcotics officer of the Department of Homeland Security, which 
is a position whose creation I originally sponsored. And I should point 
out that had I known that someone with your commitment to the drug 
issue would be in your position, it may not have been necessary to 
create the position.
        a. How often have you met with Mr. Mackin and what do you see 
        as his role within the Department?
        [No response from the Committee was received.]
        b. As you may know the statutory mission of that position is 
        to--coordinate policy and operations within the Department and 
        between the Department and other Federal departments and 
        agencies with respect to interdicting the entry of illegal 
        drugs into the United States, and tracking and severing 
        connections between illegal drug trafficking and terrorism.'' 
        What specific role has he played in deciding how to allocate 
        resources within BTS, and in improving coordination between 
        BTS? various divisions?
        [No response from the Committee was received.]
        c. Are there any improvements that can be made with respect to 
        the structure of this position and its interaction within the 
        Department?
        [No response from the Committee was received.]
        d. As you may know, the counternarcotics officer position 
        already wears two hats--counternarcotics officer at the 
        Department and the responsibilities of the U.S. Interdiction 
        Coordinator. Do you believe that anyone could effectively do 
        both of these jobs and also remain a full-time employee of 
        another federal agency in a third job?
        [No response from the Committee was received.]
        e. Traditionally, the role of United States Interdiction 
        Coordinator has been to work to ensure that existing assets are 
        effectively deployed to fulfill the interdiction strategy 
        established by our National Drug Control Strategy--an 
        operations, not a policy position. If you believe it is 
        important that there be someone with the responsibility to 
        insure there is an efficient use of existing resources 
        Department-wide to fulfill our drug interdiction strategy? Does 
        this person need to play a lead policy development role?
        [No response from the Committee was received.]
        f. Similarly, the role of a counternarcotics coordinator at the 
        Department of Homeland Security was seen as someone who would 
        work with agencies on behalf of the Secretary to insure that 
        the drug threat was not ignored and that Department resources 
        were used in a coordinated and effective manner to respond to 
        this threat. Again, much more of an operational, rather than 
        policy, role. Should this be a separate individual, without 
        other responsibilities or authorities within Homeland, or is 
        this a role best filled by someone with other authorities 
        within DHS? If this should be a separate and unique individual, 
        should the Counternarcotics Coordinator within Homeland also be 
        responsible for establishing departmental policies on how to 
        respond to the narcotics threat?
        [No response from the Committee was received.]

    2. What is the organizational status of the Air and Marine 
Interdiction Division (AMID)? As you know, it has been assigned to the 
Bureau of Immigration and Customs Enforcement (BICE). It looks to me 
like there is a significant likelihood that that organization would 
make AMID responsible to investigators when it has historically been an 
asset dedicated to drug interdiction and breaking up smuggling. It is a 
tremendously important national capability that really needs our strong 
support. Would it make more sense for AMID to be organized as a 
separate entity directly under your authority?
    [No response from the Committee was received.]

    3. My staff on the Drug Policy Subcommittee just returned from a 
visit to the Southwest Border where some law enforcement agencies 
expressed concern about what they perceived as a lack of commitment of 
some western U.S. Border Patrol Sectors to drug enforcement. While we 
know that the Border Patrol makes significant numerical seizures of 
drugs, the thrust of the concern was that it had focused its 
enforcement actions on illegal immigration to the detriment of drug 
enforcement. The unsubstantiated allegations were that some agents had 
been instructed not to make too many seizures and that the Border 
Patrol has deliberately sabotaged undercover operations of other 
agencies along the border because they would undercut that a given 
section of the border has been ``controlled''. Apparently, some 
agencies no longer inform the Border Patrol about their undercover 
operations because of this perception, raising officer safety concerns.
        a. Are you aware of these concerns or any basis for them? If 
        so, have you taken any steps to remedy this conduct?
        [No response from the Committee was received.]
        b. Have you taken any other steps to improve the performance of 
        the Border Patrol with respect to drug interdiction?
        [No response from the Committee was received.]
        c. Do you believe that the Border Patrol is doing all it can to 
        prevent illegal drug trafficking across the U.S.-Mexico border?
        [No response from the Committee was received.]

    4. I have some additional concerns about how well your two main law 
enforcement divisions--the Bureau of Immigration and Customs 
Enforcement (BICE), and the Bureau of Customs and Border Protection 
(BCBP)--are working together. For example, it appears that the U.S. 
Border Patrol has not had a good record of responding to requests for 
assistance from the Air and Marine division of Custom on potential 
smugglers; that record has not improved since the ``merger'' of the 
agencies on March 1, 2003. What steps have you taken to improve the 
working relationships between these agencies? Are you fully satisfied 
with the cooperation between BICE and BCBP?
    [No response from the Committee was received.]

    5. Congressman Shadegg and I recently met with BCBP Commissioner 
Bonner concerning the status of the unit of Native Americans known as 
the ``Shadow Wolves,'' who detect smuggling along the section of border 
within the Tohono O'odham reservation in southern Arizona. The Shadow 
Wolves are being transferred from BICE to BCBP, and some have alleged 
that the U.S. Border Patrol was trying to take advantage of the 
transfer to take control of the unit. Commissioner Bonner told us that 
the Shadow Wolves would continue in their current mission and would not 
be made a part of the Border Patrol. But it appears that there is a 
disconnect somewhere, because as recently as this month officials of 
the Tucson Sector of the Border Patrol have told the Shadow Wolves that 
they are to be brought under the direct authority of the Border Patrol.
        a. What is the current status of the Shadow Wolves? Is there 
        any truth to the allegations that have been raised with respect 
        to the Border Patrol?
        [No response from the Committee was received.]
        b. What steps will you take to ensure that the Shadow Wolves 
        preserve their unique identity and their vital mission of 
        tracking and stopping drug smuggling?
        [No response from the Committee was received.]
        c. Are there any plans to expand the Shadow Wolves concept to 
        other reservations with a border nexus?
        [No response from the Committee was received.]

    6. I have visited the Air and Marine Interdiction Coordination 
Center in Riverside, California. That facility receives radar inputs 
and correlates intelligence and information on air traffic from 
virtually every conceivable source (including a number of its own) and 
is one of the most impressive places I have visited in the government. 
AMICC is a key center since no other facility in the Federal Government 
has these capabilities under one roof.
        a. Why aren't other BTS activities deconflicted through the 
        AMICC? I understand, for example that BCBP aircraft frequently 
        fly ``low and slow'' along the border, without notifying the 
        AMICC. As a result, the AMICC scrambles BICE aircraft to 
        intercept the suspicious aircraft, needlessly expending 
        taxpayer money.
        [No response from the Committee was received.]
        b. I understand the AMICC sends its radar picture of the 
        National Capital Region to a new interagency airspace security 
        office called the National Capital Region Coordination Center. 
        I understand the AMICC is the only source for this and there 
        isn't a backup--are you reviewing this?
        [No response from the Committee was received.]
        c. Where is the best position within the DHS organizational 
        structure for the AMICC to maximize its contribution to 
        Department-wide detection, sorting, monitoring, interdiction, 
        and response needs?
        [No response from the Committee was received.]
        d. Are you considering any technology and personnel upgrades 
        for the facility to enhance its capabilities to counter 
        smuggling and illegal immigration and secure airspace?
        [No response from the Committee was received.]

    7. It has come to my attention that both BCBP and BICE operate 
independent fleets of vessels and aircraft. These assets have not been 
combined in the Department's organizational structure, sacrificing 
operational synergy and savings that could be accomplished by 
centralization. In some places, there are both BCBP and BICE assets, 
yet they remain separated. So we are funding two separate hangars, two 
separate maintenance and fuel contracts and so forth.
        a. Are you looking at combining these operations or increasing 
        their efficiency?
        [No response from the Committee was received.]
        b. Who are the customers of the services rendered by the 
        vessels and aircraft within BCBP? And who are the customers of 
        the services rendered by the vessels and aircraft of BICE? 
        Which side of the house works more with other agencies, such as 
        the Secret Service, and on other missions? Does the relatively 
        limited scope of activities for the BCBP aircraft further 
        support combining the two functions?
        [No response from the Committee was received.]

    8. Within the new Department, Mr. Hutchinson, you have more armed 
law enforcement employees under your command than anyone else. With 
that distinction come pretty significant management and oversight 
responsibilities to promote accountability, weapon proficiency, and to 
prevent excessive force incidents. At the same time, terrorists and 
drug cartels have demonstrated their lethality and agents and officers 
should be adequately equipped and empowered to address the threat. It 
will not suffice to be ``out-gunned'' during an encounter with 
terrorist and drug traffickers as the Los Angeles Police Department 
discovered during the North Hollywood bank robbery.
        a. What are your plans to centralize the weapons inventory 
        procedures for the Border Patrol, Customs, FPS, Immigration, 
        and TSA to prevent the kind of accountability difficulties 
        experienced by the FBI recently? How will your system of 
        accountability work with the remaining armed employees of the 
        Department, such as the Coast Guard and Secret Service?
        [No response from the Committee was received.]
        b. What are your plans for a new use of force policy? As 
        weapons training, proficiency and qualification are usually 
        addressed by policy, when will your new policy be published?
        [No response from the Committee was received.]
        c. I understand your assets frequently pursue vehicles and 
        vessels loaded with contraband that refuse to stop, and perform 
        airspace security missions for the small and slow aircraft 
        threat. These high-risk enforcement activities can easily 
        escalate to a lethal level. What legislative assistance do you 
        need to indemnify your officers for their encounters against 
        the new threats and to empower them to meet post attack 
        expectations?
        [No response from the Committee was received.]

    9. I am concerned that the investigation division (BICE) is 
separate from that of border protection (BCBP). One division arrests 
but another division, reporting to a different Commissioner, 
investigates. You are the only Department official with authority over 
both.
        a. The presumption is that the personnel on the border--
        particularly the US/Mexico border--will not be radically 
        altered. However, ICE investigative personnel will soon be more 
        vulnerable to sudden shifting to terrorism projects in other 
        regions. This has certainly happened within the FBI. How do we 
        assure that drug cases are maintained as a priority within the 
        investigation division?
        [No response from the Committee was received.]
        b. How can we assure that adequate resources will be made 
        available by BICE in every region to follow-up on narcotics 
        cases identified by BCBP?
        [No response from the Committee was received.]
        c. How can we be assured that agency pressure won't come to 
        border agents to slow down arrests so follow-up doesn't look 
        bad, as is already being alleged?
        [No response from the Committee was received.]

     Questions Submitted for the Record by Rep. James R. Langevin.

    Since the creation of this Select Committee, one of my primary 
concerns has been the intelligence collection, analysis and 
distribution capabilities of the Department of Homeland Security. I 
share the strong belief of our Ranking Member Mr. Turner, and many 
other members, that this function is the lifeblood of the new agency, 
and until it is fully operational, all other agency functions will be 
compromised.
    1. Therefore, I am interested in a detailed description of what 
relationship the Border and Transportation Security Directorate has 
with the IA/IP Directorate.
        a. How often do you receive intelligence reports from IA/IP?
        [No response from the Committee was received.]
        b. Does BTS have secure communications networks to receive this 
        intelligence and to share the information with your component 
        parts?
        [No response from the Committee was received.]
        c. Does the IA/IP Directorate provide any tailored products 
        specifically for Customs and Border Patrol?
        [No response from the Committee was received.]
        d. Is there a comprehensive threat assessment on which you're 
        basing your decisions? If not, when do you expect to have one--
        and do you feel that your work is being compromised without 
        one?
        [No response from the Committee was received.]

    2. I firmly believe our first responders, border agents, 
immigration officials and others need significantly more resources in 
order to effectively perform the responsibilities with which we have 
entrusted them. However, it is equally important that they know what to 
do with these resources once they get them.
        a. Is the necessary intelligence is making its way to your 
        employees on the ground, as well as our state and local 
        responders, so that they, too, can properly prioritize their 
        efforts and be prepared for the most threatening risks?
        [No response from the Committee was received.]
        b. If so, how is this information shared? If not, what is your 
        timeline for implementing such a procedure?
        [No response from the Committee was received.]

     Questions Submitted for the Record by the Minority Committee.

    Northern Border Staffing and Personnel Issues
    1. Does your fiscal year 2004 budget achieve the goals of both the 
PATRIOT Act and the Border Security Act? If not, what additional 
resources would be required to meet the staffing goals in both Acts?
    [No response from the Committee was received.]
    2. How many more border enforcement personnel for each of the three 
agencies--Border Patrol, INS (inspections), Customs (inspections)--will 
you have in 2004, relative to fiscal year 2001, 2002 and 2003 levels?
    [No response from the Committee was received.]
    3. What figure are you using as the baseline--2001 levels--for each 
of the three agencies: Border Patrol, INS (inspections), Customs 
(inspections)?
    [No response from the Committee was received.]
    4. Can you break out by agency how many new staff, whether 
inspectors or support staff, you have hired since 9/11?
    [No response from the Committee was received.]
    5. What is your border staffing model?
    [No response from the Committee was received.]
    6. What role does intelligence play in that and does intelligence 
come from one source or does it come from agencies outside DHS, such as 
the CIA, NSA?
    [No response from the Committee was received.]
    7. Have the training deficiencies been addressed? If not, when will 
they be?
    [No response from the Committee was received.]
    8. What additional resources are required?
    [No response from the Committee was received.]
    9. What remedial actions are underway to correct this deficiency?
    [No response from the Committee was received.]
    Southern Border Staffing and Personnel Issues
    10. How many new customs, Border Patrol and INS inspection 
personnel and support staff are requested in the President's fiscal 
year 2004 budget, relative to fiscal year 2001, 2002, and 2003 levels?
    [No response from the Committee was received.]
    11. What is the Department's current estimate of how many agents 
are required for the southwest border?
    [No response from the Committee was received.]
    12. How long will it take to reach that goal?
    [No response from the Committee was received.]
    13. How much closer does the fiscal year 2004 budget get you to 
that goal?
    [No response from the Committee was received.]

    General Staffing Issues
    14. Since C`BP agents will eventually be working as one unit, what 
training programs are in place to ensure that border inspectors are 
``cross-trained''?
    [No response from the Committee was received.]
    15. Will an Agricultural inspector be able to handle immigration 
inspections and vice versa?
    [No response from the Committee was received.]
    16. Will these inspectors continue to work in the areas of their 
expertise, or will they be expected to learn all of these jobs?
    [No response from the Committee was received.]
    17. How does CBP plan to make sure expertise is not lost?
    [No response from the Committee was received.]
    Intelligence
    18. How often does your Directorate receive intelligence reports 
from the Intelligence Analysis and Infrastructure Protection 
Directorate (IAIP)?
    [No response from the Committee was received.]
    19. Does BTS have secure communications networks to receive this 
intelligence or share the information with its component parts?
    [No response from the Committee was received.]
    20. The CBP's SENTRI program allows ``low-risk'' travelers to be 
processed in an expedited manner through a dedicated lane at any of 
three southwest border crossings.
    [No response from the Committee was received.]
    21. What role does intelligence information play in categorizing a 
traveler as ``low risk''? Ignore the number since this question goes 
with the lead in description on Q00396.
    [No response from the Committee was received.]
    22. Does CBP receive information directly from intelligence and law 
enforcement agencies?
    23. If so, what agencies?
    [No response from the Committee was received.]
    24. What types of information?
    [No response from the Committee was received.]
    23. Does this information go to the inspectors on the front lines 
at the borders and ports of entry?
    [No response from the Committee was received.]
    24. What role does CBP personnel have on the Joint Terrorism Task 
Forces? Are there CBP on every JTTF?
    [No response from the Committee was received.]
    27. Does the IAIP Directorate provide any tailored products 
specifically for CBP?
    [No response from the Committee was received.]
    28. Who is the primary contact for your Directorate at IAIP?
    [No response from the Committee was received.]
    29. What are the roles of these offices?
    [No response from the Committee was received.]
    30. Does CBP have its own analysts?
    [No response from the Committee was received.]
    31. What relationship, if any, is there between these offices and 
the IAIP Directorate?
    [No response from the Committee was received.]

    Border Technology
    32.Is it in the best interest of homeland security to increase the 
use of video entry technology that, according to a January 2002 
Treasury Department Inspector General report, often fails because of 
severe weather and software problems?
    [No response from the Committee was received.]
    32A. If not, what steps are you taking to fix the equipment?
    [No response from the Committee was received.]
    33. Are there plans under way to deploy a combination of unmanned 
aerial vehicles (UAV's) and aerostat balloons to ensure that our 
borders are under 24/7 surveillance?
    [No response from the Committee was received.]
    34. If so, when can this be achieved?
    [No response from the Committee was received.]
    35. What is CBP doing to cure the fundamental weaknesses found by 
the GAO?
    [No response from the Committee was received.]
    Transportation Security Administration
    36. In fiscal year 2002, fiscal year 2003 and the Administration's 
fiscal year 2004 request, maritime and land security has received only 
4.5 percent of TSA's budget. Does this mean that rail, bus, and ferries 
are all secure at this point and therefore require fewer resources?
    [No response from the Committee was received.]
    Answer: TSA's non-aviation transportation security budget only 
reflects a portion of the resources the Department is investing in 
these critical areas. For fiscal year 2004, DHS has requested 
substantial resources across the Department for maritime and land 
transportation security, including resources in the Coast Guard for 
ports and maritime security; in BCBP for cargo security; in IAIP for 
vulnerability assessment, intelligence, and infrastructure protection 
for all sectors including transportation; and in EP`R/FEMA for 
emergency response. TSA is continuing key standards-setting efforts, 
and will work closely with modal administrations of the Department of 
Transportation to help leverage resources of that agency, where 
appropriate, to accomplish security goals.
    37. What has TSA done to coordinate the security of these other 
modes of transportation with state and local governments?
    Answer: TSA has worked closely with state and local governments, as 
well as numerous transportation associations to develop standards and 
guidelines for enhanced security. TSA has shared concept papers with 
various mass transit agencies, and participated in community forums to 
foster coordination between emergency services and transit systems. TSA 
has participated in response exercises, including an Emergency Response 
Plan Exercise at Union Station in Washington, DC with over 20 Federal, 
regional, and local agencies participating. TSA worked very closely 
with state Departments of Motor Vehicles and the American Association 
of Motor Vehicle Administrators in developing the ``HAZMAT Drivers 
Rule.'' TSA also leveraged longstanding existing stakeholder 
relationships maintained by modal administrations of the Department of 
Transportation such as the Federal Transit Administration, the Federal 
Railroad Administration, the Federal Highway Administration, and the 
Federal Motor Carrier Safety Administration. TSA will continue to work 
closely with DOT's modal administrations, and state and local 
governments in coordinating security measures.
    38. TSA's ``Known Shipper'' program is similar in many respects to 
other ``frequent shipper'' programs like C-TPAT or ``frequent border 
crossing programs'' like SENTRI, in that they all rely on advance 
clearance. What is being done to ensure that these similar programs 
have similar elements and requirements to make it easier to move 
legitimate cargo, whether on a plane or by ship?
    Answer: The Border and Transportation Security Directorate and its 
agencies (TSA and Customs and Border Protection (CBP)) have initiated 
broad coordination efforts to identify opportunities to leverage 
resources and technology, and to develop policy that supports a 
comprehensive and coordinated approach to cargo security across modes 
for example, the operational feasibility of linking TSA's Known Shipper 
program to CBP's C-TPAT initiative in the air cargo environment is 
being explored. Information on shipper legitimacy gained through Known 
Shipper may help to strengthen C-TPAT verification procedures; 
conversely, C-TPAT status may ensure a greater degree of enroute 
security as cargo is transported through the supply chain. TSA has 
deployed personnel to CBP's National Targeting Center in order to 
leverage existing cargo ``pre-screening'' technology in the development 
of TSA targeting systems to identify high-risk cargo. Both agencies 
have on-going R`D efforts to support the introduction of new technology 
to screen air cargo. TSA and CBP are sharing R`D programs and plans to 
ensure maximum applicability of technology investments. Finally, BTS, 
in its oversight role, is working to ensure that its agencies establish 
consistent security policies and regulations where practical to avoid 
application of efforts, present one face to the industry, and make the 
most efficient use of available resources.
    39. Isn't it true that even while there are positions that 
immediately need to be filled, such as the explosive screeners at 
Dulles, you are firing over 5,000 screeners nationwide?
    Answer: Following the events of September 11, 2001, TSA ramped up 
to meet deadlines for federalizing passenger and baggage screening. 
After analyzing TSA's staffing model, it was clear that there were 
airports with an imbalance in staffing; some airports with too many 
screeners, and some, particularly in large metropolitan areas, with too 
few. Based on these screening imbalances, complying with congressional 
direction on workforce size and consistent with ongoing efforts to 
maximize efficiencies of an appropriate full-time/part-time mix, which 
can more efficiently meet the passenger surges inherent in airline 
scheduling, TSA initiated an effort to reduce its workforce by a total 
of 6,000. Beginning on April 1, 2003, TSA reduced the screener 
workforce by 3,000 personnel effective by May 31 and by an additional 
3,000 personnel effective by September 30, 2003. As part of the 
rightsizing effort, TSA recognized that some airports require 
additional screener staffing, either as a result of increased passenger 
load or as a result of attrition of screeners. Where necessary, TSA is 
hiring screeners at those airports. Additionally, approximately 200 
screeners were offered the opportunity to transfer to airports that 
have been hard to fill through the normal recruiting and hiring 
process. Those who were selected for transfer to such airports were 
provided a one-time stipend as an incentive to re-locate to those 
airports.
    40. What was your role in making the decision to fire over 5,000 
airport screeners?
    Answer: Based on screening imbalances in airports around the 
country, complying with congressional direction on workforce size, and 
consistent with ongoing efforts to maximize efficiencies inherent in an 
appropriate full-time/part-time mix which can more efficiently meet the 
passenger surges inherent in airline scheduling, TSA reduced its 
screener workforce by a total of 6,000 screeners in two segments: the 
first reduction of 3,000 screeners by May 31, 2003, and reduction of 
remaining screeners by September 30, 2003. The majority (more than 85 
percent) of the screener workforce reductions will be achieved through 
resignations, retirements, medical disqualifications, failure to 
successfully complete a random drug and alcohol test, releases for 
inappropriate conduct, and terminations for suitability (failure to 
meet hiring standards). TSA's role was to ensure security was not 
compromised, that customer service was maintained, and that each 
employee was treated with dignity and respect during the reduction 
process. BTS has been continually informed of progress by TSA 
throughout its screener rightsizing efforts.
    41. Did TSA conduct an analysis of the effect on airline security 
of the reduction in these positions?
    Answer: Effective screening with respect to security is a function 
of not only the number of screening staff, but other factors such as 
individual screener performance, training, and management oversight. 
TSA must pay attention to a variety of factors, and the effect on 
staffing levels is just one of many issues that can affect security 
performance outcomes. That said, it was clear prior to this downsizing 
effort that many screeners were underachieving even after substantial 
effort to effectively train, equip, and manage these individuals. In 
addition, excessive downtime of screeners caused by overstaffing has 
the potential of undermining individual alertness. Clearly, some 
airports can use more staff than are currently employed, and we are 
actively working to address areas of shortfall through a more effective 
screener modeling effort currently underway. Security is our highest 
mission goal, and whatever actions are taken during the course of this 
young agency to normalize screener staffing, DHS will not place 
security at risk.
    42. How do you know what the right number of airport screeners is?
    Answer: The best way to determine the appropriate staffing level 
for each airport is to undertake a comprehensive modeling effort taking 
into account passenger traffic, flight schedules, and the unique design 
of each airport. We are doing this right now, and expect to finish this 
effort in early 2004. Of course, after this time TSA will continue to 
refine and adjust its screener staffing levels to meet the changing 
passenger traffic and airline schedules at individual airports.
    43. Are you investigating newer, more accurate methods that the 
airlines could use to compare passenger names to the No Fly List?
    Answer: To assist airlines in readily identifying passengers who 
present a threat to civil aviation or national security, TSA continues 
to work closely with the intelligence and law enforcement communities 
and the IAIP Directorate to provide the most accurate available 
information on the No Fly List. TSA provides the No Fly List to the 
airlines as attachments to Security Directives, as well as established 
guidelines for action in instances where there is a passenger name 
match. TSA realizes that commercial civil aviation carriers range from 
small air carriers to large, major air carriers. Keeping the complexity 
and the diversity of the individual carriers' systems in mind, TSA 
provides carriers discretion in implementing measures for comparing 
their passenger names with the No Fly List, rather than directing 
specific methods for comparing passenger names to the No Fly List. TSA 
coordinates with carriers to ensure the No Fly List format and 
transmission methods are compatible with their internal systems and 
processes, by regular interaction to address opportunities for 
improvement.
    44. Given the problems with the No Fly List, how effective is the 
system now?
    Answer: TSA continues to refine the process for identifying 
passengers who present a potential terrorist threat while at the same 
time attempting to minimize the impact posed by the process on the 
traveling public. The No Fly List has been effective in prohibiting 
travel of those individuals identified by the U.S. Government as 
potential threats to civil aviation and national security. The 
effectiveness of the No Fly List should improve further once the 
transition of the process for nominating and adjudicating individuals 
selected for placement on the list to the Terrorist Screening Center is 
completed.

    Rail Security Issues
    45. Since relatively little funding has been requested for this 
activity, how many of the railcars are currently inspected?
    Answer: Customs and Border Protection (CBP) screens 22.6% of all 
rail cars entering the United States.
    46. What efforts are under way to formulate a plan for rail 
security?
    Answer: TSA is working under the guidance of the IAIP directorate 
and with the Department of Transportation to develop a risk-based 
national rail plan highlighted in the GAO report on rail security (GAO-
03-435). This plan will make maximum use of the railroad industry's 
Terrorism Risk Analysis and Security Management Plan, which is being 
reviewed consistent with national interests and security goals.
    47. Why is there not even a timetable for accomplishing this?
    Answer: TSA is collaborating with the Department of Transportation, 
the Bureau of Customs and Border Protection, the Information Analysis 
and Infrastructure Protection Directorate and the Emergency Response 
and Preparedness Directorate at the Department of Homeland Security, in 
the development of several initiatives, including those involving 
hazardous materials, food and agriculture, and intermodal containers, 
in support of development of a National Rail Security Plan. At an 
appropriate point of maturity in these collaborations, the 
implementation of such a plan will move forward.
    48. How was it decided that we would expend great resources on 
aviation, but not on rail or other surface transportation?
    49. Was it based on assessments of relative threat and 
vulnerability between these modes of transportation?
    50. Who made that assessment?
    Answer to 48-50: The Aviation and Transportation Security Act, 
P.L.107-71, established very specific requirements and milestones 
related to aviation security. The need to meet the Congressional 
requirements and milestones for aviation security has driven the level 
of resources devoted to this mode of transportation.
    51. Can 83 employees cover security issues for all non-aviation 
transportation in the United States?
    Answer: While the task of securing the highway, rail, mass transit, 
pipeline and maritime modes of the national transportation system is 
daunting, TSA's non-aviation transportation security budget for 
inspections personnel and personnel in the Office of Maritime and Land 
(which exceeds 83), only reflects a portion of the resources the 
Department is investing in these critical areas. For fiscal year 2004, 
DHS has requested substantial resources across the Department for 
maritime and land transportation security, including resources in the 
Coast Guard for ports and maritime security; in BCBP for cargo 
security; in IAIP for vulnerability assessment, intelligence, and 
infrastructure protection for all sectors including transportation; and 
in EP`R for emergency response. TSA is continuing key standards-setting 
efforts, and will work closely with modal administrations of the 
Department of Transportation to help leverage staff and funding 
resources of that agency, where appropriate, to accomplish security 
goals.
    52. Can 200?
    Answer: TSA will continue to evaluate the appropriate staffing/
resource levels needed to meet our security mission. In all of its 
operations relating to non-aviation modes of transportation, TSA will 
work closely with DHS agencies and directorates such as IAIP, the U.S. 
Coast Guard, and Customs and Border Protection, as well as with the 
Department of Transportation. TSA is committed to leveraging core 
competencies, capabilities, resources and authorities of the modal 
administrations, other federal, state, and local agencies and non-
government stakeholders.
    53. Will your fiscal year 2004 budget request permit the Office of 
Maritime and Land Security to hire even the 200 TSA plans for?
    Answer: The President's fiscal year 2004 budget request was based 
on an assessment of staffing needs at the time. With the enactment of 
the fiscal year 2004 appropriations bill, TSA will evaluate its 
staffing requirements and address resource allocations as appropriate.
    54. Was the decision made based on intelligence and a relative 
threat assessment between different modes of transportation?
    Answer: As discussed above, the President's fiscal year 2004 budget 
request was based on an assessment of staffing needs at the time. 
However, it is again important to note that the TSA's non-aviation 
transportation security budget only reflects a portion of the resources 
the Department is investing in these critical areas. The Coast Guard, 
BCBP, and IAIP all have operational expertise in securing the land and 
maritime modes. TSA is continuing key standards-setting efforts, and 
will work closely with both the modal administrations at the Department 
of Transportation and its sister DHS agencies to leverage resources and 
accomplish security goals.

    Port Security
    55. Given the importance of port security, what is the rationale 
for providing $475 million dollars less than what the Coast Guard 
estimates facility owners/operators will have to spend to comply with 
the MTSA? In other words, why are we setting up port facilities for 
failure?
    [No response from the Committee was received.]
    56. Currently 13 Phase I CSI teams are operational. When will Phase 
I be completed?
    [No response from the Committee was received.]
    57. With millions of containers coming into the United States are 
five-man teams large enough to review the manifests to target and 
inspect the high volume of containers that move through large foreign 
ports?
    [No response from the Committee was received.]
    58. Does BCBP assist nations in the acquisition of NII technology?
    [No response from the Committee was received.]
    59. If not, what is the plan to screen containers from these 
nations?
    [No response from the Committee was received.]
    60. What steps are being taken to further scrutinize container 
manifests?
    [No response from the Committee was received.]
    61. Who provides Customs ` Border Protection officers with the 
intelligence data that informs their decisions to inspect an individual 
cargo container?
    [No response from the Committee was received.]
    62. Are BICE agents part of the CSI teams?
    [No response from the Committee was received.]
    63. Are BCP agents receiving finished intelligence from IAIP?
    [No response from the Committee was received.]
    64. If not IAIP, who is responsible to ensure CSI agents have the 
intelligence support they need?
    65. Who verifies the risk management tools used by foreign 
governments are acceptable to the U.S.?
    [No response from the Committee was received.]
    66. What does your budget for VACIS technology at every port?
    [No response from the Committee was received.]
    67. What type of non-intrusive inspection (NII) equipment do 
foreign CSI ports possess?
    [No response from the Committee was received.]
    68. What are the standards to determine if the equipment is 
effective?
    [No response from the Committee was received.]
    69. How many CSI ports do not have adequate NII technology?
    [No response from the Committee was received.]

    Immigration Issues
    70. What training programs have you developed for consular officers 
for the visa review process?
    [No response from the Committee was received.]
    71. Who has the final ``say'' in approving or denying a visa 
application- DHS officials or consular officers?
    [No response from the Committee was received.]
    72. What is the Department doing to alleviate problems with the 
SEVIS system identified in the Department of Justice's Inspector 
General report last month?
    [No response from the Committee was received.]
    73. When can we expect these problems to be solved?
    [No response from the Committee was received.]
    74. Given the history identified in the IG's report, and the recent 
problems with SEVIS, what assurances can DHS give that the new entry/
exit system and other systems will not suffer from similar technical 
problems?
    [No response from the Committee was received.]
    75. What has the Department done to locate the individuals that GAO 
has identified as possibly being in the country?
    [No response from the Committee was received.]
    76. What are you doing to immediately fix the specific problems 
identified by GAO, for example, that INS (now the Department), in many 
cases did not receive any notice of the revocation of visas based on 
terrorism concerns, and that in other cases it took an average of 12 
days for the information to reach the INS Lookout Unit?
    [No response from the Committee was received.]
    77. If it is a problem with the policies and procedures of the 
State Department, have you met with the State Department to resolve 
this issue?
    [No response from the Committee was received.]
    78. Will the Department impose penalties if schools are not able to 
meet the August 1st deadline due to system failures in SEVIS?
    [No response from the Committee was received.]

    Watch List Issues
    79. How many different watch lists do the inspectors at ports of 
entry have to consult?
    [No response from the Committee was received.]
    80. Are you confident that they are aware of all the different 
lists that exist?
    [No response from the Committee was received.]
    81. What is the basis behind the policy for not checking the watch 
lists at land borders?
    [No response from the Committee was received.]
    82. If a person on the terrorist watch list is unable to enter at 
an air or sea port, can that person simply enter through a land border 
instead?
    [No response from the Committee was received.]
    83. Since there is no single watch list, which watch list does CBP 
use?
    [No response from the Committee was received.]
    84. How did CBP determine to use that particular list or lists?
    [No response from the Committee was received.]
    85. Is CBP involved in any effort to consolidate these lists?
    [No response from the Committee was received.]
    86. What intel information are the workers at the borders relying 
on now?
    [No response from the Committee was received.]
    87. The Intelligence Authorization Act of 2003 requires the 
Director of Central Intelligence to establish a Terrorist 
Identification Classification System (TICS), and then make the system 
available to all the government agencies that have a need for the 
information. Has CBP been provided access to such a system?
    [No response from the Committee was received.]
    88. Can you explain why, nearly two years after September 11, there 
is not a single watch list?
    [No response from the Committee was received.]

    US VISIT
    89. The US--VISIT system is supposed to be implemented by the end 
of the year. The SEVIS system is supposed to be operational by August. 
CBP inspectors will use both of these systems. Have these inspectors 
been training on these systems?
    [No response from the Committee was received.]
    90. Given the well publicized technical problems with SEVIS, what 
assurances can CBP give that US VISIT will not suffer from the same?
    [No response from the Committee was received.]

    Border Crossing Programs
    91. Though CBP programs such as FAST and NEXUS provide dedicated 
lanes and booths for pre-approved, low-risk shipments and travelers, 
the efficacy of these programs is hampered by poor infrastructure at 
some borders. For example, there might be a dedicated lane for low-risk 
crossings, but there is no time savings because both pre-approved and 
other travelers are stuck in traffic in a two-lane road leading to the 
dedicated lanes. How effective are programs such as FAST and NEXUS in 
light of these infrastructure shortfalls?
    [No response from the Committee was received.]
    92. What plans are there to invest in infrastructure improvements?
    [No response from the Committee was received.]

    Organization ` Management (of BTS Directorate)
    93. Who is the Chief of Policy and Strategy for Border Security?
    [No response from the Committee was received.]
    94. Was the Chief Strategist directly involved in the decision to 
remove 5,000 airport screeners?
    [No response from the Committee was received.]
    95. The Emergency Preparedness ` Response Under Secretary testified 
last week that he intends to maintain FEMA's regional offices.
    [No response from the Committee was received.]
    96. Are there any regional offices that you intend to incorporate 
into your Directorate?
    [No response from the Committee was received.]
    97. With the splitting of functions between DHS and the legacy 
Departments, and the splits in authority, how can the employees, or 
Congress, be sure of ``who's in charge'' of a particular issue?
    [No response from the Committee was received.]
    98. What assurances can BTS give that this will not lead to 
confusion and bureaucratic delay?
    [No response from the Committee was received.]

    Budget Issues
    99. Has BTS submitted anything beyond the Administration's 2004 
budget request?
    [No response from the Committee was received.]
    100. Are any justification materials available regarding the fiscal 
year 2004 budget beyond the basic justification book?
    [No response from the Committee was received.]
    101. Did you have a role in putting together the fiscal year 2004 
request for your Directorate?
    [No response from the Committee was received.]
    102. If you did not, who did?
    [No response from the Committee was received.]
    103. Please provide fiscal year 2004 budget information for all DHS 
components within BTS at the project, program, and/or activity level.
    [No response from the Committee was received.]
    104. Does BTS monitor the execution of funds (i.e., the status of 
obligations and expended funds) for all entities within the 
Directorate?
    [No response from the Committee was received.]
        a. If so, how often are such execution reviews conducted?
        [No response from the Committee was received.]
        b. If the execution of funds is monitored, please provide a 
        copy of the most current execution report.
        [No response from the Committee was received.]

                                 <all>

</pre></body></html>
